No. 19In the

Supreme Court of the United States
MARK GRAF AND JOHN USTICH,
Petitioners,
v.
HYUNG SEOK KOH, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI

James G. Sotos
Counsel of Record
Jeffrey R. Kivetz
Daniel J. Mcginnis
The Sotos Law Firm, P.C.
141 West Jackson Boulevard,
Suite 1240A
Chicago, Illinois 60604
(630) 735-3300
jsotos@jsotoslaw.com
Counsel for Petitioners

292013

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
(1) Whether the Seventh Circuit’s renouncement
of jurisdiction over Petitioners’ interlocutory appeal
misapplied Johnson v. Jones, 515 U.S. 304 (1995), where
the denial of qualified immunity on Respondent’s Fifth
Amendment coercive interrogation claim was based solely
upon competing characterizations of otherwise undisputed
facts from a fully videotaped interview.
(2) Whether Petitioners were entitled to qualified
immunity on Respondent’s Fifth Amendment coercive
interrogation claim based upon the absence of clearly
established law prohibiting any of their interview tactics,
either individually or collectively.
(3) Whether the state criminal court judge’s fully
informed determination to admit Respondent’s statements
at his criminal trial was a superceding event which
severed the chain of causation on Respondent’s coercive
interrogation claim, entitling Petitioners to qualified
immunity.

ii
PARTIES TO THE PROCEEDING
Petitioners, Defendants-Appellants below, are Village
of Northbrook, Illinois Police Department Detectives
Mark Graf and John Ustich.
Respondent, Sung Phil Kim, a Village of Wheeling,
Illinois Police Officer, is a Defendant-Appellant below.
Respondent, Hyung Seok Koh, is one of the PlaintiffsAppellees below.

iii
RELATED CASES
• Koh v. Graf, No. 11-cv- 02605, U. S. District Court
for the Northern District of Illinois, Eastern
Division. Judgment entered March 29, 2018.
• Koh v. Ustich, No. 18-1809 & 18-1821, U.S. Court of
Appeals for the Seventh Circuit. Judgment entered
August 13, 2019.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RELATED CASES  . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONST I T U T IONA L A N D STAT U T ORY
PROVISIONS INVOLVED  . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 2
I.

Facts Leading To Respondent’s Interview . . . . . 2

II. The First Interview Session . . . . . . . . . . . . . . . . . 5
III. Petitioners Learn Information From
NORTAF Which Establishes Probable
Cause To Believe Koh Murdered Paul  . . . . . . . . 6

v
Table of Contents
Page
IV. The Second Inter v iew Session A nd
Petitioners’ Use Of Reid Interrogation
Techniques  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
V.

The Cook County State’s Attorney’s Office
(CCSAO) Charges Koh With Murder  . . . . . . . . 10

VI. The Proceedings Below . . . . . . . . . . . . . . . . . . . . 11
REASONS FOR GRANTING THE PETITION . . . . 14
I.

Review Is Needed To Resolve The Conflict
And Confusion In The Circuit Courts As
To Whether Johnson v. Jones Prohibits
Int erlocut or y Rev iew O f Q ua l i f ied
Immunity Denials Premised On Competing
Characterizations Of Undisputed Facts . . . . . . 16
A. The Petition Presents An Issue Of
Exceptional Importance Concerning
The Scope Of An Official’s Right To
Interlocutory Review Of The Denial Of
His Claim To Immunity From Trial . . . . . 16
B. The Circuit Courts Are In Disarray
On T he Scope Of Int erlocut or y
Jurisdiction Under Johnson . . . . . . . . . . . . 21

vi
Table of Contents
Page
II. Petitioners Were Entitled To Qualified
I m mu n it y Be c au s e T he r e Wa s No
Clearly Established Law Holding Their
Interrogation Tactics, Either Individually
Or In Combination, Unconstitutional . . . . . . . . . 26
III. The Lower Courts’ Refusal To Address
Petitioners’ Claim To Qualified Immunity
Based Upon The State Court Judge’s
Intervening Decision To Admit Koh’s
Statements Has Created An Inter-Circuit
Conf lict On A n Issue of Exceptional
Importance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

vii
TABLE OF APPENDICES
Page
A ppendi x A — opinion of the
united states court of appeals
for the seventh circuit, filed
	august 13, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1a
A ppendi x B — opinion of the
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS, EASTERN DIVISION DATED
MARCH 30, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26a

viii
TABLE OF CITED AUTHORITIES
Page
Cases:
Arizona v. Fulminante,
499 U.S. 279 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Ashcroft v. Iqbal,
556 U.S. 662 (2009) . . . . . . . . . . . . . . . . . . . . . . . .  17, 21
Barry v. O’Grady,
895 F.3d 440 (6th Cir. 2018) . . . . . . . . . . . . . . . . . . . . 24
Barts v. Joyner,
865 F.2d 1187 (11th Cir. 1989)  . . . . . . . . . . . . . . . . . . 32
Behrens v. Pelletier,
516 U.S. 299 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Brown v. Mississippi,
297 U.S. 278 (1936)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Buckley v. Fitzsimmons,
509 U.S. 259 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
Chavez v. Martinez,
538 U.S. 760 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
D.C. v. Wesby,
138 S. Ct. 577 (2018) . . . . . . . . . . . . . . . . . . . . . . .  28-29
Dassey v. Dittmann,
877 F.3d 297 (7th Cir. 2017), (en banc),
cert. denied, 138 S. Ct. 2677 (2018) . . . . . . . . . . . 15, 28

ix
Cited Authorities
Page
Evans v. Chalmers,
703 F.3d 636 (4th Cir. 2012) . . . . . . . . . . . . . . . . . . . . 32
Forrester v. White,
484 U.S. 219 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
Franklin for Estate of Franklin v. Peterson,
878 F.3d 631 (8th Cir. 2017), cert. denied sub
nom. Peterson v. Franklin, 139 S. Ct. 411
(2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
George v. Morris,
736 F.3d 829 (9th Cir. 2013) . . . . . . . . . . . . . . . . . . . . 22
Gill v. City of Milwaukee,
850 F.3d 335 (7th Cir. 2017) . . . . . . . . . . . . . . . . . 15, 28
Hadley v. Williams,
368 F.3d 747 (7th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 27
Harlow v. Fitzgerald,
457 U.S. 800 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Holland v. McGinnis,
963 F.2d 1044 (7th Cir. 1992) . . . . . . . . . . . . . . . . . . . 27
Hurt v. Wise,
880 F.3d 831 (7th Cir.), cert. denied sub
n o m . Vantlin v. Hur t, 139 S . Ct . 412
(2018), and overruled in part by Lewis v.
City of Chicago, 914 F.3d 472 (7th Cir. 2019) . . . . . . 28

x
Cited Authorities
Page
Jackson v. Curry,
888 F.3d 259 (7th Cir. 2018) . . . . . . . . . . . . . . . . . . . . 14
Johnson v. Jones,
515 U.S. 304 (1995)  . . . . . . . . . . . . . . . . . . . . . . . passim
Johnson v. Trigg,
28 F.3d 639 (7th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . 26
Kindl v. City of Berkley,
798 F.3d 391 (6th Cir. 2015), cert. denied sub
nom. Herriman v. Kindl, 136 S. Ct. 1657
(2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 25
Kisela v. Hughes,
138 S. Ct. 1148 (2018)  . . . . . . . . . . . . . . . . . . . . . . . . . 26
Lockwood v. Bowman Const. Co.,
101 F.3d 1231 (7th Cir. 1996) . . . . . . . . . . . . . . . . . . . 30
Malley v. Briggs,
475 U.S. 335 (1986)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Mitchell v. Forsyth,
472 U.S. 511 (1985)  . . . . . . . . . . . . . . . . . . . . . . . passim
Miranda v. Arizona,
384 U.S. 436 (1966) . . . . . . . . . . . . . . . . . . . . 5, 6, 11, 21

xi
Cited Authorities
Page
Mullenix v. Luna,
136 S. Ct. 305 (2015) . . . . . . . . . . . . . . . . . . . . 26, 27, 28
Murray v. Earle,
405 F.3d 278 (5th Cir. 2005) . . . . . . . . . . . . . . . . . 15, 31
Penn v. Escorsio,
764 F.3d 102 (1st Cir. 2014) . . . . . . . . . . . . . . . . . . . . . 22
Plumhoff v. Rickard,
572 U.S. 765 (2014)  . . . . . . . . . . . . . . . . . . . . . . . passim
Raines v. Counseling Assocs., Inc.,
883 F.3d 1071 (8th Cir. 2018), (as corrected) (Mar.
6, 2018), cert. denied sub nom. Burningham
v. Raines, 139 S. Ct. 787 (2019) . . . . . . . . . . . . . . 24, 25
Rogers v. Richmond,
365 U.S. 534 (1961)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Romo v. Largen,
723 F.3d 670 (6th Cir. 2013) . . . . . . . . . . . . . . . . . . . . 22
Schieber v. City of Philadelphia,
320 F.3d 409 (3d Cir. 2003) . . . . . . . . . . . . . . . . . . . . . 22
Schneckloth v. Bustamonte,
412 U.S. 218 (1973)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

xii
Cited Authorities
Page
Scott v. Harris,
550 U.S. 372 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Stinson v. Gauger,
868 F.3d 516 (7th Cir. 2015), cert. denied sub
nom. Johnson v. Stinson, 138 S. Ct. 1325
(2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 25
U.S. v. Ceballos,
302 F.3d 679 (7th Cir. 2002) . . . . . . . . . . . . . . . . . 27, 29
United States v. Rutledge,
900 F.2d 1127 (7th Cir. 1990) . . . . . . . . . . . . . . . . . . . 27
White v. Pauly,
137 S.Ct. 548 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Whitlock v. Brueggemann,
682 F.3d 567 (7th Cir. 2012) . . . . . . . . . . . . . . . . . . . . 31
Winfield v. Bass,
106 F.3d 525 (4th Cir. 1997) . . . . . . . . . . . . . . . . . . . . 22
Wray v. City of New York,
490 F.3d 189 (2d Cir. 2007) . . . . . . . . . . . . . . . . . . . . . 31
Statutes and Other Authorities:
U.S. Const. Amend. IV  . . . . . . . . . . . . . . . . . . . . . . . . 11 18

xiii
Cited Authorities
Page
U.S. Const. Amend. V  . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. Amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . . 11
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 30
Fed. Rule Civ. Proc. 56  . . . . . . . . . . . . . . . . . . . . . . . . . . 20

1
Petitioners Mark Graf and John Ustich respectfully
petition for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Seventh
Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals
for the Seventh Circuit is reported at 933 F.3d 836 and
reproduced at App. 1a-22a. The opinion of the United
States District Court for the Northern District of Illinois
is reported at 307 F.Supp.3d 827 and reproduced at App.
23a- 98a.
JURISDICTION
The judgment of the United States Court of Appeals
for the Seventh Circuit was entered on August 13, 2019.
This Court has jurisdiction pursuant to 28 U.S.C. § 1254
(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fifth Amendment provides in pertinent part: “No
person… shall be compelled in any criminal case to be a
witness against himself[.]”
Section 1983 of Title 42 of the United States Code
provides in pertinent part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any

2
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress[.]
Section 1291 of Title 28 of the United States Code
provides in pertinent part:
The court of appeals … shall have jurisdiction
of appeals from all final decisions of the district
courts of the United States[.]
STATEMENT OF THE CASE
I.

Facts Leading To Respondent’s Interview.

On April 16, 2009, around 3:45 a.m., Respondent
Hyung Seok Koh (“Koh”) called 911 after his wife
discovered their 22-year-old son, Paul, lying in a pool of
blood in the foyer of their Northbrook, Illinois home. App.
2a.1 Responding Village of Northbrook Police Officers and
Firefighter Paramedics found Paul lying dead next to a
kitchen knife and Mrs. Koh huddling over his body. Id.
Paul had suffered severe stab wounds to his throat and
chest. App. 2a, 29a.
The Kohs were escorted to the front yard and
“pushed” onto the grass while Northbrook officers
1. “App. ” references Petitioners’ required appendix. “Dkt.
” refers to the district court docket.

3
conducted a protective sweep of the house. App. 29a; Dkt.
311, ¶ 9. The Kohs remained on the lawn for 10-15 minutes
and were watched by police who denied their requests to
enter the house to see Paul, retrieve Koh’s medications
and cell phone, and travel to the hospital. App. 29a-30a.
They were then transported to the Northbrook Police
Department (“NPD”) by officer Matt Johnson who “sort
of shoved” them into his squad car. App. 30a.
Upon arrival at NPD, an officer asked Mrs. Koh to
wash the blood from her hands in a restroom. App. 3a.
The Kohs were kept in a conference room, first together
and later separated. Id. They were given blankets and
beverages. Id. Koh’s request to make a phone call was
denied but an officer reached his pastor, who arrived
at NPD within hours. Id. Other friends and family also
arrived but none, including the pastor, were allowed to
see the Kohs. Id.
A Northbrook police commander, recognizing a
language barrier, spoke with dispatchers about locating
a Korean-speaking police officer to help facilitate
communication with the Kohs. App. 33a. Officer Sung Phil
Kim of the nearby Wheeling Police Department responded
to Northbrook’s request. App. 3a-4a. Kim spoke Korean
socially, having learned Korean from his parents and at
Sunday school as a child, but otherwise had no formal
training in Korean or as a translator. App. 4a.
Northbrook Chief of Police Charles Wernick notified the
North Regional Major Crimes Task Force (“NORTAF”),
a regional police investigative team consisting of police
representatives from several local municipalities, to assist.
App. 33a. NORTAF forensic specialists responded to the

4
Koh residence and began processing the scene, while other
NORTAF officers responded to NPD and interviewed
the Kohs’ friends and family, as well as Mrs. Koh. Id. at
33a,37a.
Koh was questioned at NPD in two sessions that
totaled less than two and a half hours. App. 4a. The first
session began at 7:30 a.m. and lasted 55 minutes, and the
second session began at 11:30 a.m. and lasted 90 minutes.
App. 34a, 38a; Dkt. 311, ¶ 78. Petitioners, Northbrook
Detectives Mark Graf and John Ustich, were present for
both sessions and Officer Kim was present to assist with
translation. App. 4a, 38a. Graf primarily conducted the
interview, though Ustich and Kim also posed questions.
App. 4a. Both sessions were video recorded, however there
was a brief discussion before the first session began and at
the very end of the first session when the tape elapsed. Id.
Petitioners were trained on the Reid Technique of
Interview and Interrogation, which is “the definitive
police training school for interview and interrogation
in the United States.” Dkt. 311, ¶¶ 50-51. The Reid
Technique utilizes a nine step approach to interrogations
including: (1) confronting the suspect with his guilt; (2)
offering face-saving scenarios that justify the crime; (3)
interrupting all denials; (4) overcoming factual, moral,
and emotional objections to the charges; (5) procuring and
retaining a suspect’s attention; (6) showing sympathy and
understanding, and urging the suspect to tell the truth;
(7) presenting alternative questions (one face-saving, one
repulsive, but both incriminating); (8) getting the suspect
to recount details of the crime; and (9) converting the
statement into a full confession. Dkt. 311, ¶ 51. Petitioners
employed these tactics during the second session of Koh’s
interview. App. 39a; Dkt. 285-1, Video 2.

5
Prior to Koh’s interview, Ustich told Graf he was at
the Koh residence and observed a trail of blood from an
upper staircase down to the foyer where Paul’s body was
lying face up, his arm in a rigid posture, and a knife lying
next to him. Dkt. 311,¶ 47; Dkt. 281, Ex. 8B. Just before the
video started, Koh asked Graf for his medications (which
he used to control diabetes, high blood pressure, and
ammonia level disorder). App. 4a, 34a-35a. Graf responded
that someone would bring the medications. App. 4a. Also
before the video began, Graf asked Koh if he had a lawyer.
Id. Koh said he had an attorney but could not remember
the phone number. Id. Koh asked to see his pastor, his
daughter, and his church friend but Graf told him “the
only person I could see was a lawyer. And since I didn’t
have any phone numbers, so that was the end.” App. 4a-5a.
II. The First Interview Session.
The first videotaped session began at 7:30 a.m. with
Graf reading Koh his rights under Miranda v. Arizona,
384 U.S. 436 (1966) in English. App. 4a-5a. Koh nodded
up and down as Graf read. App. 5a. Graf passed Koh
a printed waiver form which listed Miranda rights in
English and asked Koh to sign and date the form. Id.
Koh asked Kim to “transfer this one” which the officers
understood as a request to translate. Id. Kim then spoke
with Koh in Korean and thereafter signed an Englishlanguage Miranda form “at Graf’s and Kim’s directions.”
App. 5a-6a.
Graf offered Koh beverages and food, but Koh only
requested water. App. 6a. Graf began asking questions in
English with little intervention or assistance from Kim.
Id. Koh answered some questions and communicated
at a basic level in English, but some of his answers

6
were confusing or unresponsive. Id. Graf nevertheless
continued questioning Koh who recounted the events of
the night of Paul’s death. Id. Graf and Koh also discussed
Paul’s drug use and depression. Id. A little over halfway
through the interview, Graf asked about Paul’s injuries
and whether they had an altercation that would have
caused them, to which Koh shrugged his shoulders, stated
“no,” and offered no further response. Dkt. 285-1, Video
1 at 34:27 to 34:35.
III. Petitioners Learn Information From NORTAF
Which Establishes Probable Cause To Believe Koh
Murdered Paul.
After Koh’s first interview, Petitioners spoke with
NORTAF representatives about the interview and
received investigative updates which led the district court
to determine at summary judgment that “a jury must
conclude that there was probable cause to arrest Koh after
the debriefing.” App. 58a, 61a. Specifically, Ustich noted
Koh had not vehemently denied involvement in Paul’s
death, the manner of his denial seemed oddly casual,
and he appeared evasive and not forthcoming. App. 58a.
Additionally, NORTAF forensic specialists told Petitioners
that physical evidence from the Kohs’ home demonstrated
Paul was murdered. App. 7a-8a. First, they found blood
in the upstairs master bathroom which suggested an
effort to clean up the crime scene. Second, they found
a bloody metal cross and broken necklace chain on the
floor, suggesting Paul was attacked and a struggle had
ensued. Id. Third, they explained that Paul’s extensive
stab wounds to the chest and throat demonstrated Paul
was murdered, because he could not have inflicted those
injuries upon himself. App. 7a, 8a, 59a.

7
NORTAF investigators who interviewed the Kohs’
family and friends also provided Petitioners with motive
evidence. App. 59a. Petitioners learned Koh and Paul had
a highly confrontational relationship. App. 59a-60a. Paul’s
youth pastor informed investigators that Koh made Paul
enter into a “Family Agreement” which prohibited drug
use and provided for random drug tests, and that Koh
and Paul recently had an altercation. App. 7a, 59a-60a.
Investigators also discovered that Paul was out the night
of his death smoking marijuana with friends. App. 7a,
59a, n 27. Petitioners further learned Paul was previously
seen by NPD officers wandering the neighborhood in the
middle of the night after arguing with his father. App. 60a.
Finally, Petitioners and their supervisors discussed
inconsistencies in the Kohs’ stories. App. 60a. Graf was
suspicious of the blood in the master bathroom because
it contradicted Mrs. Koh’s statement to NORTAF that
neither she nor her husband washed up in the bathroom
after discovering Paul’s body. App. 58a, 60a. Mrs. Koh
also contradicted Koh’s statement that she had turned
Paul’s body over. App. 60a. And Petitioners learned a
neighbor heard a scream from the Koh house about a half
hour before police arrived, which raised skepticism that
Koh could have slept through Paul’s death. App. 60a-61a.
IV. The Second Interview Session And Petitioners’ Use
Of Reid Interrogation Techniques.
With the information demonstrating homicide,
Petitioners’ superiors instructed them to press Koh
harder. App. 8a. The videotape was activated at 11:30
a.m. and Graf again offered Koh food, coffee, juice, and
water. Id. Koh responded: “Yeah, what I need is I’ll let you

8
know.” Id. Graf reminded Koh “of the rights that we read
you before” and asked if he “still understood these rights
and [was] willing to talk with us?” Koh stated “Yes.” Id.
The second session lasted about 90 minutes and was briefly
interrupted once to change the tape during which no
conversation occurred. Dkt. 311, ¶ 78; Dkt. 285-1, Video 2.
The second session questioning was more aggressive
in “tone, volume, and tempo.” App. 8a. Graf, implementing
Reid techniques, pressed Koh hard about the night before,
confronting him with inconsistencies (some real and some
created by Graf) in his story. App. 8a, 39a. Koh initially
denied involvement in Paul’s death, repeating his story
that after going to bed he slept until Mrs. Koh’s screams
woke him around 3:45 a.m. App. 39a. Graf intensified his
questioning, eventually moving to a chair next to Koh.
Id. Graf raised his voice, yelled at Koh, and touched Koh
on his arms and legs. App. 71a. Graf theorized Koh was
mad that Paul was out doing drugs and had waited for him
to return home. App. 9a. Graf once stated, “[w]e can be
here for days and days and days, okay, but we don’t want
that.” Id. Graf repeatedly accused Koh of lying. App. 70a.
The Seventh Circuit found that “[a]t various points, Koh
was hunched over and beat his chest and head with his
hands.” App. 9a.
Eventually, Koh agreed to Graf’s suggestion that
he stayed up until 1:00 a.m. waiting for Paul; Koh was
mad Paul was out late smoking marijuana with friends;
and they argued when Paul finally came home, which
culminated in Koh stabbing Paul in the chest and slitting
his throat in self-defense. App. 40a. Graf presented Koh
the self-defense storyline and accompanying details. Id.

9
About three minutes before the end of the interview,
Graf stepped out to talk with Northbrook Commander
Scott Dunham, who told him Koh’s attorney was at the
station. App. 41a; Dkt. 285-1, Video 3. While Dunham
went to get the attorney, Graf re-entered the conference
room and increased the intensity by asking Koh quick,
successive, leading questions without leaving time for
translation. App. 11a. In this time period, Koh made
statements that “could be interpreted as an admission
that he had stabbed Paul”. App. 41a. Koh made “stabbing
or slashing motions with his hands in response to Graf’s
questioning about whether and how he had cut Paul”. App.
41a-42a. The interview ended when Koh’s attorney arrived
a few minutes before 1 p.m. App. 11a. Koh was given his
medication after the second interview. App. 35a, n. 8.
During both interviews, Kim offered translation
assistance, but the translations were either partial, or in
a few instances, inaccurate. App. 9a. Early in the second
interview, Kim translated Koh’s use of a Korean idiom,
“gachi jooka” as “let’s die together”, without explaining to
Petitioners that it was an idiom not to be taken literally.
App. 10a. Additionally, Kim and Graf sometimes asked
“overlapping questions” where it was unclear to which
question Koh was responding. Id. “[A]t a critical point
in the second interview, Graf asked Mr. Koh if he was
angry. Before Mr. Koh responded…Kim asked Mr. Koh in
Korean whether Mr. Koh acted in self-defense. Kim did not
translate Graf’s question. Mr. Koh responded, ‘I think so,’
prompting Kim to state, ‘He said it was in self-defense.’”
Id. It was unclear which question Koh was answering
because the officers posed two separate questions. Id.

10
V. The Cook County State’s Attorney’s Office (CCSAO)
Charges Koh With Murder.
After the second session, Graf again met with
Northbrook supervisors and NORTAF representatives.
App. 42a. They decided to call the CCSAO to see whether
it wanted to seek criminal charges. Id. Assistant State’s
Attorneys (“ASA”) Rick Albanese and Diane Sheridan
responded to NPD and reviewed portions of Koh’s
videotaped confession. App. 42a-43a. Sheridan also spoke
with the NORTAF Commander and Graf. App. 43a. The
next morning, a supervising ASA, Bob Heilengoetter,
approved first-degree felony murder charges against
Koh based upon his review of information in a “felony
review folder” which included the Cook County medical
examiner’s post-autopsy finding that Paul’s death was
a homicide, Albanese’s notes about Koh’s videotaped
statements, and Heilengoetter’s own notes from a phone
conversation he had with Detective Graf earlier that day.
Id.; Dkt. 328, ¶ 59.
On May 13, 2009, a grand jury indicted Koh for firstdegree murder. App. 44a. On July 23, 2010, Cook County
Circuit Court Judge Garritt Howard denied Koh’s motion
to quash arrest his arrest, finding after reviewing Koh’s
entire videotaped interview and holding a full adversarial
hearing, that probable cause existed to arrest Koh when
he demonstrated on video how he cut Paul. Dkt. 311, ¶ 119.
On August 25, 2010, Koh moved to suppress his
videotaped statements, alleging they were involuntarily
coerced by Petitioners. Dkt. 311, ¶ 120. Hearings occurred
over several months and included stipulated testimony
from Koh’s motion to quash, and live testimony from

11
Graf and several other witnesses. Id. On January 13,
2012, Judge Howard ruled, based upon his own review of
Koh’s entire videotaped interview, the parties’ briefs, and
witness testimony, that Koh knowingly and voluntarily
waived his Miranda rights, there was no undue delay in
giving Koh’s attorney access to his client, and Koh’s will
was not overborne because he “was perfectly capable
of standing up for himself and not just accepting being
spoon-fed” information Graf provided. Dkt. 311, ¶ 121. As
a result, the court ruled Koh’s statements were voluntary
under the Fifth Amendment and could be presented to
the jury. Id.
After a three week trial in December 2012—during
which Koh presented expert testimony suggesting Paul
committed suicide—a jury acquitted Koh and he was
released after being held in jail for 3 years and 9 months.
App. 11a, 44a.
VI. The Proceedings Below.
On April 18, 2011, the Kohs filed their initial suit,
amended the complaint on February 21, 2013, and filed a
second amended complaint on September 16, 2014. Dkts.
1, 40, and 133. The second amended complaint alleged,
inter alia, a due process fabrication of evidence claim 2 ,
a Fourth Amendment claim of false arrest, Fifth and
Fourteenth Amendment claims for coercive interrogation,
and a state law malicious prosecution claim. Dkt. 133, pp.
2. The district court found that certain allegations within
the second amended complaint plausibly alleged a fabrication of
evidence claim despite Koh not specifically identifying the due
process claim. App. 80, n 39. The parties were nevertheless able
to brief the issue at summary judgment.

12
9-20. On March 1, 2016, Petitioners moved for summary
judgment. App. 27a. As to the Fifth Amendment coercive
interrogation claim, Petitioners asserted qualified
immunity, maintaining they utilized no interrogation
tactic that was clearly unconstitutional. App. 65a-79a.
Alternatively, Petitioners sought qualified immunity
because Judge Howard’s fully informed decision to admit
the videotaped interview into evidence was a superceding
cause of Koh’s injuries. Dkt 279, pp. 32-33.
On March 30, 2018, federal district court Judge
Edmond E. Chang denied qualified immunity on the
Fifth Amendment coercive interrogation claim, holding
“a reasonable officer would have known that verbally and
physically intimidating a suspect, as well as manipulating
him, lying to him, and coaching him on the details of
the confession, all while knowing he was not fluent in
English and was operating without food, medications,
or sleep, violates the Fifth Amendment.” 3 App. 75a-76a.
The district court also rejected, without considering,
Petitioners’ alternative qualified immunity argument,
stating that Petitioners’ superceding cause contention
was not appropriate for qualified immunity because it
had “nothing to do with legal uncertainty.” Id. at 79a, n
38 (emphasis in original).
Judge Chang granted Petitioners summary judgment
on Koh’s due process/unfair trial claim, finding they
did not fabricate any evidence. App. 80a-86a. The court
also granted summary judgment on Koh’s common law
3. The Court dismissed Koh’s substantive due process
coercive interrogation claim based on a lack of “conscience
shocking” police misconduct. App. 65a.

13
malicious prosecution claim on the grounds that probable
cause was present for the prosecution. App. 86a-88a. The
court denied summary judgment on the false arrest claim
against all defendants, finding an issue of fact on whether
probable cause existed prior to the debriefing session
which occurred after Koh’s first interview session. App.
49a-64a.
Petitioners appealed the denial of qualified immunity
on the Fifth Amendment coercive interrogation claim on
the grounds that (1) they did not engage in any clearly
unconstitutional conduct during Koh’s interview, and
(2) Judge Howard’s denial of Koh’s motion to suppress
following Petitioners’ disclosure of the videotaped
interview to prosecutors, and absent any evidence that
Petitioners misled the prosecutors, was an independent,
superceding cause of any alleged Fifth Amendment
violation. App. 14a-15a.
The Seventh Circuit dismissed for lack of jurisdiction
under principles of Johnson v. Jones, 515 U.S. 304 (1995).
The court found that Petitioners’ “assert[ion] in their
reply brief that they have taken all of the district court’s
factual determinations and reasonable inferences in the
light most favorable to Mr. Koh,” belied “‘a back-door
effort to contest the facts,’ namely the nature of Mr. Koh’s
confusion and lack of understanding due to the language
barrier, the impact of the lack of medication and sleep,
and the threat Graf leveled against Mr. Koh.” App.15a-16a
(internal citation omitted).
Further, the Seventh Circuit rejected Petitioners’
alternative superceding cause arg ument because
“this court has not ‘accepted this argument in a Fifth

14
Amendment coerced confession claim,’ and since this
‘superceding cause issue…is not a pure legal question
related to qualified immunity,’ the court lacks jurisdiction
under the collateral order doctrine.” App. 24a, citing
Jackson v. Curry, 888 F.3d 259, 266 (7th Cir. 2018).
REASONS FOR GRANTING THE PETITION
This Court should review the decision below for three
reasons. First, this case presents an excellent vehicle for
the Court to resolve the deep conflict and confusion among
the courts of appeals as to whether Johnson prohibits
jurisdiction over interlocutory appeals of qualified
immunity denials based on differing characterizations of
otherwise undisputed facts. Some courts appropriately
apply Johnson to bar appellate review of evidentiary
disputes concerning the who, what, where, when, and
how of a litigated incident. Others apply Johnson far
more broadly to bar interlocutory review whenever
different inferences or characterizations are discernable
from otherwise undisputed facts. But only the narrower
approach is true to Mitchell v. Forsyth, 472 U.S. 511,
526 (1985) and Plumhoff v. Rickard, 572 U.S. 765, 772
(2014), which teach that interlocutory review is critical
to official immunity from trial; an immunity which is
effectively lost if a case is erroneously permitted to
survive summary judgment. The broader approach, by
contrast, effectively renders qualified immunity from trial
unreviewable whenever parties dispute the materiality
of or inferences to be drawn from undisputed facts. This
case presents a perfect opportunity to resolve this longsimmering conflict because Koh’s entire two-and-a-halfhour interview was videotaped. As a result, consideration
of whether Petitioners’ conduct violated clearly established

15
constitutional rights does not require the burdensome
interlocutory record evaluation condemned in Johnson;
but rather, only a simple application of the body of
controlling case law to a clear and unequivocal record,
which the appellate courts are obligated to perform under
Mitchell and Plumhoff.
Second, the Court’s review is needed because the
videotaped account of Koh’s interview established that
none of Petitioners’ challenged interrogation tactics, on
which Petitioners were specifically trained, have ever
been deemed unconstitutional by this Court or any court
of appeals. To the contrary, the most closely analogous
circuit cases have established that the very tactics
Petitioners employed were not clearly unconstitutional.
Dassey v. Dittmann, 877 F.3d 297, 312-314 (7th Cir. 2017)
(en banc), cert. denied, 138 S. Ct. 2677 (2018); Gill v. City
of Milwaukee, 850 F.3d 335, 341 (7th Cir. 2017).
Third, this case presents an excellent vehicle for
resolution of an inter-circuit conflict on the availability
of interlocutory review from a qualified immunity denial
that turns on the purely legal question of whether a
state court judge’s admission of a suspect’s statement
can sever the chain of causation on a Fifth Amendment
coerced confession claim premised upon a prosecutor’s
use of that statement in a criminal proceeding. Several
appeals courts have reversed qualified immunity denials
based on a superceding cause where state court judges
admitted evidence obtained by police, so long as there was
no evidence the officers misled prosecutors and judges as
to the true facts. See, e.g., Murray v. Earle, 405 F.3d 278
(5th Cir. 2005). As a result, the Seventh Circuit’s refusal
to review the same question in this case has created an
inter-circuit conflict which requires the Court’s guidance.

16
The exceptional importance of this proximate
causation issue is apparent. Fifth Amendment coercive
interrogation claims seek damages from police officers
for the decisions of prosecutors to rely upon, and judges
to admit, suspect statements in criminal proceedings.
See, e.g., Chavez v. Martinez, 538 U.S. 760, 770 (2003)
(explaining that Fifth Amendment coercion claims are
premised upon use of involuntary statements in criminal
proceedings). Such civil rights claims are sound when
police withhold or fabricate evidence, or otherwise deceive
decisionmakers so that errors in those decisions are
properly attributed to the responsible parties. But where,
as here, the district court has found that the police did not
mislead prosecutors or judges, or otherwise fabricated
or withheld evidence, holding police officers responsible
for those decisions misapplies tort principles of causation
in order to permit an impermissible end-run around
principles of prosecutorial and judicial immunity, which
prohibit suits against the decision-makers themselves.
I.

Review Is Needed To Resolve The Conflict And
Confusion In The Circuit Courts As To Whether
Johnson v. Jones Prohibits Interlocutory Review
Of Qualified Immunity Denials Premised On
Competing Characterizations Of Undisputed Facts.
A.

The Petition Presents An Issue Of Exceptional
Importance Concerning The Scope Of An
Official’s Right To Interlocutory Review Of
The Denial Of His Claim To Immunity From
Trial.

In Mitchell, the Court held “to the extent that it turns
on an issue of law,” a defendant may immediately appeal

17
the denial of a pre-trial assertion of qualified immunity.
472 U.S. at 530. “This is so because qualified immunity—
which shields Government officials ‘from liability for civil
damages insofar as their conduct does not violate clearly
established statutory or constitutional rights’— is both a
defense to liability and a limited ‘entitlement not to stand
trial or face the other burdens of litigation.” Ashcroft v.
Iqbal, 556 U.S. 662, 672 (2009) (internal citations omitted).
Qualified immunity is “both important and completely
separate from the merits of the action, and this question
could not be effectively reviewed on appeal from a final
judgment because by that time the immunity from
standing trial will have been irretrievably lost.” Plumhoff,
572 U.S. at 772.
Johnson created a limited exception to Mitchell and
prohibited interlocutory review of “a district court’s
summary judgment order insofar as that order determines
whether or not the pretrial record sets forth a ‘genuine’
issue of fact for trial.” Johnson, 515 U.S. at 319-320. Johnson
involved an appeal of a denial of qualified immunity to three
police officers who contended the evidence against them was
insufficient to warrant trial on an excessive force claim. Id.
at 307-308. The Court held the order which “determine[d]
only a question of ‘evidence sufficiency,’ i.e., which facts a
party may, or may not, be able to prove at trial”, was not
immediately appealable. Id. at 313.
Five years ago, this Court clarified the distinction
between nonreviewable orders based on evidentiary
disputes and reviewable orders based on abstract issues
of law in Plumhoff, an excessive-force claim arising out
of a videotaped high-speed police chase. 572 U.S. at 773.
The district court denied summary judgment based on

18
qualified immunity, finding a fact dispute as to whether
the use of force was excessive and contrary to clearly
established law. In reversing the Sixth Circuit’s dismissal
of the officers’ interlocutory appeal for lack of jurisdiction,
the Court explained:
The District Court order in this case is nothing
like the order in Johnson. Petitioners do not
claim that other officers were responsible
for shooting Rickard; rather, they contend
that their conduct did not violate the Fourth
Amendment and, in any event, did not violate
clearly established law. Thus, they raise legal
issues; these issues are quite different from any
purely factual issues that the trial court might
confront if the case were tried; deciding legal
issues of this sort is a core responsibility of
appellate courts, and requiring appellate courts
to decide such issues is not an undue burden. Id.
The Court then applied the objective reasonableness
standa rd to the facts as depicted on the v ideo,
notwithstanding the parties’ competing characterizations
of those facts, and held the officers’ response to the
car chase was reasonable under the circumstances and
granted them qualified immunity. Id. at 775. 4
4. Several years earlier, in Scott v. Harris, the Court
considered a similar claim of excessive force during a videotaped
high-speed chase. 550 U.S. 372, 375 (2007). The Court reversed
both lower courts’ denials of summary judgment on the basis of
a dispute as to the degree of danger posed by plaintiff’s driving,
ruling that plaintiff’s story was “utterly discredited” by the
videotape. Id. at 380. The Court observed that although “there is
no obvious way to quantify the risks on either side, it is clear from

19
The instant case presents an even stronger case for
interlocutory review than was presented in Plumhoff,
where the Court needed to make at least some assessment
of the extent to which the videotaped events posed risks
to the officers and others in order to decide the legal
issue of reasonableness. Here, by contrast, resolution
of Petitioners’ legal question involves no such judgment
calls. The video of Koh’s interview presents a perfect
perspective of the conversation at issue and the Court
need only review Petitioners’ depicted actions, and then
determine whether the law prohibited anything they did
or said.
The Seventh Circuit misinterpreted Johnson and
ignored Plumhoff in dismissing for lack of jurisdiction
based on competing characterizations of the videotaped
inter rogation. Indeed, the par ties’ unsurpr ising
disagreements about whether Petitioners’ conduct
was overzealous (as Koh contends) or appropriate (as
Petitioners believe) should not have interfered with the
lower courts’ ability to determine whether the conduct
was constitutionally prohibited under governing law.
To defeat jurisdiction, Koh argued, and the Seventh
Circuit agreed, that the district court’s identification of
factual disputes regarding Koh’s subjective understanding
and the degree of his confusion based on a lack of medicine,
sleep, and English proficiency, defeated interlocutory
the videotape that [plaintiff] posed an actual and imminent threat
to the lives of [others].” Id. at 383–84. Johnson was neither raised
nor considered an impediment to interlocutory review, because
the reasonableness of the officer’s actions was a legal question
and the video established that plaintiff “posed a substantial and
immediate risk of serious physical injury to others.” Id. at 386.

20
review under Johnson. App. 15a-16a. But Petitioners
conceded those disputes for purposes of appeal (App. 15a)
because Koh’s particular susceptibilities, while important
to the voluntariness of his confession, were immaterial
to the separate qualified immunity question of whether
Petitioners engaged in any clearly unconstitutional
conduct.
The Seventh Circuit disregarded Petitioners’
contention that Koh’s susceptibilities were immaterial
to qualified immunity, which itself disregarded Behrens
v. Pelletier, which necessarily requires appellate courts
to decide the materiality of a fact in assessing whether
challenged police conduct violated clearly established law.
As Behrens stated: “[d]enial of summary judgment often
includes a determination that there are controverted
issues of material fact, see Fed. Rule Civ. Proc. 56,
and Johnson surely does not mean that every such
denial of summary judgment is nonappealable.” 516
U.S. 299, 312–13 (1996) (emphasis in original). To that
end, Petitioners’ assertion that they were entitled to
qualified immunity because they did not employ clearly
impermissible interrogation techniques was unrelated
to, and should not have been weakened by, fact questions
as to whether Koh’s lack of sleep, medication and/or
sustenance, rendered his statement involuntary under
the Fifth Amendment’s totality of the circumstances test
governing the statement’s admissibility at Koh’s criminal
trial. Compare Schneckloth v. Bustamonte, 412 U.S. 218,
226 (1973) (In determining whether a defendant’s will was
overborne “the Court has assessed the totality of all the
surrounding circumstances—both the characteristics
of the accused and the details of the interrogation”)
with Harlow v. Fitzgerald, 457 U.S. 800, 818 (1982)
(qualified immunity protects government officials “from

21
liability for civil damages insofar as their conduct does
not violate clearly established” law).
Koh’s entire interrogation was videotaped and
Petitioners conceded Koh was not given medicine, suffered
from a language barrier, did not understand his Miranda
rights, was told once he could be there “for days and
days and days,” and was generally confused. App. 15a.
But the inference drawn by the district court from these
undisputed facts - that Koh’s statement was arguably
involuntary under the Fifth Amendment - was divorced
from Petitioners’ qualified immunity assertion, which
conceded involuntariness, and only posited the purely
legal question of whether any of their acts during the
interview violated clearly established law. Id. at 65a.-79a.
As a result, the Seventh Circuit incorrectly “detect[ed]
a back-door effort to contest the facts” regarding Koh’s
confusion and Graf’s “threat” because Petitioners only
challenged the relevancy of those facts to the qualified
immunity inquiry, not whether Koh was in fact confused or
Graf made the cited statement. App. 15a. Under Mitchell,
Johnson and Plumhoff, Petitioners were entitled to
interlocutory review of the district court’s denial of their
claim to qualified immunity.
B. The Circuit Courts Are In Disarray On The
Scope Of Interlocutory Jurisdiction Under
Johnson.
The Seventh Circuit’s decision below directly
contradicts the Tenth Circuit’s decision in Walton v.
Powell, 821 F.3d 1204 (10th Cir. 2016) where the court
aptly explained why Mitchell and Plumhoff require
interlocutory jurisdiction over qualified immunity denials
so long as the appeals court is not asked to engage in

22
fact-finding relating to evidence sufficiency. In Walton,
the district court denied qualified immunity upon finding
a fact dispute as to whether plaintiff was discharged in
retaliation for First Amendment protected conduct. Id.
at 1207. Then Circuit Judge Gorsuch, writing for the
court, explained that, as here, appellate courts are tasked
with assessing the legal significance of undisputed facts
on Mitchell appeals. This is true whether such facts are
identified by the district court, apparent from video
evidence, or conceded by the movant. Id. 1208. Holding
that Mitchell required interlocutory review, the court
elaborated: “[u]nder Johnson, it is for the district court to
tell us what facts a reasonable jury might accept as true.
But under Plumhoff, it is for this Court to say whether
those facts, together with all reasonable inferences they
permit, fall in or out of legal bounds—whether they are or
are not enough as a matter of law to permit a reasonable
jury to issue a verdict for the plaintiff[.]” Id. at 1209-10.
Similarly, decisions from the Third and Fourth
Circuits hold that Johnson permits appellate courts to
review inferences drawn by a district court from otherwise
undisputed facts. Schieber v. City of Philadelphia, 320
F.3d 409, 420 (3d Cir. 2003); Winfield v. Bass, 106 F.3d
525, 534 (4th Cir. 1997) (en banc). By contrast, decisions
from the First, Sixth, and Ninth Circuits, have broadly
read Johnson to renounce jurisdiction whenever district
courts identify competing characterizations of undisputed
facts. See Penn v. Escorsio, 764 F.3d 102, 105 (1st Cir.
2014); George v. Morris, 736 F.3d 829, 836 (9th Cir. 2013);
Romo v. Largen, 723 F.3d 670, 673-74 (6th Cir. 2013).
While the Sixth Circuit held in Romo, prior to
Plumhoff, that an appellate court cannot review inferences
drawn by a district court from undisputed facts, Judge

23
Sutton explained in concurrence that “nearly twenty years
after Johnson” widespread confusion prevails within
and between “every circuit in the country” over whether
Johnson prohibits interlocutory review of a qualified
immunity denial each time the parties dispute inferences
drawn from undisputed facts, Id. at 686 (collecting cases):
I submit that there are two ways to read
Johnson. One applies it only to prototypical
“he said, she said” fact disputes, in which the
defendants (usually government employees)
refuse to accept the truth of what the plaintiffs
(usually individual claimants) say happened.
When the appeal boils down to dueling accounts
of what happened and when the defendants
insist on acknowledg ing on appeal only
their accounts, the underlying basis for an
interlocutory appeal disappears.
The other applies the decision not just to
whether the defendant officers accept the
plaintiff’s evidence-supported version of what
happened but also to whether the defendants
accept the district court’s reading of the
inferences from those facts: here, whether
Officer Largen lied about seeing a Dodge Ram
on the road. Under that view (and the majority’s
view), when a district court determines that
there is a “genuine issue of fact” for trial by
drawing an inference in favor of the plaintiff,
the appellate court may not second-guess that
inference, indeed lacks jurisdiction to do so. I
favor the former reading.
Id. at 678.

24
Yet even after Plumhoff, the Sixth Circuit in Barry
v. O’Grady, 895 F.3d 440, 443 (6th Cir. 2018) recently
reaffirmed its broad view of Johnson, stating that “a
defendant may not challenge the inferences that the
district court draws from those facts, as that too is
a prohibited fact-based appeal.” 5 But that expansive
interpretation of Johnson undermines basic principles
of qualified immunity and, as Petitioners contend, should
be put to rest.
The disarray created by and significance of this
issue has not been lost on the Court. In the five years
since Plumhoff, the Court has ordered responses to at
least four petitions for writs of certiorari questioning the
breadth of Johnson. See Raines v. Counseling Assocs.,
Inc., 883 F.3d 1071, 1075 (8th Cir. 2018), as corrected (Mar.
6, 2018), cert. denied sub nom. Burningham v. Raines,
139 S. Ct. 787 (2019); Franklin for Estate of Franklin v.
Peterson, 878 F.3d 631, 638 (8th Cir. 2017), cert. denied sub
nom. Peterson v. Franklin, 139 S. Ct. 411 (2018); Stinson
v. Gauger, 868 F.3d 516, 525 (7th Cir. 2015), cert. denied
sub nom. Johnson v. Stinson, 138 S. Ct. 1325 (2018);
Kindl v. City of Berkley, 798 F.3d 391, 398 (6th Cir. 2015),
cert. denied sub nom. Herriman v. Kindl, 136 S. Ct. 1657
(2016). In each of those cases, certiorari was denied, but all
four were poor vehicles for review, as it was apparent that
evidential facts were in dispute, and as a result, Johnson
5. This time dissenting, Judge Sutton questioned how the
majority’s broad reading of Johnson on summary judgment
could square with qualified immunity review at the pleadings
stage, where courts must accept a complaint as true but can
“review whether the district court’s pro-plaintiff inferences are
‘plausible.’” Barry, 895 F.3d at 448 (citing Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009)).

25
appropriately prohibited interlocutory review under either
a narrow or broad view of its scope. Specifically, Raines
and Franklin, both Eighth Circuit excessive force cases
presented classic Johnson- like disputes over evidence
sufficiency. Raines, 883 F.3d at 1075; Franklin, 878 F.3d
at 637-638. Similarly, Stinson concerned an appeal of a
fabrication claim where defendants challenged the district
court’s fact-finding, a prime example of a he said-she said
dispute. Stinson, 868 F.3d at 525. And, in Kindl, the Sixth
Circuit specifically noted that the jail cell video defendants
relied upon was black and white, lacked sound, repeatedly
froze, and as a result, did not necessarily contradict
inmate accounts of occurrences within decedent’s cell.
798 F.3d at 396, 400-402. Moreover, the court explained
that the video in some instances supported, rather than
refuted, plaintiff’s claim that decedent was seeking help
for a serious medical condition well in advance of her
death. Id. at 400.
As explained above, there is no dispute over evidence
sufficiency here. This case presents only the purely
legal question of whether any of Petitioners’ actions, as
fully depicted on the videotaped interview, were clearly
prohibited under controlling law. As such, this case
presents the perfect vehicle for this Court to finally resolve
the conflict and confusion, and provide necessary guidance
on a question which is critical to the right of public officials
to assert qualified immunity and avoid trial in the absence
of evidence that they engaged in clearly unconstitutional
conduct.

26
II. Petitioners Were Entitled To Qualified Immunity
Because There Is No Clearly Established Law
Holding Their Interrogation Tactics, Either
Individually Or In Combination, Unconstitutional.
“Qualified immunity attaches when an official’s
conduct does not violate clearly established statutory
or constitutional rights of which a reasonable person
would have known.” White v. Pauly, 137 S.Ct. 548, 551
(2017) (internal quotations omitted). Although “caselaw
does not require a case directly on point for a right to be
clearly established, existing precedent must have placed
the statutory or constitutional question beyond debate.”
Id. (internal quotations omitted). Recently, in Kisela v.
Hughes, 138 S. Ct. 1148, 1151 (2018), this Court again
cautioned lower courts “not to define clearly established
law at a high level of generality.” (internal quotations
omitted). The “dispositive question is whether the violative
nature of particular conduct is clearly established.”
Mullenix v. Luna, 136 S. Ct. 305, 308 (2015) (internal
quotations omitted) (emphasis in original).
The undisputed evidence establishes that Petitioners
did not violate any clearly established law. Petitioners
indisputably had probable cause to believe Koh had
killed his own son (App. 58a-61a), and during the ninetyminute second session of his interview, utilized legal
interrogation techniques on which they were specifically
trained. Dkt. 311, ¶ 50. In these circumstances, courts
permit interrogators in custodial settings “considerable
latitude in playing on the guilt and fears of the person
interrogated in order to extract a confession that he will
shortly regret having given.” Johnson v. Trigg, 28 F.3d
639, 641 (7th Cir. 1994). And, contrary to the district

27
court’s conclusion, detectives are permitted to “pressure,
and cajole, conceal material facts and actively mislead”,
and lie about the evidence they have against the suspect.
United States v. Rutledge, 900 F.2d 1127, 1131 (7th Cir.
1990); See also, U.S. v. Ceballos, 302 F.3d 679, 695 (7th Cir.
2002) (explaining that “a lie that relates to the suspect’s
connection to the crime is the least likely [‘police trickery’]
to render a confession involuntary”) (quoting Holland v.
McGinnis, 963 F.2d 1044, 1051 (7th Cir. 1992).
Petitioners did not impermissibly use force, threats
of force, promises of leniency or threats to family
members, all tactics which have been constitutionally
condemned. See e.g., Brown v. Mississippi, 297 U.S. 278,
287 (1936) (physical violence); Arizona v. Fulminante,
499 U.S. 279, 287-88 (1991) (credible threats of violence);
Hadley v. Williams, 368 F.3d 747, 749 (7th Cir. 2004)
(false promise to set suspect free); Rogers v. Richmond,
365 U.S. 534, 543-45 (1961) (threat to arrest suspect’s
wife). Instead, Petitioners’ interrogation tactics, including
offering a theory of the crime, implying that witnesses
had implicated Koh, rejecting Koh’s denials, pleading to
his sense of faith, and minimizing the seriousness of the
crime by offering a self-defense alternative, have never
been found to be impermissible by any court of appeals.
Indeed, neither Koh nor the district court cited a single
controlling decision that would have put Petitioners on
notice that the Reid-based interrogation tactics they
employed, either individually or in combination, were
constitutionally prohibited. See Mullenix, 136 S. Ct. at
308 (a clearly established right is one that is “sufficiently
clear that every reasonable official would have understood
that what he is doing violates that right.”) (internal citation
omitted).

28
To the contrary, the Seventh Circuit’s own decisions
in Dassey v. Dittmann, 877 F.3d 297, 312-314 (7th Cir.
2017) (en banc) cert. denied, 138 S. Ct. 2677 (2018) and
Gill v. City of Milwaukee, 850 F.3d 335, 341 (7th Cir.
2017) establish that Reid-based interrogation methods
used on vulnerable suspects with limited intellectual
abilities are not clearly established unconstitutional
tactics. While the Dassey court debated whether Reid
interrogation tactics led to false confessions on persons
with limited intelligence, it determined “these debates
over interrogation techniques have not resulted in
controlling Supreme Court precedent condemning the
techniques[.]” 877 F.3d at 318. Similarly, in Gill, taking
into account plaintiff’s intellectual disability and the
same Reid interrogation techniques used by Petitioners
here, the Seventh Circuit stated, “Gill has not cited and
we have not identified, any precedent from the Supreme
Court or this Circuit that puts the unconstitutionality of
the officers’ conduct here ‘beyond debate.’” Gill, 850 F.3d
at 341 (citing Mullenix, 136 S.Ct. at 308).
Without addressing Gill or Dassey, the district court
denied qualified immunity based on Hurt v. Wise, because,
in addition to Reid techniques, Graf once told Koh “we can
be here for days and days and days.” 880 F.3d 831, 835 (7th
Cir.), cert. denied sub nom. Vantlin v. Hurt, 139 S. Ct. 412
(2018), and overruled in part by Lewis v. City of Chicago,
914 F.3d 472 (7th Cir. 2019); App. 72a, 77a. But that isolated
statement was not of a character that has ever been held by
any court to be unconstitutional. Furthermore, even if the
2018 ruling in Hurt could support the extreme proposition
that any kind of threat is clearly prohibited, the ruling
should not have impacted Petitioners’ entitlement to
qualified immunity because Hurt was decided almost ten
years after Koh’s 2009 interrogation. See D.C. v. Wesby,

29
138 S. Ct. 577, 589 (2018) (“To be clearly established, a
legal principle must have a sufficiently clear foundation
in then-existing precedent”).
Ultimately, the videotaped interrogation irrefutably
demonstrates that Petitioners did not use a single
prohibited tactic, and instead only employed tactics on
which they had been specifically trained, all of which are
permitted by case law, and all of which occurred within
a two-and-a-half-hour time frame. See, e.g., Ceballos, 302
F.3d at 694 (describing two forty-five-minute sessions as
“relatively short”). As there was no case law prohibiting
Petitioners’ conduct, they were entitled to qualified
immunity against Koh’s Fifth Amendment claim.
III. The Lower Courts’ Refusal To Address Petitioners’
Claim To Qualified Immunity Based Upon The
State Court Judge’s Intervening Decision To Admit
Koh’s Statements Has Created An Inter-Circuit
Conflict On An Issue of Exceptional Importance.
Petitioners alternatively sought summary judgment
on the Fifth Amendment coercive interrogation claim on
grounds of qualified immunity based upon the absence
of proximate cause, and more specifically, that “the state
court’s denial of Mr. Koh’s motion to suppress [his video
recorded statement] is a superceding, intervening cause of
his Fifth Amendment claim.” App. 24a. In a one sentence
footnote, the district court stated: “qualified immunity
is a doctrine designed to respond to legal uncertainty,
but causation (a factual matter) has nothing to do with
legal uncertainty.” App. 79a, n 38. The Seventh Circuit
then renounced jurisdiction over the appeal of that
decision, stating, again without explanation, that it has

30
not “accepted this [causation] argument in the context
of a Fifth Amendment coerced-confession claim” and
moreover, it is not a purely legal question related to
qualified immunity. App. 24a. The lower courts’ refusal
to address the causation argument as outside the ambit
of qualified immunity was incorrect, in conflict with the
decisions of several sister courts of appeals, and deprived
Petitioners of full consideration of their entitlement to
avoid trial on the basis of qualified immunity.
The Seventh Circuit’s refusal to address the causation
argument on interlocutory review on the basis that it was
“not a pure legal question related to qualified immunity”
was incorrect. App. 24a. Though generally a fact issue,
proximate cause is, in fact, a legal issue where the facts
are not in dispute. See, e.g., Lockwood v. Bowman Const.
Co., 101 F.3d 1231, 1235 (7th Cir. 1996) (“Although the
existence of proximate cause is often an issue for the fact
finder to decide, when the undisputed facts lead to only one
reasonable inference it is a question of law for the court
to decide.”) Moreover, Judge Gorsuch’s opinion in Walton
specifically stated that “questions of causation” are plainly
open to interlocutory review of the denial of a claim to
qualified immunity under Johnson as it is “precisely the
sort of question Plumhoff preserves for appellate review.”
821 F.3d at 1209. Here, it was undisputed, as a result of
the district court’s order granting Petitioners summary
judgment on Koh’s fabrication of evidence claim, that
Petitioners did not mislead prosecutors or the criminal
court. App. 86a. As a result, tort principles of causation,
which apply in all claims under 42 U.S.C. §1983,6 could
6. See Malley v. Briggs, 475 U.S. 335, 345 n. 7 (1986) (“§ 1983
‘should be read against the background of tort liability that
makes a man responsible for the natural consequences of his

31
not be satisfied so as to permit Petitioners to be held
liable for the acts of those decisionmakers on Koh’s Fifth
Amendment coercive interrogation claim. App. 86a; Dkt.
311, ¶ 113-122.
Indeed, prior to the Seventh Circuit’s decision below,
several circuit courts had reviewed the identical argument
on an interlocutory basis without even a jurisdictional
challenge. Most particularly, in Murray v. Earle, 405
F.3d 278 (5th Cir. 2005), plaintiff filed a Fifth Amendment
coerced confession claim after her homicide conviction
was reversed because she was coerced into confessing
to child abuse. On appeal from the denial of qualified
immunity on summary judgment, the Fifth Circuit agreed
that plaintiff’s injury was proximately caused by the trial
judge’s decision to admit her confession into evidence,
not defendants’ allegedly unlawful interrogation. In so
holding, the court relied on the absence of any evidence
“that the state judge who presided over her juvenile trial
failed to hear (or was prevented from hearing) all of
the relevant facts surrounding her interrogation before
deciding to admit her confession into evidence.” Id. at 293.
The Fifth Circuit explained that this rule of causation
applies so long as the police provide “accurate information
to a neutral intermediary, such as a trial judge.” Id.
The Second Circuit aligned with the Fifth Circuit in
Wray v. City of New York, where plaintiff sued a police
officer for conducting a suggestive lineup. 490 F.3d 189,
194 (2d Cir. 2007). On interlocutory review of a denial of
actions.’”) (internal citation omitted); Whitlock v. Brueggemann,
682 F.3d 567, 582 (7th Cir. 2012) (causation is a standard element
of a Section 1983 tort liability claim).

32
qualified immunity, the appeals court reversed and found
that absent evidence that the officer “misled or pressured
the prosecution or trial judge,” the prosecutor’s decision
to rely on the lineup, and the judge’s decision to permit
it as evidence, constituted superceding causes so that a
police officer was not liable for plaintiff’s conviction and
incarceration. Id. at 193-195.
Similarly, the Fourth Circuit, in Evans v. Chalmers,
also on appeal from the denial of qualified immunity at
summary judgment, reversed and held that constitutional
torts require both but-for and proximate causation, and
that “subsequent acts of independent decision-makers”
can constitute superceding causes that break the causal
chain between the officers’ conduct and an unlawful
seizure. 703 F.3d 636, 647–48 (4th Cir. 2012). Evans held
that police officers were not liable on a federal malicious
prosecution claim following indictments in the absence of
evidence that one of the officers misled or pressured the
prosecutor. Id. at 649. See also Barts v. Joyner, 865 F.2d
1187, 1196-1197 (11th Cir. 1989) (explaining that “[c]riminal
procedure from arrest to sentencing involves a division of
power and duties among several entities, each of which has
the responsibility to make its own decisions….[and] [t]o
hold that the decisions of the prosecutor, juries and judge
do not break the chain of proximate causation trivializes
the importance of these post-arrest decisions”).
Standing alone against this precedent is the Seventh
Circuit’s refusal here to even address the causation issue
as an aspect of Petitioners’ claim to qualified immunity.
But there was no factual impediment to review because it
was undisputed that: (1) the interrogation was videotaped,
(2) the videotape was presented to the prosecutors, (3)

33
the prosecutors deemed it appropriate to bring charges,
(4) a motion to suppress was filed, (5) a state court judge
viewed the videotape and heard arguments on that motion,
and (6) the state court judge found Koh’s statements were
voluntary and admissible under the Fifth Amendment.
Dkt. 311, ¶¶ 113-122. Moreover, in granting summary
judgment on the fabrication of evidence claim, the district
court specifically held that the facts did “not give rise to an
inference that Graf and Kim were deliberately falsifying
evidence to mislead the prosecutors, and that “[n]one
of Mr. Koh’s theories of evidence fabrication hold up, so
summary judgment is granted on the evidence fabrication
claim.” App. 86a.
Viewed against that backdrop, common law tort
principles governing all Section 1983 claims do not permit
Fifth Amendment coercive interrogation claims, which by
nature target decisions made by prosecutors and judges, to
reach trial against police officers, absent evidence that the
officers misled those decisionmakers. See, e.g. Chavez, 538
U.S. at 760. (“a violation of the constitutional right against
self-incrimination occurs only if one has been compelled
to be a witness against himself in a criminal case”)
(emphasis omitted). A contrary framework would permit
a Fifth Amendment coercive interrogation claim against
police to operate as an impermissible circumvention of
principles of absolute prosecutorial and judicial immunity,
which prohibit such claims against the decisionmakers
directly responsible for the introduction of a statement
at trial. See Buckley v. Fitzsimmons, 509 U.S. 259, 273
(1993) (prosecutors absolutely immune for deciding what
evidence to rely on in criminal case); Forrester v. White,
484 U.S. 219, 219 (1988) (judges absolutely immune for
judicial decisions).

34
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
				Respectfully Submitted,
James G. Sotos
Counsel of Record
Jeffrey R. Kivetz
Daniel J. Mcginnis
The Sotos Law Firm, P.C.
141 West Jackson Boulevard,
Suite 1240A
Chicago, Illinois 60604
(630) 735-3300
jsotos@jsotoslaw.com
Counsel for Petitioners

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals for the
seventh circuit, filed august 13, 2019
IN THE United States Court of Appeals
for the Seventh Circuit
Nos. 18-1809 & 18-1821
HYUNG SEOK KOH, et al.,
Plaintiffs-Appellees,
v.
JOHN USTICH, et al.,
Defendants-Appellants.
Appeals from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:11-cv-02605 — Edmond E. Chang, Judge.
February 22, 2019, Argued
August 13, 2019, Decided
Before Ripple, Manion, and Brennan, Circuit Judges.
M anion, Circuit Judge. Hyung Seok and Eunsook
Koh, husband and wife, brought a § 1983 suit arising out
of the investigation of and the Kohs’ arrests in connection
with their son’s death. They sued the Northbrook Police
Department, various Northbrook officers, the Wheeling

2a
Appendix A
Police Department, and a Wheeling officer asserting state
and federal claims. The district court granted in part
and denied in part the defendants’ motions for summary
judgment. Northbrook Detectives John Ustich and Mark
Graf and Wheeling Officer Sung Phil Kim have filed
interlocutory appeals on the issue of qualified immunity
concerning Mr. Koh’s Fifth Amendment coerced confession
claim. Because appellants’ arguments are inseparable
from the questions of fact identified by the district court,
we dismiss these appeals for lack of jurisdiction.
I.
Around 3:45 a.m., on April 16, 2009, Mr. Koh was
awakened by his wife’s screams. Mrs. Koh had just found
their 22-year-old son, Paul, lying down in a pool of blood
next to a knife in the entryway of their home.1 After
calling 911, the couple got dressed, anticipating going
to the hospital after help came because they thought
Paul was still alive. Paramedics and officers from the
Northbrook Police Department (Defendants Roger Eisen,
Matt Johnson, Brian Meents, and Keith Celia, none of
whom are appellants) arrived at the Koh home soon after.
There, they found Mr. Koh with a phone near the front
door of the house and Mrs. Koh crouched over Paul’s body.
Paul had been stabbed in the throat and chest and was
declared dead at the scene. Officers initially stated there
was a possibility Paul committed suicide.
1. Because this appeal reviews a denial of motions for summary
judgment, we take the facts in the light most favorable to the Kohs,
the nonmoving parties. See Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 255, 106 S. Ct. 2505, 91 L. Ed. 2d 202 (1986).

3a
Appendix A
Mr. Koh wanted to drive to the hospital. Instead,
both Mr. and Mrs. Koh were confined in their front yard
and pushed to the ground, where they sat while officers
watched over them. The Kohs asked to see Paul, get Mr.
Koh’s medicine2 and cell phone, and go to the hospital. The
officers denied those requests.
At some point, the officers forced the Kohs into a squad
car and drove them to the Northbrook Police Department.
(The Kohs were not asked if they wanted to go there.) Mrs.
Koh was allowed to wash the blood from her hands in a
restroom at the station while officers kept an eye on her.
The Kohs were then given blankets and beverages. They
were kept in a conference room, first together and then
later separated. Mr. Koh asked to make a phone call, but
was not allowed to do so. The police contacted the Kohs’
pastor who arrived at the station around 6 a.m. Other
family and friends came to the station as well, but their
requests to see the Kohs were denied.
While still at the Koh home, a Northbrook police
officer spoke with dispatch about contacting local law
enforcement agencies to request a Korean translator who
could assist with speaking with the Kohs because of the
apparent language barrier. 3 Responding to the request at
the direction of one of his superiors, Officer Sung Phil Kim
2. Mr. Koh took medication for diabetes, high blood pressure,
and hyperammonemia.
3. The officer declined using Language Line, a telephonic
interpretation service used by police, and instead requested someone
who could be physically present for the Kohs’ interviews.

4a
Appendix A
of the nearby Wheeling Police Department went directly
to the Northbrook Police Department. Kim spoke Korean
in social settings, having learned Korean from his parents
and at Sunday school as a child, but otherwise having no
formal training in the Korean language. Kim also had no
training as a translator.
Mr. Koh was questioned at the Northbrook police
station in a two-part interview that lasted a total of two
and a half hours. Detectives John Ustich and Mark Graf,4
and Kim were present for both sessions, and they all
questioned Mr. Koh during his interviews. Graf primarily
conducted the interview, and Ustich and Kim each posed
questions at different points. Kim also provided some
Korean translations during the interview, but not to each
question. Each interview was video recorded, though
there was discussion between Graf and Mr. Koh before
the recording began and at the end of the first interview
when the tape ran out.
The first interview began around 7:30 a.m. Before
the video recording began, Mr. Koh asked Graf for his
medication. Graf responded that someone would bring him
his medicine. Also before the recording commenced, Graf
asked Mr. Koh if he had a lawyer. Mr. Koh told Graf that he
had an attorney, but he could not remember the attorney’s
phone number. Mr. Koh also asked to see his pastor, his
daughter, and his friend from church. According to Mr.
Koh, Graf “told me that the only person I could see was
4. While not one of the responding officers, Ustich came to the
Koh home shortly before 6 a.m. and relayed to Graf the information
that he learned while there prior to the interview.

5a
Appendix A
a lawyer. And since I didn’t have any phone numbers, so
that was the end.”5
Graf administered Miranda warnings in English.
While Graf was reading Mr. Koh the Miranda warnings,
Kim provided some translation assistance. Kim, however,
did not translate after Graf stated, “Anything you say can
and [sic] be used against you in a court of law, okay?”6
Mr. Koh gently nodded his head while Graf was reading
the warnings. Once finished reading the warnings, Graf
passed Mr. Koh a printed waiver form listing the Miranda
rights in English asking him to sign and date the form.
It was then that Mr. Koh asked, “Can you ask (inaudible)
this one transfer this one?” 7 The officers understood this
as a request for Kim to translate, and Kim proceeded to
speak to Mr. Koh in Korean. The parties dispute, though,
the accuracy of Kim’s translation and whether Mr. Koh
understood it. According to Mr. Koh, Kim did not tell
him that his statements could be used against him or that
16:1.

5. District Ct. Docket Entry 289-1, Pretrial Hr’g Tr. at 15:23-

6. District Ct. Docket Entry 285-3, Interview Tr. at 2. (In
addition to the three video recordings of Mr. Koh’s interviews
(District Ct. Docket Entry 285-1 (Interview Video)), the parties
and, in turn, the district court relied on a transcript of Mr. Koh’s
videotaped interviews in support of their summary judgment motions
(District Ct. Docket Entry 285-3 (Interview Tr.)). The Kohs did not
stipulate to the accuracy of the transcript, but agreed to its use at
summary judgment. We rely on the recordings and transcript as
well.)
7. District Ct. Docket Entry 285-1, Interview Video 1 at 1:35,
Interview Tr. at 2.

6a
Appendix A
he had a right to an attorney if he could not afford one.
Mr. Koh also asserts that Kim advised that he did not
need an attorney. After Kim completed his translation,
Mr. Koh began to date and time the form stating, “This
one happens [early morning].” 8 It was then that Graf
instructed Mr. Koh to write “[t]he date and time right
now.” 9 As the district court described it in its summary
judgment opinion, “Mr. Koh ultimately executed an
English-language Miranda waiver form at Graf’s and
Kim’s directions.” Koh v. Graf, 307 F. Supp. 3d 827, 837
(N.D. Ill. 2018) (emphasis added).
After Mr. Koh signed the waiver form, Graf offered
Mr. Koh beverages and food, but Mr. Koh only requested
water. Graf began asking questions in English with little
intervention by or assistance from Kim. Mr. Koh answered
some questions and communicated in basic English, though
some of his responses to Graf’s questions were confusing
or non-responsive. For instance, at the beginning of the
interview when Graf asked Mr. Koh, “Why don’t you tell
us briefly about your son and what he does, his friends,
what type of person he was,” Mr. Koh responded by
explaining what he did the day before.10 Throughout the
first interview, Mr. Koh repeatedly denied any involvement
in Paul’s death, including when Graf asked him if he had an
argument with Paul. During that first session, Graf asked
Mr. Koh about Paul’s depression and marijuana use. This
first interview lasted about 55 minutes.
8. Interview Tr. at 2; Interview Video 1 at 2:21.
9. Interview Tr. at 2; Interview Video 1 at 2:24.
10. Interview Tr. at 3-4.

7a
Appendix A
After the first interview, Ustich and Graf thought Mr.
Koh was being evasive, and they found his denials of any
involvement in Paul’s death unbelievable. Ustich and Graf
then met with their superiors and members of the team
investigating Paul’s death. Kim did not participate in that
meeting. At the meeting, Ustich and Graf learned about
evidence obtained up to that point in the investigation.
There was evidence suggesting there was a struggle
(e.g., there was a small metal cross and broken chain
discovered in blood on the floor). There was also evidence
of a cleanup in the master bedroom, which contradicted
Mrs. Koh’s statement to police that neither she nor her
husband cleaned up in the bathroom after finding Paul’s
body. Ustich and Graf also learned that while Mr. Koh
had told them that he and his wife had turned Paul’s
body over, Mrs. Koh told police that she had not moved
Paul’s body. Also, a neighbor had heard a scream, which
prompted skepticism by Graf that Mr. Koh, who had told
Graf that he was a light sleeper, could have slept through
Paul’s death.
Ustich and Graf also learned that Mr. Koh and Paul’s
relationship was marked by tension. Northbrook police
officers had previously seen Paul walking in the Kohs’
neighborhood late at night because he had gotten into a
fight with Mr. Koh. Additionally, Paul’s youth pastor told
officers that the Kohs had a family agreement with Paul,
which included no tolerance for drugs and allowed the
Kohs to randomly test Paul for drugs. And there was also
evidence that Paul had been smoking marijuana the night
before he died. The forensic team told Ustich and Graf
that it believed Paul’s death was a homicide because, in its

8a
Appendix A
estimation, his injuries could not have been self-inflicted.
Graf’s and Ustich’s superior instructed them to press Mr.
Koh harder.
Ustich and Graf returned to the conference room along
with Kim to continue interviewing Mr. Koh around 11:30
a.m. Graf once again offered Mr. Koh food, coffee, juice,
and water. Mr. Koh responded, “Yeah, what I need is I’ll
let you know.” 11 Graf also reminded Mr. Koh “of the rights
that we read you before” and asked if he “still understood
these rights and [was] willing to talk with us?” Mr. Koh
responded, “Yes.”12
As he had done throughout the entire first interview,
Graf sat across the conference room table from Mr. Koh.
Ustich sat on the same side as Graf and interjected with
questions occasionally. Kim sat on the same side of the table
as Mr. Koh to his left. Graf’s questioning in this second
interview was more aggressive in both tone, volume, and
tempo. He focused on inconsistencies between Mr. Koh’s
first interview and what Graf claimed had been learned
through the investigation (some of the inconsistencies were
real and some were created by Graf). At one point, Graf
walked around the conference room table and sat next to
Mr. Koh, stating, “I’m gonna move over here because I
don’t know if you can understand me, okay. Okay.”13 Mr.
Koh turned and looked toward Kim, and Graf responded,
11. Interview Tr. at 58.
12. Id. at 59.
13. Id. at 103.

9a
Appendix A
“I just want to talk to you.”14 At that point, Mr. Koh was
on the same side of the conference room table between
Graf and Kim, facing toward Graf.
While Graf continued questioning Mr. Koh, he
repeatedly touched Mr. Koh’s arms and legs. Graf
presented the theory that Mr. Koh was mad that Paul
had been out doing drugs and waited for him to return
home. Despite Mr. Koh’s repeated denials, Graf continued
to push, telling him, “We can be here for days and days
and days, okay, but we don’t want that.”15 During this
second interview, Graf asked successive questions at a
rate that precluded translation by Kim. Graf repeatedly
accused Mr. Koh of lying and presented storylines about
what happened, suggesting that other information that
the police had gathered or would gather supported those
theories. At various points, Mr. Koh was hunched over
and beat his chest and head with his hands.
During both interviews, Kim either did partial or
mistranslations of Mr. Koh’s statements and Graf’s
questions, including providing a partial, but inexact,
translation of Graf’s question about whether Mr. Koh
had stabbed Paul in self-defense.16 Also, at another point
14. Id., Interview Video 2 at 45:20-32.
15. Interview Tr. at 117-18.
16. According to the Kohs’ language expert’s report, this
particular exchange was as follows:
Graf: . . . was it in defense? Or was it in . .
Kim: [Korean characters] Was it self-defense?

10a
Appendix A
during the second interview, Kim translated literally a
Korean idiom, gachi jooka (“let’s die together”), without
explaining that it was an idiom and not to be taken
literally. According to the Kohs, the expression is like the
English phrase, “you’re killing me.” Also, Kim sometimes
interjected in the interview with questions in both English
and Korean. Kim and Graf asked overlapping questions
at times making it unclear to which question Mr. Koh was
responding. For instance, at a critical point in the second
interview, Graf asked Mr. Koh if he was angry. Before Mr.
Koh responded to Graf’s question, Kim asked Mr. Koh in
Korean whether Mr. Koh acted in self-defense. Kim did not
translate Graf’s question. Mr. Koh responded, “I think so,”
prompting Kim to state, “He said it was in self-defense.”
As the district court correctly noted, though, it was
unclear which question Mr. Koh was answering because
the officers posed two, separate questions and Mr. Koh
responded in a way that did not indicate to which question
he was responding. See Koh, 307 F. Supp. 3d at 852.
Graf: that you were anger/angry?
Kim: [Korean characters] Did you do/engage in selfdefense?
Koh: I think so yeah maybe it’s a
Graf: Tell me how it happened
Kim: He said it was in defense. He said it was in
defense.
Graf: I know you did it.
Koh: I did it?
Graf: You did it. Yes, didn’t you?
Kim: [Korean characters] (I know you) were engaged
in self-defense.
District Ct. Docket Entry 308-73 at 5.

11a
Appendix A
About three minutes before the second interview
ended, Graf stepped out of the room to talk with another
officer who had come to tell him Mr. Koh’s attorney had
arrived at the station. While Mr. Koh’s attorney was being
escorted back to the conference room, Graf increased the
intensity of the interview by asking quick, successive,
leading questions and leaving no time for translation. Mr.
Koh responded to Graf’s questioning with one or two-word
responses that could be interpreted as agreeing with
Graf’s self-defense theory: Mr. Koh had waited up until 1
a.m. for Paul to return home, was mad that Paul was out
smoking marijuana, argued with Paul upon his return, and
stabbed Paul in self-defense. The interview ended when
Mr. Koh’s attorney came into the room a couple minutes
before 1 p.m. Sometime after the interview ended, Mr.
Koh was finally given his medication.
Mr. Koh was charged with murder in state court.
After the trial court denied his motion to suppress his
confession, the case went to trial where Mr. Koh was
acquitted by a jury.17 Prior to his acquittal, Mr. Koh spent
nearly four years in the Cook County Jail.18
The Kohs then sued several Northbrook police
officers, including Ustich and Graf, Kim, and the Villages
of Northbrook and Wheeling under 42 U.S.C. § 1983. They
asserted federal constitutional claims. The Kohs set forth a
17. Among other evidence, Mr. Koh presented evidence at the
criminal trial that Paul had committed suicide.
18. In response to a question from the Court at oral argument,
the Kohs’ counsel stated that Mr. Koh was held on a $5 million bond.

12a
Appendix A
Fourth Amendment claim for their arrests and a Fifth and
Fourteenth Amendment claims for Mr. Koh’s confession.
They also brought a failure to intervene claim, a Monell
claim against the Village of Northbrook for their unlawful
detention and coercive interrogation, and a conspiracy
claim. Finally, the Kohs asserted some state law claims,
specifically malicious prosecution, intentional infliction
of emotional distress, loss of consortium, and respondeat
superior. The defendants moved for summary judgment,
claiming qualified immunity. Taking the evidence and
reasonable inferences in the light most favorable to the
Kohs, the district court denied the motion in part and
granted the motion in part. Specifically, the district
court denied summary judgment on the Kohs’ Fourth
Amendment false arrest claims, but it held that Mr. Koh’s
false arrest ended when the officers had probable cause
to arrest him before his second interview based on the
information conveyed during the debriefing. The court also
denied summary judgment on Mr. Koh’s Fifth Amendment
coerced confession claim, his conspiracy and failure to
intervene claims (with some limitations), his municipal
liability claim against the Northbrook Police Department
for false arrest, and Mrs. Koh’s loss of consortium claim.
The court also allowed the Kohs to proceed on their
respondeat superior and indemnification claims against
the Northbrook and Wheeling Police departments for
the surviving claims. Summary judgment was granted
on Mr. Koh’s state law malicious prosecution, Fourteenth
Amendment substantive due process claim, due process
evidence-fabrication claim, and Fourth Amendment claim
based on Mr. Koh’s pretrial detention.

13a
Appendix A
Ustich, Graf, and K im filed separate appeals
challenging the district court’s denial of summary
judgment on the Kohs’ Fifth Amendment coercion claim
on qualified immunity grounds.
II.
We review a denial of qualified immunity on summary
judgment de novo. Lovett v. Herbert, 907 F.3d 986, 990
(7th Cir. 2018). We are unable to review an appeal from an
interlocutory order such as a denial of a motion for summary
judgment, but there is an exception—the collateral order
doctrine—for us to review an order denying a claim of
qualified immunity. Dockery v. Blackburn, 911 F.3d 458,
464 (7th Cir. 2018). Our review, though, is limited to pure
legal issues. Id. at 464-65. Consideration of any factual
questions is outside our jurisdiction. Hurt v. Wise, 880
F.3d 831, 839 (7th Cir. 2018) overruled on other grounds
by Lewis v. City of Chicago, 914 F.3d 472 (7th Cir. 2019).
For purposes of appeal, an appellant may take all facts
and inferences in plaintiff’s favor and argue “those facts
fail to show a violation of clearly established law.” Id.
(emphasis in original). “When the district court concludes
that factual disputes prevent the resolution of a qualified
immunity defense, these conclusions represent factual
determinations that cannot be disturbed in a collateral
order appeal,” such as this one. Gant v. Hartman, 924
F.3d 445, 448 (7th Cir. 2019) (internal quotation marks
and citation omitted). Our review is further limited in
that we may not “make conclusions about which facts the
parties ultimately might be able to establish at trial, nor
may [we] reconsider the district court’s determination that

14a
Appendix A
certain genuine issues of fact exist.” Id. (internal quotation
marks and citation omitted). To establish jurisdiction,
appellants must present purely legal arguments, but if
those arguments “are dependent upon, and inseparable
from, disputed facts,” we do not have jurisdiction to
consider the appeal. Id. at 448-49 (quoting White v.
Gerardot, 509 F.3d 829, 835 (7th Cir. 2007)). Finally, we
will “consider[] only the facts that were knowable to the
defendant officers.” White v. Pauly, 137 S. Ct. 548, 550,
196 L. Ed. 2d 463 (2017).
If we determine we have jurisdiction, we then turn
to the qualified immunity analysis. Once an officer
asserts qualified immunity, a plaintiff can proceed with
his case only if he can show (1) that the “facts, taken in
the light most favorable to [him], make out a violation
of a constitutional right,” and (2) that right was “clearly
established at the time of the alleged violation.” Gill v. City
of Milwaukee, 850 F.3d 335, 340 (7th Cir. 2017) (quoting
Allin v. City of Springfield, 845 F.3d 858, 862 (7th Cir.
2017)). We may consider these prongs in any order we
choose. Id. “’If either inquiry is answered in the negative,
the defendant official’ is protected by qualified immunity.”
Reed v. Palmer, 906 F.3d 540, 546 (7th Cir. 2018) (citations
omitted) (emphasis in original).
The parties assert various arguments. Ustich and
Graf argue that the district court erred in denying their
claims for qualified immunity because there was no clearly
established law to alert them that their conduct at the
time of Mr. Koh’s interrogation was unconstitutional.
Alternatively, they argue that the state trial court’s

15a
Appendix A
denial of Mr. Koh’s motion to suppress his confession was
a superseding, intervening cause that entitled them to
qualified immunity.
Kim also makes the “intervening cause” argument
and asserts several of his own. First, he argues the
facts fail to show he intended to violate Mr. Koh’s right
against self-incrimination and that Kim’s conduct was
the proximate cause of the violation of Mr. Koh’s Fifth
Amendment rights. Second, Kim claims that there was no
clearly established law at the time of Mr. Koh’s interview
that would have given Kim notice that his conduct as a
language interpreter violated Mr. Koh’s Fifth Amendment
rights. And third, Kim argues that the district court
erred by not considering his claim for qualified immunity
separately from Graf’s claim.
A. 	Ustich and Graf
Turning now to Ustich and Graf’s appeal, they argue
they are entitled to qualified immunity because it was
not clearly established in June 2009 that their conduct
during Mr. Koh’s interrogation was unconstitutional.
While on its face this is a legal argument, we do not have
jurisdiction to address it because the appellants’ legal
arguments “depend[] upon and [are] inseparable from
disputed facts.” Gutierrez v. Kermon, 722 F.3d 1003,
1010-11 (7th Cir. 2013). While Ustich and Graf assert in
their reply brief that they have taken all of the district
court’s factual determinations and reasonable inferences
in the light most favorable to Mr. Koh, “we detect a backdoor effort to contest the facts,” namely the nature of

16a
Appendix A
Mr. Koh’s confusion and lack of understanding due to the
language barrier, the impact of the lack of medication
and sleep, and the threat Graf leveled against Mr. Koh.
Jones v. Clark, 630 F.3d 677, 680 (7th Cir. 2011). “The
voluntariness of a confession depends on the totality of
the circumstances, including both the characteristics of
the accused and the nature of the interrogation. If those
circumstances reveal that the interrogated person’s will
was overborne, admitting the resulting confession violates
the Fifth Amendment.” Jackson v. Curry, 888 F.3d 259,
265 (7th Cir. 2018) (quoting Hurt, 880 F.3d at 845). Had
Ustich and Graf “accepted all historical facts favorably
to the [Kohs] and argued that those facts did not show
that [Mr. Koh’s] confession was involuntary, we would
be in a position to answer the ultimate legal question.”
Hurt, 880 F.3d at 846. But since these challenged facts
are an integral part of the totality of the circumstances
considered by the district court, we lack jurisdiction over
Ustich and Graf’s appeal.
1. 	The Language Barrier
It was clear that Mr. Koh did not speak fluent English.
While all the parties admit that, Ustich and Graf’s
characterization of the extent and effect of Mr. Koh’s
language barrier challenges the district court’s factual
determinations at summary judgment. Ustich and Graf
describe Mr. Koh as having “limited English language
proficiencies,” but they contend that they “recruited an
interpreter to eliminate or lessen the language barrier.”19
19. Ustich and Graf Appellate Br. at 24, 33.

17a
Appendix A
In so doing, they challenge the district court’s factual
determination that Mr. Koh did not just suffer from a
language barrier, but rather that Mr. Koh suffered a
lack of understanding and confusion and that the officers
were aware of this. Koh, 307 F. Supp. 3d at 856. Taking
the facts in the light most favorable to Mr. Koh, this lack
of understanding was obvious. As the district court aptly
pointed out,
Many of Mr. Koh’s answers were altogether
nonsensical, showing (or so a reasonable jury
could find) that he did not understand what was
going on. For example, Mr. Koh responded to
Graf’s question about what kind of person Paul
was by narrating what happened yesterday
morning. At another point in the interview,
Koh answered a question about whether he
saw a weapon by telling Graf about the tools he
kept for his vending machine business. During
one tense moment, Graf asked Mr. Koh[,]
“Would God want Paul to [ ] have his father
sitting here and telling us a story that’s not
true?”—a question that should obviously have
been answered “no”—but Mr. Koh said “yeah.”
As the interview went on, Mr. Koh largely
defaulted to giving one word or unintelligible
answers, or responding that he did not know or
could not remember.
Id. at 851. (citations omitted and second alteration in
original). Moreover, the district court again noted that
Mr. Koh’s confusion was evident when Graf had more or

18a
Appendix A
less gotten Mr. Koh to admit that he stabbed Paul in selfdefense: Mr. Koh’s responses to follow-up questions made
it clear that he may have been speaking about an earlier
incident when Paul swung a golf club at Mr. Koh. Id. at 856
n.37 (quoting Interview Tr. at 136-37). The extent of Mr.
Koh’s understanding and the degree of his confusion are
key to determining whether his confession was involuntary
and coerced. Therefore, Ustich and Graf’s characterization
of Mr. Koh’s language problem as a “limited English
language proficiency” overcome by the presence of an
interpreter, rather than accepting the district court’s
conclusions concerning Koh’s lack of understanding,
precludes our jurisdiction. See Jackson, 888 F.3d at 264
(“[D]ifferences in the parties’ charaterizations of the same
evidence are the essence of fact disputes, over which we
presently lack jurisdiction.”) (internal quotation marks
omitted); Jewett v. Anders, 521 F.3d 818, 822 (7th Cir.
2008) (internal quotations and citations omitted) (“In
reviewing a district court’s denial of qualified immunity,
we cannot make conclusions about which facts the parties
ultimately might be able to establish at trial. Nor may we
reconsider the district court’s determination that certain
genuine issues of fact exist.”).
Ustich and Graf’s challenge regarding the impact
and extent of Mr. Koh’s language barrier also extends
to their description of the administration of Miranda
warnings to Mr. Koh. While they concede that Mr.
Koh did not subjectively understand the warnings,
their characterization of the facts surrounding the
administration of the Miranda warnings is limited and
selective. Any reasonable officer would have known at

19a
Appendix A
the time of Mr. Koh’s interview that Miranda warnings
are critical to protect a suspect against coercion.
United States v. Gupta, 183 F.3d 615, 617 (7th Cir. 1999)
(“Potential coercion or compulsion is vital to Miranda’s
application, because the clause underlying its framework
is the privilege against compulsory self-incrimination.”).
They note that Graf read Mr. Koh his rights, Mr. Koh
nodded that he understood, and when Mr. Koh requested
that Kim translate, Graf agreed to allow that. According
to Ustich and Graf, Kim then spoke to Mr. Koh in Korean
and then Mr. Koh signed the Miranda waiver form. A
reasonable officer would have known that he could not
rely upon Mr. Koh’s nodding without speaking when
he was first read the Miranda warnings after Mr. Koh
asked Kim to translate. A person typically asks for
something to be translated when he does not understand
what was said to him in another language. When such a
request is made, any prior nodding is more likely a polite
acknowledgment that he was listening to what the speaker
was saying rather than affirming. Ustich and Graf also
leave out the important fact that Mr. Koh was going to
date the written waiver form with “early in the morning,”
presumably that being the time Paul was found at his
home. Taking this fact in the light most favorable to Mr.
Koh, a reasonable officer would conclude that Mr. Koh did
not understand what he was executing when he signed
the English Miranda waiver form. As the district court
stated, Mr. Koh executed the written “Miranda waiver
form at Graf’s and Kim’s directions.” Koh, 307 F. Supp. 3d
at 851 (emphasis added). So even if Ustich and Graf did not
understand what Kim said to Mr. Koh in Korean, Mr. Koh’s
conduct when executing the English Miranda waiver

20a
Appendix A
form would prompt a reasonable officer to conclude that
Mr. Koh did not understand what he was signing. Finally,
Ustich and Graf’s contention that Mr. Koh agreed at the
beginning of the second interview that he was advised of
his rights and understood is unavailing because it further
disregards the district court’s conclusions regarding Mr.
Koh’s lack of understanding due to the language barrier.
More importantly, it presupposes that Mr. Koh understood
his rights in the first instance.
2. 	Lack of Sleep and Medication
Similarly, Ustich and Graf challenge the district court’s
factual determinations regarding Mr. Koh’s lack of sleep
and medication. Both sleep and medication are relevant
to the inquiry of whether an individual is susceptible to
coercion. See Greenwald v. Wisconsin, 390 U.S. 519, 521,
88 S. Ct. 1152, 20 L. Ed. 2d 77 (1968); United States v.
Huerta, 239 F.3d 865, 871 (7th Cir. 2001). Regarding Mr.
Koh’s lack of sleep, Ustich and Graf argue Mr. Koh had
slept for five hours the night prior and he did not assert
he was prohibited from resting between interviews. They
go on stating, “[N]o reasonable police officer would think
that a person who had just lost his son in such a violent
manner would want more rest, under such circumstances,
before trying to help police solve the crime.” 20 With such
characterizations, though, Ustich and Graf are not taking
the facts in the light most favorable to Mr. Koh and are
ignoring the district court’s conclusion that throughout the
interviews Mr. Koh displayed signs of physical exhaustion
20. Ustich and Graf Appellate Br. at 36.

21a
Appendix A
when “he sat hunched over in his chair” and hit himself
in the head and chest. Koh, 307 F. Supp. 3d at 837. This
is a factual challenge that precludes our jurisdiction.
Similarly, Ustich and Graf acknowledge that Mr. Koh did
not receive his requested medication until after his second
interview, but they argue that they did not intentionally
delay providing the medicine.21 They do not state how their
intent is relevant to Mr. Koh’s Fifth Amendment claim,
and to the extent that it may be relevant, it is outside the
scope of our jurisdiction over this interlocutory appeal.
Stinson v. Gauger, 868 F.3d 516, 526-27 (7th Cir. 2015)
(holding that the existence of intent is an issue of fact that
cannot be decided on an interlocutory appeal of a denial
of qualified immunity).
3. 	Threatening Language
Ustich and Graf also assert that Mr. Koh’s interrogation
contained no “threats of consequences.” 22 This, though,
is in direct contravention of the district court’s factual
determination that a reasonable jury could find it was a
threat when Graf told Mr. Koh that they could be there
for “days and days and days.” Koh, 307 F. Supp. 3d at 853
(quoting Interview Tr. at 117). Accordingly, we do not have
jurisdiction to consider Ustich and Graf’s legal argument
that law was not clearly established at the time of Mr.
Koh’s interview because this argument is “dependent
upon, and inseparable from, disputed facts.” Gant, 924
F.3d at 448.
21. Id. at 37.
22. Id. at 30

22a
Appendix A
B. Kim
Turning now to Kim’s arguments, we first address
his argument that there was no clearly established law in
June 2009 that would have put him, a language interpreter,
on notice that this conduct was unconstitutional. This
argument, though, contests the district court’s factual
determinations about Kim’s role during the interrogation
and, thus, is outside of the scope of our limited jurisdiction.
See Levan v. George, 604 F.3d 366, 370 (7th Cir. 2010)
(“If the legal issue being appealed is not significantly
different than the factual issues underlying the claim,
this separability requirement will be nearly impossible
to satisfy.”) It is true that the district court addressed
Kim’s role as an interpreter, but Kim’s argument ignores
the district court’s factual determination that Kim
participated in the interrogation itself and did not act as
a mere interpreter. Koh, 307 F. Supp. 3d at 852 (“Officer
Kim even joined in the interrogation by asking his own
questions in English. . . . Officer Kim would . . . interject
in Korean with questions of his own.”). At this juncture,
we must take the fact that Kim participated as an
interrogator during the interview as true, and Kim’s
characterization of his role in the interrogation as a
mere interpreter challenges that fact in such a way that
precludes our jurisdiction. We are unable to address his
purported legal claim because it is entangled with the
factual question of his role during Mr. Koh’s interview.
See Hill v. Coppleson, 627 F.3d 601, 605-06 (7th Cir. 2010)
(holding that a prosecutor was not entitled to absolute or
qualified immunity because the “resolution depends on
facts that the district court has properly determined to
be in dispute”).

23a
Appendix A
Further, in light of the district court’s factual
determination about Kim’s participation in the interview,
the district court did not err in attributing to Kim a shared
knowledge with Graf of the facts and circumstances
of the interrogation. Kim argues that the attribution
demonstrates that the district court failed to assess his
entitlement to qualified immunity independently of its
assessment of Graf’s qualified immunity claim. While the
district court’s individual assessment of Kim’s entitlement
to qualif ied immunity was brief, g iven that K im
participated in the same, singular factual scenario as Graf,
i.e., Mr. Koh’s interrogation, the district court satisfied the
individualized determination required when it concluded
that Kim was not entitled to qualified immunity. This is
particularly true given the district court’s determination
that Kim participated in the interrogation by posing
questions of his own and not merely as a language
interpreter. Cf. Estate of Williams v. Cline, 902 F.3d 643,
651-52 (7th Cir. 2018) (holding that the district court did
not conduct the requisite individualized determination of
officers’ entitlement to qualified immunity on plaintiff’s
Fourth Amendment claim where officers had varying
encounters with plaintiff at different times).
Kim further argues that had the district court
made the appropriate individualized determination “it
would have found [he] lacked requisite intent to coerce a
confession from Koh in violation of the Fifth Amendment’s
self-incrimination clause.” 23 Like Ustich and Graf, Kim
has failed to assert how his intent is relevant to Mr. Koh’s
23. Kim Reply Br. at 17-18.

24a
Appendix A
legal claim and to the extent that it may be relevant,
such a contention is a factual question over which we do
not have jurisdiction. Stinson, 868 F.3d at 526-27. Kim’s
argument regarding intent also permeates his challenge
of the district court’s factual determination regarding the
translations that he provided, namely the summary of the
Miranda warnings, the Korean idiom gachi jookja, and
other translational errors. He contends he “acted to the
best of his ability” and had no intention to deceive or coerce
Koh’s confession. 24 Again, such an argument is outside the
scope of our limited jurisdiction at this juncture.
C. 	Superseding, Intervening Cause
All three appellants contend that the state trial court’s
denial of Mr. Koh’s motion to suppress is a superseding,
intervening cause entitling them to qualified immunity.
We do not have jurisdiction over the argument asserted
by all appellants that the state court’s denial of Mr. Koh’s
motion to suppress is a superseding, intervening cause of
his Fifth Amendment claim. As we held in Jackson, 888
F.3d at 266, this court has not “accepted this argument
in the context of a Fifth Amendment coerced-confession
claim,” and since the “superseding-cause issue . . . is not
a pure legal question related to qualified immunity,”
the court lacks jurisdiction under the collateral order
doctrine.

24. Kim Appellant Br. at 20.

25a
Appendix A
III.
Because these appeals present factual challenges that
are outside of our jurisdiction over an appeal of an order
denying qualified immunity on summary judgment, we
dismiss these appeals for lack of jurisdiction.

26a
Appendix B — Appendix
opinionBof the UNITED
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS, EASTERN DIVISION,
DATED MARCH 30, 2018
UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION
No. 11 C 02605
HYUNG SEOK KOH and EUNSOOK KOH,
Plaintiffs,
v.
MARK GRAF, et al.,
Defendants.
March 30, 2018, Decided
Honorable Edmond E. Chang, United States District
Judge.
Memorandum Opinion and Order
Hyung Seok Koh and Eunsook Koh bring this civil
rights lawsuit against Northbrook police officers Mark
Graf, John Ustich, Charles Wernick, Roger Eisen, Matthew
Johnson, Scott Dunham, Bryan Meents, and Keith Celia;
Wheeling police officer Sung Phil Kim; and the Villages

27a
Appendix B
of Northbrook and Wheeling.1 R. 133, Second Am. Compl. 2
The Kohs’ claims arise out of the Defendants’ investigation
into the death of their son, Paul Koh. Both the Northbrook
Defendants and the Wheeling Defendants have moved
for summary judgment on all of the Kohs’ claims. R. 274,
Wheeling Defs.’ Mot. Summ. J.; R. 278, Northbrook Defs.’
Mot. Summ. J; R. 362, Defendants’ Joint Mot. Summ. J. 3
1. This Court has subject matter jurisdiction under 28 U.S.C.
§ 1331 over the § 1983 claims, and supplemental jurisdiction over
the state-law claims.
For convenience’s sake, the Court will refer to the Northbrook
officers and the Village of Northbrook collectively throughout the
Opinion as the “Northbrook Defendants,” unless context dictates
otherwise. Likewise, the Court will refer to Officer Kim and the
Village of Wheeling collectively as the “Wheeling Defendants,”
unless context dictates otherwise.

2. Citations to the record filings are “R.” followed by the docket
number and, when necessary, a page or paragraph number. Citations
to the parties’ Local Rule 56.1 Statements of Fact are “WDSOF” (for
the Wheeling Defendants’ Statement of Facts) [R. 276]; “NDSOF”
(for the Northbrook Defendants’ Statement of Facts) [R. 280];
“PSOF” (for the Kohs’ Statement of Additional Facts) [R. 315]; “Pls.’
Resp. WDSOF” (for the Kohs’ Response to the Wheeling Defendants’
Statement of Facts) [R. 309]; “Pls.’ Resp. NDSOF” (for the Kohs’
Response to the Northbrook Defendants’ Statement of Facts) [R.
311]; “Wheeling Defs.’ Resp. PSOF (for the Wheeling Defendants’
Response to the Kohs’ Statement of Additional Facts) [R. 323]; and
“Northbrook Defs.’ Resp. PSOF (for the Northbrook Defendants’
Response to the Kohs’ Statement of Additional Facts) [R. 328].
3. After briefing on the original summary judgment motions
(R. 274 and R. 278) was complete, both sides moved to add additional
authority. The Kohs’ additional authority, Manuel v. City of Joliet,
137 S.Ct. 911, 197 L. Ed. 2d 312 (2017) opened the door for a new

28a
Appendix B
For the reasons below, the motions are granted in part
and denied in part.
I. Background
For purposes of the summary judgment motions, the
facts are viewed in the light most favorable to the Kohs
(because they are the non-movants), and all reasonable
inferences are drawn in their favor. See Matsushita Elec.
Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 587, 106
S. Ct. 1348, 89 L. Ed. 2d 538 (1986).
A. At the Scene
At around 3:45 a.m. on April 16, 2009, Eunsook Koh
found her 22-year-old son, Paul Koh, lying in a pool of blood
in the entryway of their family home. R. 280, NDSOF
¶ 1; R. 315, PSOF ¶ 2; R. 288-2, Exh. 82, Mar. 22, 2010
Pretrial Hr’g Tr. 42:9-43:14 (sealed).4 Mrs. Koh’s screams
version of the Kohs’ Fourth Amendment claim. See R. 356, Mar. 31,
2017 Order at 1. Because the defense had not had an opportunity to
address the expanded Fourth Amendment Claim, the Court allowed
the defendants to file a joint summary judgment motion against
the Manuel v. Joliet claim. Id. at 1-2. This joint motion was filed
accordingly. R. 362, Defs.’ Joint Mot. Summ. J. The Court considers
the joint motion as incorporating all prior summary judgment filings
and briefs. See Mar. 31, 2017 Order at 2.

4. The exhibits to the parties’ Rule 56.1 statements of fact
are numbered sequentially. Exhibits 1-104 are attached to the
Northbrook Defendants’ Statement of Facts [R. 280], Exhibits 105107 are attached to the Wheeling Defendants’ Statement of Facts [R.
276], and Exhibits 108-184 are attached to the Plaintiffs’ Statement
of Facts [R. 315]. Exhibits 185-186 are attached to the Plaintiffs’

29a
Appendix B
woke up her husband, Hyung Seok Koh, who frantically
called 911. PSOF ¶¶ 2-3; NDSOF ¶¶ 1-2; R. 280-2, Exh.
1, 911 Call Tr. 1-3. While waiting for the police, the Kohs
(thinking that Paul might still be alive) dressed to go to
the hospital. PSOF ¶ 3; R. 282-2, Exh. 11, May 11, 2010
Pretrial Tr. 39:13-23. Mr. Koh then called 911 a second
time and asked for help. PSOF ¶ 3; NDSOF ¶ 2; Exh. 1,
911 Call Tr. 4-5.
Within minutes, Northbrook police officers Eisen,
Johnson, Meents, and Celia arrived at the Kohs’ house.
NDSOF ¶ 3; PSOF ¶ 4; Exh. 6, NPD Call Detail Report
(sealed). The officers found Mr. Koh with a cordless phone
in his hand near the front door of the house and Mrs. Koh
crouched over Paul’s body. NDSOF ¶ 4; R. 280-5, Exh. 4,
Celia Dep. Tr. 35:6-37:10. Paul had suffered major stab
wounds to his throat and chest. NDSOF ¶¶ 5, 29; Exh.
4, Celia Dep. Tr. 36:23-37:7. Mr. Koh was frantic and
screaming for someone to help his son; Mrs. Koh was
crying. PSOF ¶ 4; Exh. 4, Celia Dep. Tr. 36:5-38:7. Celia
and Meents told Mrs. Koh to come out on to the lawn. Exh.
4, Celia Dep. Tr. 42:21-43:12. Meanwhile, Mr. Koh went
out to try to start the family car, but Meents followed him
and corralled him back to the front yard. R. 280-6, Exh. 5,
July 15, 2010 Pretrial Hr’g Tr. 12:6-13:17. The Kohs were
pushed to the ground on their lawn, and sat there for ten
to fifteen minutes while Johnson and Meents watched over
them. NDSOF ¶¶ 8, 11; PSOF ¶ 5; Exh. 5, July 15, 2010
Response to the Wheeling Defendants’ Statement of Facts [R.
309], Exhibit 187 is attached to the Northbrook Defendants’ reply
brief [R. 329], and Exhibits 188-189 are attached to the Northbrook
Defendants’ Response to the Plaintiff’s Statement of Facts [R. 328].

30a
Appendix B
Pretrial Hr’g Tr. 15:19-21; NDSOF Exh. 7, Meents Dep.
Tr. 71:1-19. At various times, the Kohs asked to go into the
house to see their son, to gather Mr. Koh’s medications,
to get Mr. Koh’s cell phone, and to go to the hospital.
NDSOF ¶¶ 8, 12-13, 15; R. 283-6, Exh. 17, Hyung Seok
Koh Dep. Tr. 354:4-355:8. These requests were denied.
NDSOF ¶¶ 12-13, 15; Exh. 11, May 11, 2010 Pretrial Hr’g
Tr. 76:8-20; Exh. 5, Meents Dep. Tr. 132:2-9.
At the direction of Commander Eisen, Officers
Johnson and Meents took the Kohs to Johnson’s squad
car. R. 380-4, Exh. 3, Eisen Dep. Tr. 56:6-9; R. 282, Exh.
9, Johnson Dep. 67:22-68:7; Exh. 5, Meents Dep. Tr. 89:816. The Kohs maintain—and the Northbrook Defendants
do not deny (at the summary judgment stage)—that the
officers “pushed” and “sort of shoved” them into the squad
car. R. 311, Pls.’ Resp. NDSOF ¶ 16; Exh. 17, Hyung Seok
Koh Dep. Tr. 363:16-364:17 (“[T]hey held our arm or
twisted our arm, and then they sort of shoved us into the
squad car.”); R. 283, Exh. 12, Mar. 22, 2010 Pretrial Hr’g
Tr. 57:24-58:7 (“I was asking to go to the hospital, but he
said you don’t have to go to the hospital and took me to the
squad car, pushed me to the squad car.”). Johnson drove
the Kohs to the Northbrook Police Department. NDSOF
¶ 22; R. 282, Exh. 9, Johnson Dep. Tr. 76:19-21. Neither
he nor any other officer ever asked the Kohs whether they
wanted to go to the station. PSOF ¶ 6; Exh. 5, July 15,
2010 Pretrial Hr’g Tr. 41:18-42:12; Exh. 82, Mar. 22, 2010
Pretrial Hr’g Tr. 64:8-65:14 (sealed).

31a
Appendix B
B. At the Police Station
When the Kohs arrived at the police station, Mr. Koh
asked to sit in the station’s chapel, but his requests were
denied. PSOF ¶ 7; NDSOF ¶ 37; R. 287-21, Exh. 79, Nov.
13, 2009 Pretrial Hr’g Tr. 59:3-9 (sealed). Instead, Officers
Johnson and Ochab escorted the Kohs to a conference
room in the police station. NDSOF ¶¶ 34-35; Exh. 9,
Johnson Dep. Tr. 85:20-87:20. On the way there, one of the
officers asked Mrs. Koh to wash her bloodstained hands
in the women’s restroom. PSOF ¶ 8; NDSOF ¶ 34; Exh.
9, Johnson Dep. Tr. 85:20-86:23. The officers watched
Mrs. Koh as she did so, and investigators inspected the
bathroom after she finished. PSOF ¶ 8; Exh. 9, Johnson
Dep. Tr. 87:3-11; R. 284-4, Exh. 28, Wasowicz Dep. Tr.
66:8-24.
The Kohs were taken to the conference room and
were given blankets and beverages. NDSOF ¶ 44; Exh.
9, Johnson Dep. Tr. 89:1-19. Johnson or other officers
watched over the Kohs throughout their time in the
conference room. 5 NDSOF ¶ 44; Exh. 9, Johnson Dep.
5. The parties dispute how long the Kohs remained together
in the conference room before Mr. Koh’s first interview. All of the
defendants maintain that the Kohs were together that morning until
Mr. Koh was interviewed; the Kohs assert that they were separated
after just 5 to 10 minutes together. Compare NDSOF ¶ 44 (“The
Kohs remained in the investigative conference room until Mr. Koh
was interviewed. ... [T]he Kohs were huddled together under a
blanket, conversed in Korean and the television (with volume) was
on.”); R. 276, WDSOF ¶¶ 10-11 (When Officer Kim arrived around
6:00 a.m., he observed Mrs. and Mr. Koh “covered in a blanket and
talking in Korean”); Exh. 9, Johnson Dep. Tr. 89:20-90:8 (“We were

32a
Appendix B
220:2-13. Mr. Koh asked to make a phone call, but was not
allowed to do so. PSOF ¶ 11; see also R. 328, Northbrook
Defs.’ Resp. PSOF ¶ 11 (noting that the Deputy Chief Ross
“directed Officer Johnson to hold off on the phone call for
a few minutes until a translator was present”); R. 308-27,
Exh. 134, Transcript of NPD Audio Recordings at 11-12;
R. 292-4, Exh. 103, Ross Dep. Tr. 82:17-84:6. Johnson
did eventually contact Mr. Koh’s pastor, who arrived at
the station around 6:00 a.m. PSOF ¶ 10; Exh. 82, Mar.
22, 2010 Pretrial Hr’g Tr. 12:21-13:14 (sealed). Despite
his repeated requests, however, Pastor Chang was not
allowed to see Mr. Koh. PSOF ¶ 10; Exh. 82, Mar. 22,
2010 Pretrial Hr’g Tr. 17:20-18:8 (sealed). Other friends
and family members came to the police station and asked
to see the Kohs, but their requests were likewise denied.
PSOF ¶¶ 12, 24; R. 286, Exh. 48, Hwang Dep. Tr. 102:17103:7 (sealed); R. 288-3, Exh. 83, May 11, 2010 Pretrial
Hr’g Tr. 147:12-149:19; Exh. 79, Nov. 13, 2009 Pretrial Hr’g
Tr. 91:13-95:17 (sealed). Instead, the police interviewed
these individuals about Mr. Koh’s relationship with his
son. PSOF ¶¶ 10, 12-13; Exh. 82, Mar. 22, 2010 Pretrial
in there for quite some time.”); R. 284-12, Exh. 34, Ochab Dep. Tr.
49:1-8 (Officer Ochab was with the Kohs in the conference room for
“an hour, two hours”), with Pls.’ Resp. NDSOF ¶ 44 (“The Kohs were
separated after approximately 5-10 minutes; they did not talk to each
other, and they weren’t huddled together under a blanket speaking
Korean to each other.”); R. 288-3, Exh. 83, May 11, 2010 Pretrial
Hr’g Tr. 96:12-22 (“Q: Isn’t it true ... that it was more like three hours
that you were together with your husband in that conference room?
/ A: Not that long, no. / Q: You’re claiming it was more like five to
ten minutes? / A: That’s how I recall.”). But see R. 284-15, Exh. 37,
Eunsook Koh Dep. Tr. 248:20-22 (Mrs. Koh acknowledges that the
police separated her from her husband after about three hours).

33a
Appendix B
Hr’g Tr. 15:1-8 (sealed); Exh. 83, May 11, 2010 Pretrial
Hr’g Tr. 150:8-151:11.
C. The Investigation
As the Kohs waited at the police station, the
investigation into Paul’s death progressed. Commander
Eisen directed dispatchers at the station to locate a Koreanspeaking police officer to help facilitate communication
with the Kohs, who had difficulty communicating in
English.6 PSOF ¶ 16; Exh. 3, Eisen Dep. Tr. 151:7-155:3.
A Wheeling police officer, Defendant Kim, responded to
the request and arrived at the Northbrook police station to
provide interpretation assistance. NDSOF ¶ 45; WDSOF
¶ 8; R. 284-17, Exh. 39, Kim Dep. Tr. 80:10-81:9.
At around 5:00 a.m., Northbrook’s Chief of Police,
Defendant Wernick, arrived at the Kohs’ house. NDSOF
¶ 26; R. 280-7, Exh. 6, NPD Call Detail Report (sealed).
Chief Wernick notified the North Regional Major Crimes
Task Force (NORTAF), a regional team designed to
assist with major crime investigations, about Paul’s death.
NDSOF ¶¶ 26-27; R. 284-1, Exh. 25, Wernick Dep. Tr.
58:15-19. In response to Chief Wernick’s notice, NORTAF
investigators arrived on scene. NDSOF ¶¶ 28-32; R. 284-3,
Exh. 27, McEnerney Dep. Tr. 81:4-82:10; R. 284-4, Exh.
6. Though the Kohs did not notify the officers that they needed
help in reading or understanding English, see NDSOF ¶ 39; Exh.
17, Hyung Seok Koh Dep. Tr. 398:24-399:3, officers who interacted
with the Kohs recognized that there was a language barrier, PSOF
¶ 14; Exh. 34, Ochab Dep. Tr. 7:11-16 (noting that Mr. Koh’s 911 call
“was coming as also a language barrier”).

34a
Appendix B
28, Wasowicz Dep. Tr. 26:22-28:7. Later that morning, a
group of NORTAF members and other law enforcement
officers conducted a briefing on the Koh case at the
Northbrook police station. See NDSOF Exh. 9, Johnson
Dep. Tr. 153:12-16; NDSOF Exh. 28, Wasowicz Dep. Tr.
31:1-32:12. What happened at this meeting is not entirely
clear—most of the attendees cannot remember exactly
who was there or what information was shared—but it
appears that NORTAF forensic supervisor Wasowicz
presented his preliminary impressions of the scene, and
that Officer Johnson shared information that he learned
from the Kohs. Exh. 9, Johnson Dep. Tr. 160:10-161:10;
Exh. 28, Wasowicz Dep. Tr. 32:13-34:8; R. 284-5, Exh.
29, Wasowicz Aff. ¶ 14; Exh. 27, McEnerney Dep. Tr.
116:13-117:11. The Kohs had informed Johnson that Paul
Koh used marijuana, and that Paul was depressed and the
Kohs believed he might have committed suicide. Exh. 9,
Johnson Dep. Tr. 160:2-161:9; NDSOF ¶¶ 23, 41.
1. Mr. Koh’s First Interview
At around 7:30 a.m., Mr. Koh was interviewed by
Northbrook detectives Graf and Ustich—the first of two
police interrogations he would undergo that morning.
NDSOF ¶ 52; R. 285-1, Exh. 42, Video of Hyung Seok
Koh Interview 1. Officer Kim was present to assist with
Korean-language interpretation. NDSOF ¶ 52; Exh.
42, Video of Hyung Seok Koh Interview 1. This first
interview lasted about 55 minutes. NDSOF ¶ 52; Exh.
42, Video of Hyung Seok Koh Interview 1. Before the
start of the interview, Mr. Koh made another request for
his medications (which he used to control his diabetes,

35a
Appendix B
high blood pressure, and ammonia level disorder). PSOF
¶ 20; R. 289-1, Exh. 85, Mar. 16, 2010 Pretrial Hr’g Tr.
14:3-15:12.7 Detective Graf responded that someone would
bring him the medications, but that did not happen. 8 PSOF
¶ 20; R. 289-1, Exh. 85, Mar. 16, 2010 Pretrial Hr’g Tr.
14:3-15:12.
Before questioning Koh on the events of the night
before, Graf administered Miranda warnings in
English. NDSOF ¶ 54; R. 285-3, Exh. 44, Hyung Seok
Koh Interview Tr. 1-3.9 Koh nodded that he understood
7. The Wheeling Defendants maintain that “[t]hroughout Mr.
Koh’s interview ... Mr. Koh never mentioned any need for medication
or other provisions in the presence of Officer Kim.” WDSOF ¶ 32;
R. 284-17, Exh. 39, Kim Dep. Tr. 131:4-22. (Q: Why are you sure
that he would tell you within hours of his son’s death that he needed
medication? / A: Well, if it’s medication, you need to take it regularly,
I mean.”); but see R. 309, Pls,’ Resp. WDSOF ¶ 32.
8. It does seem that Mr. Koh was eventually given his
medications, but only after the end of his second interview, when it
became clear that he was going to be detained indefinitely. See R.
285-2, Exh. 43, July 15, 2010 Pretrial Hr’g Tr. 72:17-73:13. According
to Graf, this was the first and only time that Mr. Koh asked for his
medications. See id. at 73:14-16. But Graf’s version conflicts with Mr.
Koh’s testimony that he asked for his medications before the first
interview, and at this stage the Court must take Mr. Koh’s word as
true.
9. The Northbrook Defendants rely on a transcript of Mr. Koh’s
videotaped interviews to support their summary judgment motion.
See R. 285-3, Exh. 44, Hyung Seok Koh Interview Tr. Though the
Kohs “do not stipulate to the accuracy of the entire transcript, [they]
admit that its use at summary judgment is generally helpful and
appropriate ... .” Pls.’ Resp. NDSOF ¶ 54. Because the parties agree

36a
Appendix B
the warnings, but then asked Officer Kim to “transfer”
(apparently meaning to say “translate”). Exh. 42, Video
of Hyung Seok Koh Interview 1 at 00:01:30-00:01:36. Kim
did translate at least part of the Miranda warnings into
Korean, but the parties debate whether Kim translated
the warnings properly, and whether Mr. Koh understood
them. See PSOF ¶ 102-105; WDSOF ¶ 36; R. 309, Pls.’
Resp. WDSOF ¶ 36; R. 323, Wheeling Defs.’ Resp. PSOF
¶¶ 102-105. Mr. Koh ultimately executed an Englishlanguage Miranda waiver form at Graf’s and Kim’s
directions. Exh. 42, Video of Hyung Seok Koh Interview
1 at 00:02:13-00:02:36; NDSOF ¶ 54; R. 285-4, Exh.
45, Miranda Waiver Form; Exh. 44, Hyung Seok Koh
Interview Tr. 1-3.
The first interview was conducted mostly in English,
with little intervention from Kim. See generally Exh. 42,
Video of Hyung Seok Koh Interview 1. Although Mr. Koh
was able to answer some questions and communicate at a
basic level in English, some of his answers were confusing
or unresponsive to Graf’s questions. See, e.g., Exh. 44,
Hyung Seok Koh Interview Tr. 3-4, 36. Graf nevertheless
continued questioning Mr. Koh in English, and raised the
possibility that Mr. Koh might have harmed Paul. See,
e.g., id. at 36-37. Throughout this first interview, Mr. Koh
repeatedly denied any involvement in Paul’s death. PSOF
¶ 109; NDSOF ¶ 59; Exh. 44, Hyung Seok Koh Interview
Tr. 36-37; 39-42; 45. Graf and Mr. Koh also discussed
Paul’s drug use and depression. NDSOF ¶ 63; Exh. 44,
Hyung Seok Koh Interview Tr. 52-58.
to use the transcript at this stage in the proceedings, the Court will
rely on it in deciding the motions.

37a
Appendix B
2. Mrs. Koh’s Interview
Two NORTAF detectives (not defendants in this case)
interviewed Mrs. Koh as soon as Mr. Koh’s first interview
ended. NDSOF ¶ 73; R. 308-14, Exh. 121, Eunsook Koh
Interview Tr. Officer Kim also provided interpretation
assistance during Mrs. Koh’s interview, which lasted
around 55 minutes. NDSOF ¶ 73; R. 286-13, Exh. 54, Video
of Eunsook Koh Interview. Mrs. Koh’s version of events
mostly corroborated Mr. Koh’s. PSOF ¶ 111; Wheeling
Defs.’ Resp. PSOF ¶ 111; NDSOF ¶¶ 74-76; see also Exh.
54, Video of Eunsook Koh Interview; Exh. 121, Eunsook
Koh Interview Tr.10
3. Meetings Before Mr. Koh’s Second Interview
Before resuming their interrogation of Mr. Koh,
Graf and Ustich met with several of their superiors to
discuss how to proceed. PSOF ¶ 26; R. 284-14, Exh. 36,
Graf Dep. Tr. 91:4-93:24; Exh. 28, Wasowicz Dep. Tr.
30:13-32:12. Present at these meetings11 were Northbrook
Chief of Police Charles Wernick, Investigations Unit
10. The Kohs rely on a transcript of Mrs. Koh’s videotaped
interview to support their Response to the Defendants’ summary
judgment motions. See R. 308-14, Exh. 121, Eunsook Koh Interview
Tr. Like the transcript of Mr. Koh’s interviews, the Court will also
rely on this transcript in deciding the summary judgment motions.
11. It is a little unclear whether this was one meeting or multiple
meetings, see Exh. 36, Graf Dep. Tr. 92:9-92:20; Exh. 40, Ustich
Dep. 84:21-85:4, but that detail does not matter to the summary
judgment analysis. For the sake of simplicity, the Court adopts the
Kohs’ assertion that there were multiple meetings. See PSOF ¶ 26.

38a
Appendix B
Commander Scott Dunham, NORTAF Commander
Dennis McEnerney, and NORTAF investigative team
leader John Walsh. Exh. 36, Graf Dep. Tr. 91:23-92:12;
NDSOF Exh. 40, Ustich Dep. Tr. 85:1-4. Graf and Ustich
relayed their suspicions about Mr. Koh, noting that he
did not vehemently deny his lack of involvement in Paul’s
death, and that they thought his answers were evasive.
NDSOF Exh. 40, Ustich Dep. Tr. 85:21-86:4; 95:1-14. The
group discussed various pieces of evidence that had been
uncovered by the ongoing investigation, including crime
scene evidence that seemed to indicate a struggle, and
evidence of tension between Paul and Mr. Koh. NDSOF
Exh. 40, Ustich Dep. Tr. 95:6-96:1; R. 285-5, Exh. 46, May
16, 2011 Pretrial Hr’g. Tr. 39:21-42:19. Dunham instructed
Graf and Ustich to “press Mr. Koh a little bit harder.”
Ustich Dep. Tr. 96:16-19.
4. Mr. Koh’s Second Interview
At around 11:30 a.m., Detectives Graf and Ustich,
joined again by Officer Kim, began questioning Mr. Koh
a second time. NDSOF ¶ 78; Video of Hyung Seok Koh
Interview 2. Before reinitiating questioning, Detective
Graf offered Mr. Koh food, coffee, juice, and water.
NDSOF ¶ 80; Exh. 44, Hyung Seok Koh Interview Tr.
58. Although Mr. Koh had not recently eaten, slept, or
taken his medications, PSOF ¶ 29; Exh. 17, Hyung Seok
Koh Dep. Tr. 354:22-355:8, all he said in response was,
“Yeah, what I need is I’ll let you know,” Exh. 44, Hyung
Seok Koh Interview Tr. 59; see also NDSOF ¶ 80.

39a
Appendix B
A s demonstrated on the video recording, the
questioning in the second interview was more aggressive.
Graf, implementing a particular law-enforcement
interrogation technique, pressed Koh hard about the events
of the night before, confronting him with inconsistencies
(real and imagined) in his story. See NDSOF Exh. 36, Graf
Dep. Tr. 105:2-110:15; see also NDSOF ¶¶ 50-51. At first,
Mr. Koh denied any involvement in Paul’s death, sticking
to his story that he had gone to bed and had slept until
he was awoken by Mrs. Koh at around 3:45 a.m. See, e.g.,
Exh. 44, Hyung Seok Koh Interview Tr. at 68, 101-02.
In response, Graf intensified his questioning, eventually
moving to sit in a chair next to Mr. Koh (up until this point,
Detective Graf had been sitting across the table from Mr.
Koh). NDSOF ¶ 85; R. 286-14, Exh. 55, Video of Hyung
Seok Koh Interview 2 00:45:11-00:45:24; Exh. 44, Hyung
Seok Koh Interview Tr. 103. Detective Graf also began to
raise his voice, yell at Mr. Koh, and touch Mr. Koh on his
arms and legs. PSOF ¶ 33; Northbrook Defs.’ Resp. PSOF
¶ 33; NDSOF ¶ 92; Pls.’ Resp. NDSOF ¶ 92; Exh. 55, Video
of Hyung Seok Koh Interview 2 00:55:20-01:09:53.
Graf began to present details of his theory of the
crime, stating that he knew that Mr. Koh had called Paul
the night before and stayed up waiting for Paul to come
home. NDSOF ¶ 87; Pls.’ Resp. NDSOF ¶ 87; Exh. 44,
Hyung Seok Koh Interview Tr. 108-111, 114. Though Mr.
Koh initially denied Graf’s version of events (even despite
Graf’s repeated accusations that Mr. Koh was lying), he
eventually began to go along with Graf’s suggestions.
See Exh. 44, Hyung Seok Koh Interview Tr. 111-144; see
also PSOF ¶¶ 38, 45-50; Northbrook Defs.’ Resp. PSOF

40a
Appendix B
¶¶ 38, 45-50; NDSOF ¶¶ 87, 93; Pls.’ Resp. NDSOF ¶ 87.
As the questioning went on, Mr. Koh became visibly
distressed, sitting hunched in his chair and occasionally
hitting himself in the head or chest. Exh. 55, Video of
Hyung Seok Koh Interview 2 00:44:03, 01:08:10-01:09:53;
R. 286-16, Exh. 57, Video of Hyung Seok Koh Interview 312
00:03:15-00:03:20, 00:10:50-00:10:52, 00:12:18-00:12:20; see
also PSOF ¶ 32. For the most part, Kim did not provide
translation assistance, and Graf did not leave time between
questions to allow for translation. See generally Exh. 55,
Video of Hyung Seok Koh Interview 2; Exh. 57, Video of
Hyung Seok Koh Interview 3.
Eventually, Mr. Koh agreed (that is, the details of
his story were suggested by Graf and Mr. Koh assented)
that he stayed up until 1:00 a.m. waiting for Paul to come
home; that Mr. Koh was mad because Paul had been
out late smoking marijuana with friends; and that the
two got into an argument when Paul finally came home,
which culminated in Mr. Koh stabbing his son in the chest
and slitting his son’s throat with a knife in self-defense.
Exh. 44, Hyung Seok Koh Interview Tr. 111-144; see also
NDSOF ¶¶ 89-90; Pls.’ Resp. NDSOF ¶¶ 89-90. As with
most of the details in that version, it was Detective Graf
who presented Mr. Koh with the self-defense storyline.
See Exh. 44, Hyung Seok Koh Interview Tr. 135-136; see
also PSOF ¶ 119; Wheeling Defs.’ Resp. PSOF ¶ 119;
NDSOF ¶ 94.
12. There are two videotapes of the second interview, labeled
“Video of Hyung Seok Koh Interview 2” and “Video of Hyung Seok
Koh Interview 3.” The tape labeled “Video of Hyung Seok Koh
Interview 1” is the recording of Mr. Koh’s first interview.

41a
Appendix B
About three minutes before what would be the end
of the interview, Officer Dunham knocked on the door.
PSOF ¶ 42; Exh. 57, Video of Hyung Seok Koh Interview
3 at 00:18:19. Graf stepped outside the interview room
and told Dunham that Mr. Koh was in the middle of
confessing to his son’s murder. PSOF ¶ 42; R. 284, Exh.
24, Dunham Dep. Tr. 65:13-66:10. Dunham told Graf
that Mr. Koh’s attorney, Michael Shim, was at the police
station13 and would be brought back to the interview room.
PSOF ¶ 42; Exh. 24, Dunham Dep. Tr. 66:21-68:18. While
Dunham escorted Mr. Shim back to the interview room,
Graf continued to question Mr. Koh. PSOF ¶ 43; Exh. 36,
Graf Dep. Tr. 203:14-16. Graf picked up the pace of the
interview and put more pressure on Mr. Koh to confess.
PSOF ¶ 43; Exh. 44, Hyung Seok Koh Interview Tr. 144
(“Hyungseok, come on. Right now, let’s be done, hurry
up, fast.”). Koh eventually made statements that could be
interpreted as an admission that he had stabbed Paul.14See
Exh. 44, Hyung Seok Koh Interview Tr. at 144-45. Mr. Koh
13. Two of the Kohs’ family members reached out to Shim for
assistance earlier that morning once they realized that Mr. Koh
was a suspect. PSOF ¶¶ 25, 40. Shim called the Northbrook Police
Department to tell them he was Mr. Koh’s attorney before arriving
at the station. Id. ¶ 40. Once at the station, Shim had to wait twenty
minutes before he was able to meet with Officer Dunham and go
back to the interview room to see Mr. Koh. Id. ¶ 41.
14. Mr. Koh’s inculpatory statements were ambiguous. See Exh.
44, Hyung Seok Koh Interview Tr. at 144-45. (“Q: Did you cut his-- /
A: Oh, yeah. / Q: Did you cut his throat? / A:. Maybe, maybe it’s -- /
Q: Not maybe, what happened? / A: I grab -- okay.” “Q: Was he in
front—and then you went like this and you cut his neck (indicating)?
/ A: Yeah. / Q: Is that what you did, did you cut his neck? / A: But I’m
not clear in my mind.”).

42a
Appendix B
also made stabbing or slashing motions with his hands in
response to Graf’s questioning about whether and how he
had cut Paul. Exh. 57, Video of Hyung Seok Koh Interview
3 at 18:40-20:09. The interview terminated when Mr. Shim
arrived and insisted that Graf stop the questioning. Exh.
57, Video of Hyung Seok Koh Interview 3 at 21:08-21:36.
D. Criminal Proceedings
As soon as the interview was over, Detective Graf
met with Chief Wernick and Officers Dunham, Ustich,
and McEnerney. PSOF ¶ 44. (Officer Kim was not present
at this meeting, nor at the meetings that took place in
between Mr. Koh’s interviews earlier that morning.
WDSOF ¶ 18. 15 ) In light of Mr. Koh’s inculpatory
statements, the group decided to call the Cook County
State’s Attorney’s Office to seek approval to file murder
charges against him. PSOF ¶ 44; Exh. 36, Graf Dep.
Tr. 327:11-329:18. In response to this call, two assistant
Cook County State’s Attorneys, Diane Sheridan and Rick
Albanese, went to the Northbrook Police Department that
afternoon and reviewed portions of Mr. Koh’s videotaped
15. In their response to the Wheeling Defendants’ Statement
of Facts, the Kohs deny the Wheeling Defendants’ statement that
“Officer Kim was involved in no meetings with any NORTAF or
Northbrook Police Officer[s] regarding the status of the investigation
of Paul Koh” on the grounds that “Officer Kim had [] interactions
with Northbrook police officers in connection with the death
investigation of Paul Koh.” See Pls.’ Resp. WDSOF ¶ 18. But even if
Kim was involved in some meetings or conversations with NORTAF
or Northbrook officers during the investigation, there is no evidence
that Kim was at the meetings that took place between Mr. Koh’s two
interviews, or the meeting after the second interview.

43a
Appendix B
confession.16 PSOF ¶¶ 44, 59-61; NDSOF ¶ 108; Pls.’ Resp.
NDSOF ¶ 108; R. 308-50, Exh. 157, Felony Review Folder.
Sheridan also met with Graf and McEnerney. NDSOF
¶ 108; Pls.’ Resp. NDSOF ¶ 108.
The next morning, Assistant State’s Attorney Bob
Heilengoetter approved first-degree felony murder
charges against Mr. Koh. NDSOF ¶ 109; R. 287-9,
Exh. 67, Felony Compl. In reaching that decision, ASA
Heilengoetter relied on information contained in a
“felony review folder” compiled by ASA Albanese. PSOF
¶¶ 59, 62; Northbrook Defs.’ Resp. PSOF ¶¶ 59, 62; Exh.
157, Felony Review Folder. The folder included autopsy
results, Albanese’s notes about Mr. Koh’s video-recorded
statements, and ASA Heilengoetter’s notes from a phone
conversation he had with Detective Graf earlier that day.
Exh. 157, Felony Review Folder; see also PSOF ¶¶ 59-60;
Northbrook Defs.’ Resp. PSOF ¶¶ 59-60. ASA Heilgoetter
did not view any portion of the video himself. PSOF ¶ 60;
R. 287-10, Exh. 68, Heilengoetter Dep. Tr. 78:21-79:6. The
parties dispute whether ASA Heilengoetter relied on any
other evidence or on anyone else’s input when deciding
whether to bring charges, compare PSOF ¶¶ 59, 65; Pls.’
Resp. NDSOF ¶ 110, with NDSOF ¶ 110; Northbrook
Defs.’ Resp. PSOF ¶¶ 59, 65, as well as the extent to
which ASA Heilengoetter knew about Paul’s mental health
16. It is unclear how much of the videotapes Albanese reviewed
that day. PSOF ¶ 63; Northbrook Defs.’ Resp. PSOF ¶ 63; R. 30850, Exh. 157, Felony Review Folder; R. 308-17, Exh. 124, Abanese
Dep. Tr. 28:12-16 (“Q: Do you recall at all like how long the part
or parts that you watched? / A: I don’t recall if it was a part or the
entire video.”).

44a
Appendix B
issues, compare PSOF ¶ 66, with Northbrook Defs.’ Resp.
PSOF ¶ 66. Detective Ustich filled out the felony complaint
before Detective Graf signed off on it. NDSOF ¶ 109; Exh.
157, Felony Review Folder.
On May 13, 2009, the state obtained a grand jury
indictment against Mr. Koh for first-degree murder.
PSOF ¶ 73; see also R. 308-63, Exh. 170, Grand Jury Tr.
Detective Graf testified before the grand jury. PSOF
¶ 73; see also Exh. 170, Grand Jury Tr. Charges were
never brought against Mrs. Koh, and she was released
on April 17, 2009 after spending the night in a jail cell.
NDSOF ¶ 111; R. 287-11, Exh. 69, Eunsook Koh Prisoner
Checklist. Mr. Koh, on the other hand, ultimately spent
almost four years in Cook County Jail awaiting trial. R.
316, Pls.’ Resp. Br. at 22; see PSOF ¶¶ 73-74. Finally, after
a three-week trial in December 2012—during which the
defense (that is, Mr. Koh) argued that Paul took his own
life—a jury acquitted Mr. Koh of all charges. PSOF ¶ 74;
NDSOF ¶ 122.
II. Standard of Review
Summary judgment must be granted “if the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). A genuine issue of material
fact exists if “the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct. 2505,
91 L. Ed. 2d 202 (1986). In evaluating summary judgment
motions, courts must view the facts and draw reasonable

45a
Appendix B
inferences in the light most favorable to the non-moving
party. Scott v. Harris, 550 U.S. 372, 378, 127 S. Ct. 1769,
167 L. Ed. 2d 686 (2007). The Court may not weigh
conflicting evidence or make credibility determinations,
Omnicare, Inc. v. UnitedHealth Grp., Inc., 629 F.3d 697,
704 (7th Cir. 2011), and must consider only evidence that
can “be presented in a form that would be admissible in
evidence.” Fed. R. Civ. P. 56(c)(2) . The party seeking
summary judgment has the initial burden of showing
that there is no genuine dispute and that they are entitled
to judgment as a matter of law. Carmichael v. Vill. of
Palatine, 605 F.3d 451, 460 (7th Cir. 2010); see also Celotex
Corp. v. Catrett, 477 U.S. 317, 323, 106 S. Ct. 2548, 91 L.
Ed. 2d 265 (1986); Wheeler v. Lawson, 539 F.3d 629, 634
(7th Cir. 2008). If this burden is met, the adverse party
must then “set forth specific facts showing that there is a
genuine issue for trial.” Anderson, 477 U.S. at 256.
III. Analysis
Both sets of Defendants have moved for summary
judgment on all the claims in the Kohs’ Second Amended
Complaint. In Count One of that complaint, the Kohs allege
that the Defendants arrested them without probable cause
(or, in Officer Kim’s case, extended Mr. Koh’s unlawful
detention) in violation of the Fourth Amendment. R. 133,
Second Am. Compl. ¶¶ 48-52. In Count Two, the Kohs
allege that the Defendants violated Mr. Koh’s right against
self-incrimination and his right to due process under the
Fifth and Fourteenth Amendments. Id. ¶¶ 53-56. Count
Three alleges that the Defendants failed to intervene to
prevent these constitutional violations, id. ¶¶ 57-60, Count

46a
Appendix B
Four targets the Village of Northbrook, alleging that
the Northbrook Defendants were acting pursuant to an
unconstitutional municipal policy and practice, id. ¶¶ 6165, and Count Five alleges that the Defendants conspired
to violate the Kohs’ constitutional rights, id. ¶¶ 66-70.
Finally, in the wake of the Supreme Court’s decision in
Manuel v. City of Joliet, 137 S. Ct. 911, 197 L. Ed. 2d 312
(2017), the Kohs contend that Mr. Koh’s pretrial detention
violated the Fourth Amendment. R. 357, Pls.’ Supp. Br.
at 1-3.
The Kohs also bring a few state-law claims. Count
Six is a malicious prosecution claim, which alleges
that the Defendants fabricated evidence,17 withheld
exculpatory information, and subjected Mr. Koh to
criminal proceedings without probable cause. Second Am.
Compl. ¶¶ 71-75. Count Seven is (or was18) an intentional
infliction of emotional distress claim, id. ¶¶ 76-80, and
Count Eight alleges loss of consortium on behalf of Mrs.
Koh, id. ¶¶ 81-84. Finally, Counts Nine and Ten allege
respondeat superior and indemnification against the
Villages of Northbrook and Wheeling. Id. ¶¶ 85-93. With
the claims laid out, the Court analyzes each in turn.
17. Although the Second Amended Complaint treated the
evidence fabrication as part of the malicious prosecution claim, see
Second Am. Compl. ¶ 73, the Kohs now argue that the fabrications
also violated Mr. Koh’s federal constitutional right to due process.
See Pls.’ Resp. Br. at 50. Both versions of the evidence fabrication
claim are addressed below. See Parts III.D and III.E, below.
18. The Court already dismissed the Kohs’ intentional infliction
of emotional distress claim as untimely filed. See R. 82, Mot. to
Dismiss Order at 13-16.

47a
Appendix B
A. Conspiracy and Failure to Intervene
Before digging into the Kohs’ substantive claims, their
derivative claims for conspiracy and failure to intervene
merit a brief discussion. The Northbrook Defendants
assert that the Kohs have not established sufficient facts
to demonstrate that individual defendants should be
liable for conspiracy or failure to intervene. Northbrook
Defs.’ Br. at 37-38. In its prior opinion on the Defendants’
motion to dismiss, the Court noted the complaint’s19 lack
of clarity on which Defendants supposedly committed
which violations, but held that this group pleading was
appropriate at the pleading stage. R. 82, Opinion on Mot.
Dismiss at 9. At the same time, the Court noted that the
Kohs would eventually bear the burden of tying particular
Defendants to particular injuries. Id. at 10. Northbrook
now argues that the Kohs have not met that burden, and
that summary judgment is therefore warranted on the
conspiracy and failure to intervene claims.
There is a problem with this argument: the Northbrook
Defendants do not explain which Defendants are entitled
to summary judgment, on what claims, or (if it matters) at
what point in time during the course of events particular
Defendants ceased being even potentially liable. This
is a fatal oversight. On summary judgment, the moving
party carries the burden of demonstrating that there are
no genuine issues of material fact and that it is entitled
to summary judgment as a matter of law. Fed. R. Civ. P.
19. This was the First Amended Complaint, but the Second
Amended Complaint made similar allegations.

48a
Appendix B
56(a). In this case, Northbrook’s motion is so vague on
the group-allegations argument that the Court is left to
guess which Defendants Northbrook believes are entitled
to summary judgment on which theories of liability. See
R. 279, Northbrook Defs.’ Br. at 37-38; R. 329, Northbrook
Defs.’ Reply Br. at 36-37. 20 Northbrook’s vague arguments
are especially troubling in this case, because there is
evidence from which a reasonable jury could infer that
at least some of the Defendants conspired to deprive
the Kohs of their constitutional rights, and that some
Defendants failed to intervene to prevent the violations.
So, contrary to Northbrook’s argument, it is not enough to
simply point out to an absence of evidence to support the
Kohs’ claims. See Northbrook Defs.’ Mot. Summ. J. at 38.
To be sure, the Kohs do have the ultimate burden of
proving conspiracy and failure to intervene, and it is very
unlikely that they will be able to do so for all Defendants
when it comes to the trial. It seems clear, for example,
that liability for the on-scene arresting officers—Meents,
Johnson, Eisen, and Celia—must cut off at some point
in time after the Kohs arrived at the police station and
the interrogations began. Unsupported allegations of
a conspiracy of which there is no evidence will not be
20. Northbrook argues in its Reply that its Rule 56.1 Statement
of Facts provides adequate notice of the grounds for its motion for
summary judgment on the conspiracy and failure to intervene claims.
Northbrook Defs.’ Reply Br. at 36. Northbrook’s Statement of Facts
does set forth Northbrook’s version of the facts of the case in detail.
But even with the facts laid out clearly, Northbrook is still asking
the Court and the Plaintiffs to guess which defendants Northbrook
believes are entitled to summary judgment and on what claims.

49a
Appendix B
enough at trial (and indeed would not have been enough
to withstand a properly detailed motion for summary
judgment). Unfortunately, Northbrook has not made
these arguments in enough detail to give the Kohs or the
Court fair notice of the grounds for summary judgment.
Northbrook’s motion for summary judgment on the
conspiracy and failure to intervene claims is denied.
B. False Arrest
Moving on to the substantive claims, the Kohs allege
the Defendants arrested them without probable cause
(or, in Officer Kim’s case, extended Mr. Koh’s unlawful
detention) in violation of the Fourth Amendment. 21 To
evaluate this claim, the Court must answer two key
questions. First, at what point were the Kohs under arrest
for Fourth Amendment purposes? Second, when, if ever,
did the arresting officers have probable cause (or at least
arguable probable cause) to detain the Kohs?

21. The Kohs also asserted strip-search claims, arguably as
free-standing independent claims. See Second Am. Compl. ¶ 50. They
did not, however, respond to the part of the Northbrook Defendants’
motion seeking summary judgment on those claims. See Northbrook
Defs.’ Br. at 25-28; see also NDSOF ¶¶ 98-105. So those claims are
waived and summary judgment is granted against them. See Sentinel
Ins. Co. v. Serra Int’l, 119 F. Supp. 3d 886, 891 (N.D. Ill. 2015) (“[A]
party opposing summary judgment must inform the trial judge of
the reasons, legal or factual, why summary judgment should not be
entered. ... If the opposing party fails to do so, the claim is deemed
waived and the nonmoving party will lose the motion.” (internal
quotation marks and citation omitted)).

50a
Appendix B
1. Timing of the Arrest
A n arrest occurs when, “in view of all of the
circumstances surrounding the incident, a reasonable
person would have believed that he was not free to leave.”
United States v. Tyler, 512 F.3d 405, 409-10 (7th Cir. 2008)
(quotations and citations omitted). This is an objective
standard: the officer’s and the suspect’s subjective beliefs
are not part of the legal analysis. Carlson v. Bukovic,
621 F.3d 610, 618-19 & n.15 (7th Cir. 2010). Relevant
circumstances include the location of the arrest, the officers’
statements and conduct, use of threats or threatening
conduct, and whether the suspect was removed to another
location. United States v. Scheets, 188 F.3d 829, 836-37 (7th
Cir. 1999); see also Fox v. Hayes, 600 F.3d 819, 833 (7th
Cir. 2010); Tyler, 512 F.3d at 410. The “characteristics” of
the suspect, including whether the suspect “ha[s] problems
understanding the English language,” are also relevant to
determining whether an arrest occurred. United States
v. Espinosa-Alvarez, 839 F.2d 1201, 1205 (7th Cir. 1987);
see also United States v. Schumacker, 577 F. Supp. 590,
595 (N.D. Ill. 1983). This is because individuals who have
difficulty understanding English might feel “a greater
compulsion to comply with the request of the police.”
Espinosa-Alvarez, 839 F.2d at 1205.
From the very beginning of their encounter with the
Kohs, the Northbrook police officers acted in a way that
would lead reasonable persons to think that they were not
free to leave. The officers’ first action upon arriving at
the scene was to yell at Mrs. Koh to leave the house and
sit down on the grass outside. NDSOF ¶ 8; Exh. 12, Mar.

51a
Appendix B
22, 2010 Pretrial Hr’g. Tr. 51:23-52:2. Two Northbrook
officers then grabbed Mrs. Koh by her arm and shoulder
and forced her down onto the grass. NDSOF ¶ 8; Exh. 12,
Mar. 22, 2010 Pretrial Hr’g. Tr. 52:15-22, 53:5-8. When Mr.
Koh looked like he might be trying to leave the scene—he
went to the driveway to try to start his car to take Paul
to the hospital—Officer Meents told Mr. Koh that he had
to go back to the front lawn. Exh. 5, July 15, 2010 Pretrial
Hr’g Tr. 12:6-13:17. Meents then escorted Mr. Koh away
from the car and back to the front lawn, despite Mr. Koh’s
protests that he wanted to go to the hospital. Id. at 13:1117; R. 283-7, Exh. 18, Jan. 5, 2010 Pretrial Hr’g Tr. 21:1522:7. The officers pushed Mr. Koh down onto the grass
by his shoulders, and told him not to move. NDSOF ¶ 11;
Exh. 10, Nov. 13, 2009 Pretrial Hr’g Tr. 35:11-16, 38:9-15;
Exh. 11, May 11, 2010 Pretrial Hr’g Tr. 68:14-21. Officers
also screamed at Mr. Koh to “shut up” and “be quiet.”
Exh. 18, Jan. 5 2010 Pretrial Hr’g Tr. 23:22-24:1-3. Once
the Kohs were on the ground on the front lawn, Meents
and Johnson stood over them in them for as long as fifteen
minutes, remaining in “close proximity” to the Kohs the
entire time. NDSOF Exh. 5, July 15, 2010 Pretrial Hr’g
Tr. 15:19-21; R. 280-8, Exh. 7, Meents Dep. 71:1-19. During
this time, the officers denied the Kohs’ requests to go into
the house for medications, to retrieve their cell phone,
and to see their son. 22 NDSOF ¶¶ 12-13, 15; Exh. 11, May
22. Although this denial might have been prompted by the
officers’ subjective desire to preserve evidence at the crime scene,
the officers’ subjective intentions do not matter. Carlson, 621 F.3d
at 618-19 & n.15 (7th Cir. 2010). To a reasonable person in the Kohs’
position, the officers’ refusal to allow them into their home would
have been evidence that they were not free to leave.

52a
Appendix B
11, 2010 Pretrial Hr’g Tr. 76:8-20; Exh. 5, Meents Dep.
Tr. 132:2-9; R. 283-6, Exh. 17, Hyung Seok Koh Dep. Tr.
354:4-355:8. Based on the officers’ actions at the scene—
shoving the Kohs around, standing guard over them for
an extended period of time, ordering them to sit on the
ground, screaming at them, and refusing their requests
to leave the lawn—a jury could reasonably find that the
Kohs were not free to leave when the officers stood over
them on the lawn in front of their house.
Even if the Kohs were not arrested on the lawn, a
reasonable jury could find that they were under arrest by
the time they were taken to the police station in Johnson’s
squad car. Where “the police, without probable cause ...
forcibly remove a person from his home or other place in
which he is entitled to be and transport him to the police
station ... for investigative purposes,” courts will find a
Fourth Amendment violation. Hayes v. Florida, 470 U.S.
811, 816, 105 S. Ct. 1643, 84 L. Ed. 2d 705 (1985); see also
Sornberger v. City of Knoxville, Illinois, 434 F.3d 1006,
1018 (7th Cir. 2006) (holding that a reasonable jury could
find that the plaintiff was under arrest when an officer
told her that she “needed” to accompany him to the
station, despite the lack of any overt threat of force). In
this case, the shocked and grieving Kohs—who, according
to their testimony, had already been yelled at, shoved,
and loomed over by multiple uniformed police officers—
were “escorted” to Johnson’s squad car by two officers,
who never asked whether the Kohs wanted to go to the
police station. PSOF ¶ 6; Exh. 5, July 15, 2010 Pretrial
Hr’g Tr. 41:18-42:12; Exh. 82, Mar. 22, 2010 Pretrial
Hr’g Tr. 64:8-65:14 (sealed). The Kohs testified that this

53a
Appendix B
“escort” involved yet more physical force, claiming that
the officers held their arms while bringing them to the
car and “shoved” or “pushed” them inside. NDSOF ¶ 16;
Exh. 12, Mar. 22, 2010 Pretrial Hr’g Tr. 62:1-12; Exh. 17,
Hyung Seok Koh Dep. Tr. 364:10-365:18. In the car, the
Kohs even made explicit requests not to be taken to the
police station (they asked again to go to the hospital) and
were ignored. PSOF ¶ 4; Exh. 10, Nov. 13, 2009 Pretrial
Hr’g Tr. 45:18-20, 52:11-14, 58:3-14; Exh. 11, May 11,
2010 Pretrial Hr’g Tr. 74:7-75:13; Exh 82, Mar. 22, 2010
Pretrial Hr’g Tr. 63:2-11, 73:21-24 (sealed). 23 All of these
actions—particularly given the Kohs’ apparent difficulty
understanding and speaking English—would have given
reasonable persons in the Kohs’ position good reason to
think that compliance was not optional, but required.
What’s more, a reasonable jury could find that the
Kohs continued to be under arrest throughout their
time at the police station. If anything, the Kohs’ inability
to leave was reinforced during their time in the police
station conference room. According to Mrs. Koh, the
door of the conference room where the Kohs were held
was kept closed while they were inside. Exh. 12, Mar.
22, 2010 Pretrial Hr’g Tr. 102:16-23. Johnson or other
officers watched over the Kohs the entire time. NDSOF
¶ 44; Exh. 9, Johnson Dep. Tr. 220:2-13. The officers also
denied the Kohs’ requests to make phone calls—indeed,
Deputy Chief Ross explicitly instructed Johnson not to
allow the Kohs to make calls until a police translator could
23. Johnson denies that the Kohs asked to go to the hospital,
see Exh. 9, Johnson Dep. Tr. 71:24-72:3, but at this stage, the Court
must believe the Kohs over Johnson.

54a
Appendix B
listen in. PSOF ¶ 11, Exh. 134, Transcript of NPD Audio
Recordings at 11-12; Exh. 103, Ross Dep. Tr. 82:17-84:6
(Ross ordered Johnson to wait for a translator “[s]o the
officers would be able to know what was said.”). The Kohs’
inability make calls effectively left them stranded at the
police station. The Kohs were brought to the station in
Johnson’s police vehicle; when they arrived it was around
4:00 a.m. on a cold April morning. 24 If they could not call
for a ride, the Kohs had no reasonable way to leave the
station (short of asking the officers who arrested them
for a lift). In view of these facts, a jury could easily find
that the Kohs remained under arrest from the time the
officers arrived at the house through the entirety of their
time at the police station.
All of these facts also prevent the Court from finding
that the arresting officers are entitled to qualified
immunity as a matter of law. To avoid judgment on
qualified immunity grounds, the Fourth Amendment
right that the Defendants allegedly violated must have
been “clearly established” as of the time of the alleged
arrest. Roe v. Elyea, 631 F.3d 843, 858 (7th Cir. 2011).
The “clearly established” inquiry entails examining the
24. Johnson believes he arrived at the scene around 3:45 a.m.,
and that he took the Kohs to the station around twenty minutes
later. See Exh. 9, Johnson Dep. Tr. 44:3-10, 83:8-14. It took only
three or four minutes to drive to the station, id. at 76:19-21, meaning
the Kohs must have arrived at the station around 4:00 a.m. Officer
Meents noted that the weather that day was cold, but not freezing.
Exh. 7, Meents Dep. Tr. 58:19-20. See also NDSOF ¶ 22 (“Johnson
transported the Kohs to the Northbrook Police Department ...
because it was dark outside [and] extremely cold.”)

55a
Appendix B
right “in a particularized sense, rather than at a high
level of generality.” Alicea v. Thomas, 815 F.3d 283, 291
(7th Cir. 2016). Ultimately, the question for qualified
immunity “is whether the state of the law at the time that
[the Defendants] acted gave [them] reasonable notice that
[their] actions violated the Constitution.” Roe, 631 F.3d
at 858.
A reasonable officer would have known that pushing
on the Kohs’ shoulders and directing them to sit quietly on
the ground outside of their house before taking them to a
police car and driving them to a police station constituted
an arrest under the Fourth Amendment. See Hayes, 470
U.S. at 815-16; Sornberger, 434 F.3d at 1017-18. Indeed,
the officers’ actions read like a checklist of the factors that
the courts have set out for evaluating whether a suspect
is under arrest. In United States v. Scheets, for example,
the Seventh Circuit noted that factors to be considered
in the arrest analysis include:
[W]hether the encounter occurred in a public
or private place; whether the suspect was
informed that he was not under arrest and
free to leave; whether the suspect consented
or refused to talk to the investigating officers;
whether the investigating officers removed
the suspect to another area; whether there
was physical touching, display of weapons, or
other threatening conduct; and whether the
suspect eventually departed the area without
hindrance.

56a
Appendix B
Scheets, 188 F.3d at 836-37. Running through the list,
the Northbrook officers ordered the Kohs to leave their
home; never suggested that the Kohs were free to leave;
ignored the Kohs’ requests to go to the hospital; removed
the Kohs from their home to the police station; pushed and
shoved the Kohs; yelled at Mr. Koh to “shut up”; and kept
the Kohs under police supervision at the station instead
of releasing them. On these facts, a reasonable officer
would have known that the Kohs were under arrest even
on their front lawn (by that time, the officers had verbally
and physically intimidated the Kohs, restricted their
freedom of movement using physical force, and denied
their requests to move). And a reasonable officer certainly
would have known that the Kohs were under arrest by the
time they were taken to the police station and held there.
So qualified immunity cannot shield the Defendants on
this element of the false arrest analysis.
2. Probable Cause
The Fourth Amendment inquiry does not end with the
conclusion that the Kohs were arrested. The Kohs’ false
arrest claim fails if the arresting officers had probable
cause to detain them. Police officers have probable cause to
arrest someone if “the facts and circumstances within their
knowledge and of which they had reasonably trustworthy
information were sufficient to warrant a prudent [person]
in believing that the [suspect] had committed or was
committing an offense.” Beck v. Ohio, 379 U.S. 89, 91, 85
S. Ct. 223, 13 L. Ed. 2d 142 (1964). The “totality of the
circumstances” must establish a reasonable belief that
criminal activity occurred. Gibbs v. Lomas, 755 F.3d 529,

57a
Appendix B
537 (7th Cir. 2014). Whether or not probable cause exists
then “is often a matter of degree, varying with both the
need for prompt action and the quality of information
available.” Maxwell v. City of Indianapolis, 998 F.2d 431,
434 (7th Cir. 1993). Generally, the question of probable
cause is a question for the jury. See id. (probable cause “is a
proper issue for the jury if there is room for a difference of
opinion concerning the facts or the reasonable inferences
to be drawn from them”).
Even where officers make an arrest without probable
cause, qualified immunity may kick in to defeat a falsearrest claim. The doctrine of qualified immunity will
protect the Defendants if they decided, “in an objectively
reasonable fashion,” that they had probable cause to arrest
the Kohs. Sornberger, 434 F.3d at 1014-15. As discussed
above, the ultimate question is whether the officers had
“reasonable notice,” given the state of the law at the time,
that their actions violated the Constitution. Roe, 631 F.3d
at 858.
Notably, the Defendants do not even try to argue
that they had probable cause—or even arguable probable
cause—to arrest the Kohs at their home. See Northbrook
Defs.’ Br. at 5-11. In fact, the Northbrook Defendants
explicitly concede that there was no probable cause to
arrest Mrs. Koh until, at the earliest, the end of Mr. Koh’s
second interview. Id. at 15. So, the question is when (if
ever) in the course of the ongoing investigation the officers
developed sufficient information to justify the continued
detention of Mr. and Mrs. Koh.

58a
Appendix B
a. Mr. Koh
For Mr. Koh, the NORTAF/NPD debriefing sessions
held between Mr. Koh’s two interviews mark a turning
point in the probable cause analysis. In the time between
Mr. Koh’s first and second interviews, Officers Graf and
Ustich met with NORTAF and NPD supervisors. See
PSOF ¶ 26; Exh. 36, Graf Dep. Tr. 91:15-93:5. During
these meetings, Graf and Ustich shared their impressions
of the first interview. Exh. 36, Graf Dep. Tr. 93:21-94:11;
Exh. 40, Ustich Dep. Tr. 85:15-86:15. Ustich noted that Mr.
Koh did not vehemently deny involvement in Paul’s death,
and that the manner of his denial seemed oddly casual.
Ustich also thought that Mr. Koh’s answers were evasive
or not forthcoming. Exh. 40, Ustich Dep. Tr. 85:21-86:4;
95:1-5.
The officers also discussed physical evidence from the
house, which arguably suggested that Paul’s death was a
homicide. First, Graf and Ustich learned that investigators
had found blood in Mr. and Mrs. Koh’s master bathroom.
Exh. 40, Ustich Dep. Tr. 95:13-14; Exh. 36, Graf Dep. Tr.
99:19-100:16. To Graf, this suggested that the Kohs had
cleaned up the crime scene. Exh. 36, Graf Dep. Tr. 100:1016. Second, there was a small metal cross and a broken
necklace chain covered in blood and lying on the floor.
See Exh. 40, Ustich Dep. Tr. 95:19-20; see also NDSOF
¶ 30; Exh. 28, Wasowicz Dep. Tr. 34:14-36:9; Exh. 29,
Wasowicz Aff. ¶ 14; Exh. 29A, Wasowicz Aff. Exh. A at
NB 369. 25 The broken necklace suggested that Paul had
25. The Kohs admit that Officer Wasowicz observed the metal
cross covered in blood when he investigated the Kohs’ house that

59a
Appendix B
been attacked and that a struggle had ensued. Third, Graf
and Ustich learned that the NORTAF forensic team, who
by that time had been able to inspect the house, believed
that Paul’s death was a homicide, because, in their opinion,
Paul would not have been able to inflict the injuries on
himself. 26 NB SOF Exh. 46, May 16, 2011 Pretrial Hr’g
Tr. 100:13-14, 102:1-5.
There also was some motive evidence that Graf and
Ustich learned about during the debriefing sessions.
Specifically, Paul and his father had an unusually
confrontational relationship. NDSOF ¶ 68; Exh. 46,
May 16, 2001 Pretrial Tr. 39:24-41:15; R. 339, Wasowicz
Field Notes, NB 171-747 at NB 746. This information
primarily came from Paul’s youth pastor, who had told
investigators earlier that morning about a written “Family
Agreement”27 and about a recent altercation between Paul
morning. See Pls.’ Resp. NDSOF ¶ 30. The observation does not
appear in Officer Wasowicz’s contemporaneous field notes, see R.
339, Wasowicz Field Notes, NB 171-747, but the fact is undisputed.

26. The Kohs’ experts opine that Paul’s death was, in fact,
suicide. See R. 308-16, Exh. 123, Dr. Laposata Trial Tr. 55:17-22;
PSOF Exh. 138, Moses Dep. Tr. 99:21-25. But the question for
probable cause is not whether Paul’s death was actually a suicide;
the issue is what information the officers had, and whether they
were reasonably entitled to rely on it. In this case, Graf, Ustich,
and the other investigators were entitled to rely on the opinions of
the NORTAF forensic investigators, even if those opinions turned
out to be wrong.
27. One of the “expectations” that Paul had to abide by under the
Koh Family Agreement related to Paul’s drug usage: “I understand
that there is NO tolerance in regards to smoking and drugs in the

60a
Appendix B
and his father. See NDSOF ¶ 68; Exh. 46, May 16, 2011
Pretrial Hr’g Tr. 40:23-41:15, 104:24-105:11; R. 286-1, Exh.
49, Koh Family Agreement; R. 285-6, Exh. 47, Garner
Aff.; R. 285-7, Exh. 47A, Garner Aff. Exh. A (sealed).
Graf and Ustich also learned that Paul had previously
been found wandering the neighborhood in the middle of
the night after an argument with his father. Exh. 45, May
16, 2001 Pretrial Hr’g Tr. 100-101; Exh. 36, Graf Dep. Tr.
88:6:-89:6.
Finally, Graf and Ustich learned about some apparent
inconsistencies in the Kohs’ stories. Graf found the
evidence of cleanup in the master bathroom suspicious,
because it contradicted Mrs. Koh’s version of events—
during her interview, she stated that neither she nor her
husband washed up in the bathroom after finding Paul’s
body. See Exh. 121, Eunsook Koh Interview Tr. at 12; see
also Exh. 36, Graf Dep. Tr. 99:15-101:2. The detectives also
learned that Mrs. Koh had maintained in her interview
that she had not moved Paul’s body, which was inconsistent
with Mr. Koh’s statement that they had turned the body
over. Exh. 36, Graf Dep. Tr. 41:16-42:7; Exh. 44, Hyung
Seok Koh Interview Tr. 23-24. Finally, Graf and Ustich
learned that a neighbor had heard a scream from the
Kohs’ house. Exh. 46, May 16, 2011 Pretrial Hr’g Tr. 42:1519. Mr. Koh had told Graf that he was a light sleeper, so
Graf was skeptical that Mr. Koh could have slept through
house. A random drug test will be conducted by my parents.” R.
286-1, Exh. 49, Koh Family Agreement. Investigators learned from
Paul’s friend Neil Schnitzler the morning after Paul died that Paul
had smoked marijuana the night before. NDSOF ¶ 71; R. 286-4, Exh.
51, Mazurkiewicz Aff.; R. 286-5, Exh. 51A, Mazurkiewicz Aff. Exh. A.

61a
Appendix B
Paul’s death. See id; see also Exh. 44, Hyung Seok Koh
Interview Tr. 87.
Taking all of this evidence into account, a jury must
conclude that there was probable cause to arrest Mr. Koh
after the debriefing sessions. To be sure, this is a very
close call, particularly when viewed through the lens of
summary judgment. But probable cause is too low a bar
for Mr. Koh to overcome after the debriefing session. See
Kaley v. United States, 571 U.S. 320, 134 S. Ct. 1090,
1103, 188 L. Ed. 2d 46 (2014) (“Probable cause ... is not a
high bar.”). Probable cause requires nothing more than
a “fair probability” on which “reasonable and prudent”
people could act. Kaley, 134 S. Ct. at 1103. Although the
Kohs point out that the officers also had evidence that
pointed towards Mr. Koh’s innocence—that is, evidence
suggesting that Paul might have committed suicide—the
existence of some contrary evidence does not defeat
probable cause. See District of Columbia v. Wesby, 138
S. Ct. 577, 588, 199 L. Ed. 2d 453 (2018) (“probable cause
does not require officers to rule out a suspect’s innocent
explanation for suspicious facts”). The inference of the
suspect’s guilt need not be the most likely scenario, or even
more likely true than not, for a reasonable officer to have
probable cause to arrest. See Gerstein v. Pugh, 420 U.S.
103, 121, 95 S. Ct. 854, 43 L. Ed. 2d 54 (1975) (contrasting
probable cause with the preponderance of evidence and
reasonable doubt standards). Nor does it matter that none
of the facts Graf and Ustich learned, viewed in isolation,
would be enough for probable cause. See Wesby, 138 S. Ct.
at 588. Probable cause is a holistic, commonsense inquiry,
and officers are allowed to draw reasonable inferences

62a
Appendix B
based on their experience and judgment. United States v.
Williams, 627 F.3d 247, 251 (7th Cir. 2010); United States
v. Bullock, 632 F.3d 1004, 1022 (7th Cir. 2011). In this case,
the officers were entitled to rely on Graf and Ustich’s
evidence-based suspicions about Mr. Koh’s manner and
the inconsistencies in the Kohs’ stories. Considering these
suspicions in combination with substantial physical and
motive evidence, the Northbrook officers indisputably
had enough information at that point to justify Mr. Koh’s
detention.
At the very least, qualified immunity would protect the
individual defendants against the false arrest claim after
the debriefing sessions. Graf and Ustich had “arguable
probable cause” for purposes of applying the qualified
immunity doctrine. Abbott v. Sangamon Cty., Ill., 705
F.3d 706, 714-15 (7th Cir 2013). In other words, it would
have been reasonable—even if mistaken—for an officer
to believe that there was probable cause to arrest Mr.
Koh based on the information divulged at the debriefing
sessions. See Abbott, 705 F.3d at 714-15 (“[Q]ualified
immunity in [the probable cause] context protects officers
who reasonably but mistakenly believe that probable cause
exists[.]” (citation omitted)); see also Fox, 600 F.3d at 834
(rejecting qualified immunity argument where the officers’
theory of the case was “absolutely unreasonable”). As
the Supreme Court emphasized in District of Columbia
v. Wesby, existing precedent must place the lawfulness of
the particular arrest “beyond debate” in order to defeat
qualified immunity. Wesby, 138 S. Ct. at 590. In this case,
the officers’ decision to hold Mr. Koh after their debriefing
sessions was at least arguably supported by probable

63a
Appendix B
cause. Qualified immunity therefore mandates dismissal
of Mr. Koh’s false arrest claim from after the debriefings
and onward.
b. Mrs. Koh
The probable cause inquiry is different for Mrs. Koh,
mostly because the Northbrook Defendants unambiguously
concede that there was no probable cause to hold her until
at least the time of Mr. Koh’s inculpatory statements at
the end of his second interview. Northbrook Defs.’ Mot.
Summ. J. at 15 (“[I]t was not until Mr. Koh abandoned
the Kohs’ initial story, and then appeared to admit that
he killed Paul, that probable cause was present.”). But, as
will be explained below, a reasonable jury could find that
Mr. Koh’s confession was coerced, and, more importantly,
coerced in a way that made the reliability of his statements
questionable. See Hurt v. Wise, 880 F.3d 831, 841 (7th Cir.
2018) (noting the importance of coercion to the question
of a confession’s reliability). A reasonable jury could find
that Mr. Koh’s confession was too unreliable to play a role
in the probable cause analysis for Mrs. Koh. So in light of
the Defendants’ concession, Mrs. Koh’s false arrest claim
survives from the time of her initial detention until her
release from the police station the next day. To be sure, the
Defendants might be able to prove at trial that probable
cause existed to detain Mrs. Koh at some earlier point in
time. But as things stand, the Northbrook Defendants’
motion for summary judgment is denied as to Mrs. Koh’s
false arrest claim.

64a
Appendix B
c. Officer Kim
Although the Kohs’ false arrest claims survive against
the Northbrook Defendants, any false arrest claim against
Officer Kim must fail. Kim was not on the scene when the
Kohs were arrested, and there no evidence that he knew
or should have known that they had been arrested without
probable cause. Without that knowledge, Kim could not
have conspired to further the false arrest. See Scherer v.
Balkema, 840 F.2d 437, 442 (7th Cir. 1988) (noting that,
for a § 1983 conspiracy claim, a plaintiff must establish
“an express or implied agreement among defendants to
deprive plaintiff of his or her constitutional rights”). Nor
can Kim be liable for failure to intervene if he did not
know that a false arrest had occurred. See Gill v. City
of Milwaukee, 850 F.3d 335, 342 (7th Cir. 2017) (“[T]he
detectives would not have known a constitutional violation
was committed, and therefore, cannot be liable for failure
to intervene.”). The Wheeling Defendants’ motion for
summary judgement is granted on the false arrest claim. 28

28. A s discussed in Part III.A above, the Northbrook
Defendants have not made clear which of them should be off the hook
for which conspiracy and failure to intervene claims, so summary
judgment is not granted to any of them on this claim. The Court
does have significant questions about whether any of the Defendants
except Meents, Johnson, Eisen, and possibly Celia could be liable for
the initial false arrest, and about when the responsibility of those
initial arresting officers must cut off. There are also individual
defendants who do not seem to have been involved in the false arrest
and detention in any way. But again, Northbrook has not made these
arguments.

65a
Appendix B
C. Involuntary Confession
Next, the Defendants move for summary judgment
on Mr. Koh’s coerced confession claim. Mr. Koh advances
two versions of the coerced confession claim, one based
on the Fifth Amendment right to be free of compelled
self-incrimination, the other a substantive due process
claim based on “conscience-shocking” police conduct. The
substantive due process claim is readily rejected. As the
Seventh Circuit recently noted, the bar for “conscienceshocking” conduct is extraordinarily high. Hurt v. Wise,
880 F.3d 831, 844 (7th Cir. 2018). What’s more, “[w]hen
there is an alleged violation of a specific constitutional
provision, that provision should guide the court’s analysis.”
Id. (citing City of Sacramento v. Lewis, 523 U.S. 833,
842, 118 S. Ct. 1708, 140 L. Ed. 2d 1043 (1998)). In this
case the specific alleged constitutional violation—the
Fifth Amendment claim—precludes reliance on the more
general substantive due process claim.
Moving on, the use of a coerced confession in a
criminal proceeding violates the Fifth Amendment’s
guarantee against compelled self-incrimination. Miller
v. Fenton, 474 U.S. 104, 109-10, 106 S. Ct. 445, 88 L.
Ed. 2d 405 (1985); Sornberger, 434 F.3d at 1023-1027. A
confession does not run afoul of the Fifth Amendment if,
based on the totality of the circumstances, the confession
was “free and voluntary,” and “not [ ] extracted by any
sort of threat or violence or obtained by any direct or
implied promises however slight nor by the exertion of
any improper influence.” Howell v. United States, 442
F.2d 265, 272 (7th Cir. 1971) (citing Malloy v. Hogan, 378

66a
Appendix B
U.S. 1, 7, 84 S. Ct. 1489, 12 L. Ed. 2d 653 (1964)); see also
Arizona v. Fulminante, 499 U.S. 279, 285-86, 111 S. Ct.
1246, 113 L. Ed. 2d 302 (1991). This standard requires the
Court to determine, after examining the totality of the
circumstances, whether “[the suspect’s] will was overborne
in such a way as to render his confession the product of
coercion.” Fulminante, 499 U.S. at 288; see also Hicks v.
Hepp, 871 F.3d 513, 527 (7th Cir. 2017) (citing Schneckloth
v. Bustamonte, 412 U.S. 218, 227, 93 S. Ct. 2041, 36 L. Ed.
2d 854 (1973)). The issue of coercion is determined from
the perspective of a reasonable person in the position of
the suspect. Hicks, 871 F.3d at 527. The characteristics of
the suspect, the conditions of the interrogation, and the
conduct of the interrogator are all part of the totality of the
circumstances inquiry. United States v. Brooks, 125 F.3d
484, 492 (7th Cir. 1997). Relevant considerations include
the suspect’s age, intelligence and mental state; the length
of the detention; the nature of the interrogations; whether
the suspect received Miranda warnings; whether physical
coercion occurred; and the deprivation of food or sleep. Id.
The voluntariness of a confession must be analyzed based
on the totality of the circumstances. Hicks, 871 F.3d at 527.
With those standards in mind, the Court turns to the
circumstances surrounding Mr. Koh’s confession. Officers
Graf and Ustich interviewed Mr. Koh for a combined
total of about 2 1/2 hours the morning after Paul died.
See NDSOF ¶¶ 52, 78; Exh. 42, Video of Hyung Seok Koh
Interview 1; Exh. 55, Video of Hyung Seok Koh Interview
2; Exh. 57, Video of Hyung Seok Koh Interview 3. Mr. Koh
had not taken his medications for blood pressure, diabetes,
and hyperammonemia since the day before (despite having

67a
Appendix B
asked Detective Graf for them), see PSOF ¶ 20; Pls.’ Resp.
WDSOF ¶ 32; Exh. 85, Mar. 16, 2010 Pretrial Hr’g Tr.
14:3-15:12; but see WDSOF ¶ 32; Exh. 39, Kim Dep. Tr.
131:4-22, nor had he recently eaten 29 or slept, PSOF ¶ 29;
Exh. 17, Hyung Seok Koh Dep. Tr. 354:22-355:8. By the
start of the second interview, Mr. Koh had been held at
the police station for almost eight hours, unable to call
anyone and isolated from anyone other than his wife (who
was also under arrest) and the police. PSOF ¶¶ 7, 10-12,
24; Northbrook Defs.’ Resp. PSOF ¶ 11; NDSOF ¶ 37; Exh.
79, Nov. 13, 2009 Pretrial Hr’g Tr. 59:3-9 (sealed); Exh. 82,
Mar. 22, 2010 Pretrial Hr’g Tr. 17:20-18:8 (sealed); Exh.
48, Hwang Dep. Tr. 102:17-103:7 (sealed). Throughout the
interviews, Mr. Koh displayed signs of mental and physical
exhaustion: he sat hunched over in his chair, occasionally
hitting himself on the head and chest. 30 Exh. 55, Video of
Hyung Seok Koh Interview 2 44:03, 55:20-1:09:53; Exh. 57,
Video of Hyung Seok Koh Interview 3 00:03:15-00:03:20,
00:10:50-00:10:52, 00:12:18-00:12:20; see also PSOF ¶ 32.
Mr. Koh also had difficulty understanding Detective
Graf ’s questions. Many of Mr. Koh’s answers were
altogether nonsensical, showing (or so a reasonable jury
could find) that he did not understand what was going on.
For example, Mr. Koh responded to Graf’s question about
29. It is undisputed, however, that before Mr. Koh’s second
interview, Detective Graf offered him food, coffee, and water.
NDSOF ¶ 80; R. 285-3, Exh. 44, Hyung Seok Koh Interview Tr. 58.
30. Mr. Koh’s attorney also observed that upon entering the
interview room, he found Mr. Koh disoriented, disheveled, and tired.
PSOF ¶ 43; R. 308-41, Exh. 148, Shim Dep. Tr. 69:4-16.

68a
Appendix B
what kind of person Paul was by narrating what happened
yesterday morning. Exh. 44, Hyung Seok Koh Interview
Tr. 3-4. At another point in the interview, Koh answered
a question about whether he saw a weapon by telling Graf
about the tools he kept for his vending machine business.
Id. at 36. During one tense moment, Graf asked Mr. Koh
“Would God want Paul to [ ] have his father sitting here
and telling us a story that’s not true?”—a question that
should obviously have been answered “no”—but Mr. Koh
said “yeah.” Id. at 123. As the interview went on, Mr.
Koh largely defaulted to giving one word or unintelligible
answers, or responding that he did not know or could not
remember, see, e.g., Id. at 108, 110-114, 116-119, 124, 126135, 138-143. 31 The language barrier was obvious. 32 Graf
exacerbated the problem by abruptly switching back and
forth between topics, which further confused Mr. Koh.
See, e.g., id. at 5-6, 68-70, 132-135, 135-137. Officer Kim,
for his part, provided little translation assistance to Mr.
Koh throughout the entirety of the interviews. Officer
Kim’s lack of assistance even prompted Mr. Koh to plead
with Detective Graf, “I need this interpreter over here.”
Id. at 103.
31. For example: “Q. Tell us what happened. / A. I can’t I can’t
remember that one.” “Q. Did he come after you? Did he have a knife,
did he have a knife, did he have a knife and come after you? / A. No.”
“Q. Hyungseok, who had the knife? / A. I don’t know.” Exh. 44, Koh
Interview Tr. at 132-33.
32. Nevertheless, Detective Graf accused Mr. Koh of lying about
his inability to understand questions posed to him throughout the
interview. See R. 285-3, Exh. 44, Hyung Seok Koh Interview Tr. 106,
117-18, 132; see also PSOF ¶ 36; Northbrook Defs.’ Resp. PSOF ¶ 36.

69a
Appendix B
What’s more, the Kohs assert that what language
assistance Officer Kim did provide made the circumstances
even more coercive. For example, when translating the
Miranda warnings into Korean, “Officer Kim did not
advise Mr. Koh that his statements may be used against
him, or that Mr. Koh had a right to an attorney if he
could not afford one.” PSOF ¶¶ 103-104; see also Pls.’
Resp. WDSOF ¶ 36. And in fact, the Kohs argue, Officer
Kim actually “advised Mr. Koh that he did not need a
lawyer.” 33 PSOF ¶ 105 (emphasis added). Likewise, Kim
mistranslated a Korean idiom—“gachi jookja”—that Mr.
Koh used when talking about his relationship with Paul.
PSOF ¶¶ 115-118. Though Kim provided Graf a literal
translation of the phrase—literally, “let’s die together”—
Kim did not explain that the phrase was in fact an idiom,
not to be taken literally (like the English phrase “you’re
killing me”). Id. ¶¶ 117-118. See also Exh. 44, Hyung Seok
Koh Interview Tr. at 62-63; R. 276-3, Exh. 106, Yoon
Dep. Tr. 48:6-49:12, 54:12-57:8. Towards the end of the
interview, Officer Kim even joined in the interrogation
by asking his own questions in English. Exh. 57, Video of
Hyung Seok Koh Interview 3 00:18:28-00:19:27.

33. The Wheeling Defendants assert that “there is no Section
1983 cause of action available to Mr. Koh for any actual failure to
inform Mr. Koh of his Miranda rights.” R. 330, Wheeling Defs.’ Reply
Br. at 4. But Mr. Koh is not asserting that Officer Kim violated his
constitutional rights on the basis that Officer Kim failed to properly
translate the Miranda warnings. Rather, he is asserting that Officer
Kim’s mistranslation of Miranda is a relevant consideration in
determining whether his confession was voluntary, which it is. See
Brooks, 125 F.3d at 492.

70a
Appendix B
Finally, there were instances where Officer Kim
would translate (or mistranslate) some, but not all, of Mr.
Koh’s statements, or interject in Korean with questions
of his own. See, e.g., Exh. 42, Video of Hyung Seok Koh
Interview 1 00:00:21-00:02:24; Exh. 57, Video of Hyung
Seok Koh Interview 3 00:10:21-00:10:25, 00:12:24-00:12:36,
00:18:28-00:18:40. For example, during a key exchange,
Graf tried to get Mr. Koh to admit that he had stabbed
Paul in self-defense. At the same time, Kim started asking
Mr. Koh questions in Korean, partially but not exactly
translating Graf’s words. See R. 308-73, Exh. 180, Yoon
Report at 5; Exh. 57, Video of Hyung Seok Koh Interview
3 00:12:00-000:12:42. At the crucial moment, Graf and
Kim asked overlapping questions: Graf asked in English
whether Mr. Koh was angry, and before Mr. Koh could
answer, Kim asked in Korean whether Mr. Koh acted in
self-defense. Exh. 180, Yoon Report at 5. Mr. Koh said “I
think so,” leading Kim proclaim that “He said it was in
defense”—even though Kim had not actually translated
Graf’s question about whether Mr. Koh was angry, so it
was not clear which question Mr. Koh was answering. See
Id. at 5; Exh. 44, Hyung Seok Koh Interview Tr. 136; Exh.
180, Yoon Report at 5; see also PSOF ¶ 119.
In addition to considering Mr. Koh’s characteristics
and the conditions of the interrogation, the interrogators’
conduct is also relevant to the voluntariness inquiry. As
soon as the second interview began, Graf continually
accused Mr. Koh of lying and directed Mr. Koh to be
“totally honest” in order “to get closure for [Paul].” See
NDSOF ¶ 81; Pls.’ Resp. NDSOF ¶ 81; Exh. 44, Hyung
Seok Koh Interview Tr. 59-60; id. 97, 101 (Detective Graf

71a
Appendix B
accusing Mr. Koh of lying because “there [was] a lot of
stuff ... not adding up. ... There had to be, there had to be
a struggle, okay”). Graf also introduced new storylines
in the second interview, which he pressured Mr. Koh to
adopt. See, e.g., Exh. 44, Hyung Seok Koh Interview Tr.
97, 101-107 (pressing Mr. Koh to admit that he was angry
Paul had gone out with his friends the night before and
stayed up waiting for Paul to come home); id. 108 (Graf
stating that he knew Mr. Koh had called Paul the night
before and stayed up waiting for Paul to come home); id.
135 (Graf presents Mr. Koh with the story line that he
had killed his son in self-defense). Graf implied that all
of the evidence—both physical evidence and Mrs. Koh’s
statements during her interview—implicated Mr. Koh
as Paul’s killer, see Exh. 44, Hyung Seok Koh Interview
Tr. 120 (“Listen to me, we know what happened. ... We
know, okay. And we want you to tell us what happened.
We need it with your words. ... Okay, cause we know and ...
other people have told us what happened. We’ve talked to
your wife, we know what happened, okay.”); id. 125 (“You
know what happened last night, okay. And we, we know
what happened last night, Hyungseok, we know. We’re
... gathering all the evidence at the station, okay.”); id.
127 (“And only you can do that because everybody else is
telling us stuff right now so let’s get to it.”); id. (“We know
more than you think we know okay.”).
It is important too that Detective Graf used coercive
mental and physical tactics throughout the interviews. He
raised his voice, yelled at Mr. Koh, approached Mr. Koh,
and occasionally touched Mr. Koh on his arms and legs.
PSOF ¶ 33; Northbrook Defs.’ Resp. PSOF ¶ 33; NDSOF

72a
Appendix B
¶¶ 85, 92; Pls.’ Resp. NDSOF ¶ 92; Exh. 44, Hyung Seok
Koh Interview Tr. 103; Exh. 55, Video of Hyung Seok Koh
Interview 2 00:55:20-01:09:53. (It is also worth noting that
Officer Kim’s gun was visible throughout the entirety Mr.
Koh’s interviews. NDSOF ¶ 97; WDSOF ¶ 9.) Detective
Graf implicitly threatened that the interview would not
end until Mr. Koh confessed, telling him that they could
be there “for days and days and days” in order to get
“the whole truth.” Exh. 44, Hyung Seok Koh Interview
Tr. 117; see also PSOF ¶ 37; Northbrook Defs.’ Resp.
PSOF ¶ 37. When Mr. Koh resisted the officer’s version
of events, Detective Graf would say things like, “And
you’re not telling the truth. You’re not telling me the
truth. God wants this to be right for Paul. And Paul wants
you to do this.” Exh. 44, Hyung Seok Koh Interview Tr.
123; id. 126-127; see also PSOF ¶ 34; Northbrook Defs.’
Resp. PSOF ¶ 34. Graf absolutely refused to accept any
of Mr. Koh’s denials, asking questions over and over until
Mr. Koh finally agreed to Graf’s story. See, e.g., Exh. 44,
Hyung Seok Koh Interview Tr. 34-35, 39-40, 102-103,
109-118, 124 (“Q: Tell us the truth. Tell us the truth. / A:
My memory is -- / Q: No, your memory is good ... You just
don’t ... you don’t want to--”), 127-128 (“Q: But did you get
in the car and drive to go look for him? ... / A. I don’t know.
/ Q: Hyungseok, you’re, you’re telling stories now. You’re
not telling me the truth. / A: No, I, I-- ... / Q: No, you’re
not. You would know if you went to the car and looked
for him.”), 132-145 (“A: Maybe. / Q: Not maybe. What
happened?”). Detective Graf also ramped up the coercive
tactics as soon as he learned that Mr. Koh’s attorney was
at the police station. 34 PSOF ¶¶ 42-43; Exh. 44, Hyung
34. It is true that “the law permits the police to pressure and
cajole, conceal material facts, and actively mislead—all up to limits

73a
Appendix B
Seok Koh Interview Tr. 144 (“Hyung Seok, come on. Right
now, let’s be done, hurry up, fast!”).
Based on all of this evidence, a reasonable jury could
infer that Mr. Koh’s “will was overborne so as to render his
confession the product of coercion.” Fulminante, 499 U.S.
at 288. The combined effect of Mr. Koh’s vulnerabilities,
the language barrier, the coercive atmosphere in the
interrogation room, Detective Graf’s interrogation tactics,
and Officer Kim’s deficient performance as translator
is enough for a jury to find that Mr. Koh’s confession
was involuntary. Indeed, courts have recognized that
circumstances like those under which Mr. Koh confessed
may render a confession involuntary. See Haynes v.
Washington, 373 U.S. 503, 504, 514-15, 83 S. Ct. 1336,
10 L. Ed. 2d 513 (1963) (confession involuntary where
the suspect was not given Miranda warnings, was held
incommunicado for 16 hours, and was told he could
not call his wife until he signed a confession); Carrion
v. Butler, 835 F.3d 764, 776 (7th Cir. 2016) (observing
that “evidence that Detective Delgadillo, in acting as
translator, manipulated or mistranslated the prosecutor’s
questions or Mr. Carrion’s answers is relevant to the
extent that it demonstrates coercive conduct”); Aleman
v. Vill. of Hanover Park, 662 F.3d 897, 906 (7th Cir. 2011)
(reversing dismissal of involuntary confession claim where
the defendant “forced on [the suspect] a premise that
... .” United States v. Rutledge, 900 F.2d 1127, 1131 (7th Cir. 1990).
But here, Detective Graf’s tactics—which included badgering Mr.
Koh, pressuring him to confess, lying to him, and manipulating him—
exceeded those limits, especially given all the other circumstances
surrounding the confession, as discussed above.

74a
Appendix B
led inexorably to the conclusion that he must have been
responsible for Joshua’s death; the lie if believed foreclosed
any other conclusion”); Andersen v. Thieret, 903 F.2d
526, 530 (7th Cir. 1990) (reasoning that “[f]ood, sleep, and
water deprivation and a mentally coercive interrogation
would also have caused the state courts to conclude that
[a] confession was involuntary” (citations omitted)); United
States v. Short, 790 F.2d 464, 469 (6th Cir. 1986) (finding
that “[t]here is a serious question whether Short’s second
confession was knowing and intelligent”: “Short’s English
was broken and her understanding of English deficient. ...
[S]he was separated from her children and subjected to
an interrogation in English, even though one of the agents
spoke some German”); United States v. Preston, 751 F.3d
1008, 1027-28 (9th Cir. 2014) (repetitive questioning, threats
to continue interrogation indefinitely, pressure to adopt
certain responses, use of two incriminating alternative
questions, and false promises to an intellectually disabled
suspect rendered a confession involuntary); cf. Nazarova
v. I.N.S., 171 F.3d 478, 484 (7th Cir. 1999) (“A non-Englishspeaking alien has a due process right to an interpreter at
her deportation hearing because, absent an interpreter, a
non-English speaker’s ability to participate in the hearing
and her due process right to a meaningful opportunity
to be heard are essentially meaningless.”). 35 Viewing
35. See also, e.g., Grayson v. City of Aurora, 157 F. Supp. 3d
725, 741-42 (N.D. Ill. 2016) (denying summary judgment on plaintiff’s
involuntary confession claim where plaintiff was “‘starving,’” “kept
from sleeping,” did not “understand statements the same way an
average person would,” and had “a mental breakdown at one point”;
the interrogation room was “hot and uncomfortable”; and the officers
“lied to [the plaintiff] about evidence implicating him, manipulated

75a
Appendix B
all of the evidence and all reasonable inferences in the
Kohs’ favor, there is a genuine issue of material fact as
to whether the circumstances surrounding Mr. Koh’s
interviews, including the interrogation tactics employed
by the Defendants, led to an involuntary confession. 36
These circumstances also make clear that the
interrogators are not entitled to qualified immunity. A
reasonable officer would have known that verbally and
physically intimidating a suspect, as well as manipulating
him, lying to him, and coaching him on the details of
the confession, all while knowing he was not fluent in
him ... and fed him details of the crime”); Hill v. City of Chi., 2009
U.S. Dist. LEXIS 5951, 2009 WL 174994, at *8 (N.D. Ill. Jan. 26,
2009) (concluding that “coercing a confession by abusive language
and physical contact, along with coaching the suspect as to the
details of the confession, clearly violates the suspect’s constitutional
right against self-incrimination”); Campos v. Stone, 201 F. Supp.
3d 1083, 1089-90 (N.D. Cal. 2016) (finding a confession involuntary
where “confusion reigned” during the interview due to overlapping
questioning in two languages and incomplete translations; and where
officers continually interrupted and rejected the suspect’s denials
and falsely insisted that irrefutable evidence established his guilt).

36. There is also enough evidence for a jury to find against both
Kim and Ustich on Mr. Koh’s conspiracy claim, as well as sufficient
evidence for a jury to find that Kim and Ustich failed to intervene
while Detective Graf coerced Mr. Koh into confessing. (Given that
Detective Graf was the lead interrogator, a failure to intervene claim
against him does not make sense.) So even if Kim and Ustich are not
directly liable for participating in Mr. Koh’s interrogation—though
each did ask Mr. Koh their own questions, see Exh. 42, Video of
Hyung Seok Koh Interview 1 00:44:50-00:55:01; Exh. 57, Video of
Hyung Seok Koh Interview 3 at 00:18:28-00:19:27—they are liable
for either conspiracy or failure to intervene.

76a
Appendix B
English and was operating without food, medications, or
sleep, violates the Fifth Amendment. And a reasonable
officer assigned to interpret for that suspect would have
recognized that manipulating his deficient understanding
of English, mistranslating the Miranda warnings, and
altogether refusing to provide translation assistance,
likewise violates the Constitution.
The Seventh Circuit’s recent opinion in Hurt v.
Wise is helpful here. In Hurt, the Seventh Circuit held
that interrogating officers were not entitled to qualified
immunity when they extracted a confession using tactics
strikingly similar to Graf’s. Hurt, 880 F.3d at 848. Like
Graf, the interrogators in Hurt threatened to extend the
plaintiffs’ interrogations until they gave the “right” answer
(where “right” meant “inculpatory”). 880 F.3d at 847-48.
Also like Graf, the officers in Hurt “basically drafted the
entire confession” by feeding the plaintiffs “every critical
fact” and refusing to accept their denials until they finally
agreed to the version proposed by the interrogators. Id.
And, like Graf, the officers applied interrogation tactics
designed to increase psychological pressure to confess,
such as minimizing moral guilt to prime the plaintiffs for
a confession, and telling one plaintiff that her co-defendant
had already implicated her. Id. at 848.
The defendants attempt to distinguish Hurt on the
grounds that the interrogators in Hurt “made obviously
prohibited threats of lengthy prison sentences and
untimely death, and that a suspect’s entire family would
be imprisoned if she did not confess.” R. 380, Defs.’ Resp.
to Pl.’s Supp. Authority at 3, discussing Hurt, 880 F.3d at

77a
Appendix B
848. But the cases are not so different, because threats
were also made to Mr. Koh. Hurt noted the interrogator’s
threat that the pain of the coercive interrogation would
continue until the suspect confessed. Hurt, 880 F.3d at
848 (quoting the investigator as saying that “none of the
pain was ‘going to go away until you tell me the truth.’”).
Similarly, Graf told Koh (who by that point was visibly
distressed and confused) that if he did not tell “the truth,”
his interrogation could continue for “days and days and
days.” Exh. 44, Hyung Seok Koh Interview Tr. at 117.
Given Graf’s refusal to take “I don’t know” for an answer
up to that point, Mr. Koh would have understood “the
truth” to mean “what Graf wanted to hear.” Cf. Hurt, 880
F.3d 831 (“[The interrogator] made it clear to [the suspect]
that he and [his partner] were the ones who would decide
if [the suspect] told the ‘right’ story.”). Graf also made a
comment about Mr. Koh’s race, asking “Are you Korean
or Filipino or Chinese” in a way that Mr. Koh found
inappropriate and threatening. Exh. 17, Hyung Seok Koh
Dep. Tr. 425:10-12. Finally, a jury might even find Graf’s
repeated physical touches and his close proximity to Mr.
Koh to be an implied threat of physical violence. See, e.g.,
Exh. 44, Hyung Seok Koh Interview Tr. 103; Exh. 55,
Video of Hyung Seok Koh Interview 2 00:55:20-01:09:53.
But even assuming that Mr. Koh was not threatened
with physical violence, the facts of this case are arguably
worse than the facts of Hurt. Unlike the plaintiffs in
Hurt, Mr. Koh had obvious difficulties understanding
English—a vulnerability that, taking the facts in the light
most favorable to the Kohs, Graf and Kim exploited. A
reasonable jury could conclude that Graf knew that he was
pressuring Mr. Koh to agree with statements that he did

78a
Appendix B
not fully understand. 37 A reasonable jury could likewise
conclude that Graf knowingly exploited Mr. Koh’s mental
and physical vulnerabilities. Mr. Koh had not taken his
daily medications, and the Kohs’ expert testified that the
absence of these medications could cause confusion. See
R. 290-2, Exh. 94, Galatzer-Levy July 27, 2011 Pretrial
Testimony at 36:22-38:6; see also Exh. 17, Hyung Seok
Koh Dep. Tr. 359:3-9 (Mr. Koh’s testimony that without
his medications, he experiences fatigue, shakiness, and
confusion). According to Mr. Koh, as Graf was escorting
Mr. Koh to a court hearing, Graf again threatened to
extend the coercive interrogation if Mr. Koh did not play
along: “If you say in the presence of the judge that you
are either sick or dizzy, then we will take a week or even
two to [ ] investigate you, so don’t do that.” Exh. 17, Hyung
Seok Koh Dep. Tr. 425:13-17. It would be reasonable to
infer from this comment that Graf knew that Mr. Koh
was mentally and physically vulnerable at the time of the
interrogation and that he exploited those vulnerabilities
with aggressive tactics. In sum, there is evidence that Mr.
Koh was even more vulnerable to coercion than even the
young plaintiffs in Hurt, and that Graf’s coercive tactics
37. Mr. Koh’s confusion was obvious at crucial points in the
interview. For example, when Graf had ostensibly gotten Mr. Koh to
admit that he killed Paul in self-defense, follow-up questions made
it clear that Mr. Koh might have been talking about a completely
different incident. Apparently, a few weeks before Paul’s death, Paul
had swung a golf club at Mr. Koh, and this might have been what
Mr. Koh was talking about during the selfdefense back-and-forth.
Exh. 44, Hyung Seok Koh Interview Tr. 136-37 (“Q: Tell me why you
did it, Hyungseok. / A: Weeks, weeks ago. / Q: Weeks ago? / A: He
golf-- / Q: He took a golf club? / A: (inaudible) / Q: He hit you with a
golf club? / A: Yeah.”).

79a
Appendix B
were correspondingly less reasonable. See United States
v. Sablotny, 21 F.3d 747, 752 (7th Cir. 1994) (“If mental
impairment of whatever kind should have reasonably been
apparent to the interrogators, special care should have
been exercised, and a lesser quantum of coercion would
render the confession involuntary.”); Dassey v. Dittmann,
877 F.3d 297, 304 (7th Cir. 2017) (“The interaction between
the suspect’s vulnerabilities and the police tactics may
signal coercion even in the absence of physical coercion
or threats.”). These facts and circumstances show that
Detective Graf was intent on coercing a confession out
of Mr. Koh. Officer Kim is on the hook too: his shared
knowledge of those facts and circumstances undermines
his qualified immunity defense as well. Neither Detective
Graf nor Officer Kim is entitled to qualified immunity, so
Mr. Koh’s involuntary confession claim must go to trial. 38
3 8. The Nor thbrook Defendants make t wo additional
arguments that they assert warrant applying qualified immunity.
First, they point to the fact that the state court judge in Mr. Koh’s
criminal case already determined that Mr. Koh’s statements were
voluntary. See Northbrook Defs.’ Br. at 22-24. Second, they argue
that the state court judge’s decision to admit the confession is an
“independent, superseding cause of any alleged violation of Mr. Koh’s
[constitutional] rights ... .” Id. at 24-25. The first argument fails. It is
unclear whether the state court judge considered the same evidence
at the suppression hearing that is currently before this Court on the
Kohs’ involuntary confession claim. And even if the state court judge
had considered the same evidence, the evidentiary picture would
have been different due to the procedural posture of this case. On a
motion for summary judgment, the Court is required to credit the
non-moving party’s evidence and make all reasonable inferences in
their favor. The state court judge, on the other hand, was free to
make credibility judgments, weigh the evidence, and find facts, and
did so. See, e.g., R. 291-2, Exh. 97, J. Howard Oral Ruling on Mot.

80a
Appendix B
D. Evidence Fabrication
Next up is another due process claim, this time based
on the Northbrook Defendants’ alleged fabrication of
evidence. 39 The Due Process Clause of the Fourteenth
Amendment forbids the state from depriving a person
of her liberty on the basis of manufactured evidence.
Whitlock v. Brueggemann, 682 F.3d 567, 580 (7th Cir.
2012); Hurt, 880 F.3d at 843 (citing Avery v. City of
Milwaukee, 847 F.3d 433, 439 (7th Cir. 2017); Alexander v.
McKinney, 692 F.3d 553, 557 (7th Cir. 2012)). False police
reports can give rise to an evidence fabrication claim, as
can procurement of false or fabricated witness testimony.
See Hurt, 880 F.3d at 843-44; Petty v. City of Chi., 754
Suppress at 3:12-13 (describing the tenor of Mr. Koh’s interview
as “low-key and very cordial”), 3:19-24 (finding that Mr. Koh had
“a very good command of the English language”), 4:21-24 (finding
the Kohs’ expert witness unpersuasive). The second argument fails
too—“qualified immunity is a doctrine designed to respond to legal
uncertainty, but causation (a factual matter) has nothing to do with
legal uncertainty.” Dominguez v. Hendley, 545 F.3d 585, 589 (7th
Cir. 2008) (emphasis in original).

39. In the Second Amended Complaint, the Kohs alleged that
“[a]t the conclusion of the interrogation, the Defendant Officers
fabricated a statement and falsely attributed it to Plaintiff, and then
communicated the same to members of the Cook County State’s
Attorney’s Office orally and in writing. Defendant Graf also testified
falsely on this subject before the Grand Jury.” Second Am. Compl.
¶ 40. The Northbrook Defendants did not specifically move for
summary judgment on the Kohs’ fabrication of evidence claim, and
indeed maintain that those allegations are insufficient to advance
such a claim. See Northbrook Defs.’ Mot. Summ. J.; Northbrook
Defs.’ Br.; Northbrook Defs.’ Reply Br. at 4-5.

81a
Appendix B
F.3d 416, 422 (7th Cir. 2014). Mr. Koh has three different
evidence fabrication theories. First, he argues that Graf
and Kim prepared false police reports, which were then
used as a basis for charging and detaining Mr. Koh. Pls.’
Resp. Br. at 51-52. Second, he asserts that Graf invented
incriminating statements and falsely attributed them to
Paul Koh’s youth pastor, Joon Hwang. Id. at 52. Third, he
alleges that Graf induced Paul’s friend Neil Schnitzler to
give false testimony. Id. at 52-53.
Mr. Koh’s first theory falls short. The Seventh Circuit
has drawn a distinction between coerced testimony (which
might be true, even if coerced) and false or fabricated
testimony, “which is known to be untrue by the witness
and whoever cajoled or coerced the witness to give it.”
Fields v. Wharrie, 740 F.3d 1107, 1110 (7th Cir. 2014).
In this case, there is ample evidence that Graf and Kim
coerced Mr. Koh’s confession, but there is not enough
evidence for a reasonable jury But those allegations are
enough to plausibly allege a fabrication-of-evidence claim
and to place the Defendants on notice that the Kohs were
making that claim. What’s more, discovery in this case
would have been no different with or without these specific
fabrication-of-evidence allegations. So, the claim is in. to
find that Graf and Kim knew that the coerced confession
was false.40 Koh argues that Graf and Kim lied in their
40. If Mr. Koh is arguing that the confession’s falsity was
obvious because of the coercive nature of the interrogation, that line
of argument is foreclosed by Seventh Circuit precedent. In Petty v.
City of Chicago, the plaintiff alleged that police officers coerced a
witness into giving false evidence by holding the witness in a locked
room without food, water, or bathroom access for over 13 hours,

82a
Appendix B
police reports recounting Mr. Koh’s interrogation. See
Pls.’ Resp. Br. at 51-52. But this is not the case; the things
Graf and Kim related in their reports were true, as a
literal matter. Mr. Koh did eventually adopt the details
proposed by Graf and recounted in the police reports,
and he did make a hand gesture demonstrating cutting
someone’s throat in response to Graf’s questions about how
he killed Paul. See Video of Hyung Seok Koh Interview
3 18:40-20:09. Similarly, Kim did give Mr. Koh Miranda
warnings (though with some translation errors), and Mr.
Koh did say “kachi jookja,”41 which literally translates to
“Let’s die together.” See Exh. 106, Yoon Dep. 56:11-57:8;
57:13-58:16. It is true that these reports could have been
more detailed, and that if they had been more detailed they
would have presented a fairer picture of the interrogation.
But the Constitution does not guarantee perfectly fair
police reports (or perfectly accurate translations). To be
sure, there must be some point where omissions become
egregious enough to render a police report effectively
false.42 But in this case, the omissions in Graf’s and Kim’s
and badgering and pressuring the witness until he incriminated
the plaintiff. 754 F.3d at 417-18, 423. The Seventh Circuit held that
even this extreme coercion was not enough to demonstrate that the
witness’s testimony was fabricated evidence. Id. at 423. Petty makes
it clear that a claim that officers fabricated false statements cannot
rest on the coercive nature of an interrogation alone. So the fact
that Graf and Kim reported a coerced confession is not, on its own,
enough to make out an evidence fabrication claim.

41. This phrase is sometimes rendered as “gachi jookja,” see,
e.g., Yoon Dep. Tr. 48:6-49:12, 54:12-57:8, but the meaning is the same.
42. For example, in Hurt, a suspect told police that he had
dumped a body in the river, then stopped at a convenience store

83a
Appendix B
police reports were not so misleading as to give rise to an
inference that Graf and Kim were deliberately falsifying
evidence in order to mislead the prosecutors.43 Indeed,
Graf’s report explicitly states that its account of Koh’s
statements is “summary, not verbatim,” and notes that
to buy snacks. 880 F.3d at 837. A police officer interviewed the
convenience store clerk who was working that night, and prepared
a police report stating that a store clerk had identified two of the
suspects in a photo array. Id. at 838. The report neglected to mention
“the most important details”—namely, that the clerk had told the
officer that she did not remember the suspects coming into the
store on the night in question, and that she might have recognized
their faces from watching the news. Id. On these facts, the Seventh
Circuit held that the plaintiffs had a valid evidence fabrication claim
against the police officer who prepared the report. Id. at 844. That
officer’s report, although literally true, was so misleading as to be
effectively false. See also Jones v. City of Chi., 856 F.2d 985, 993 (7th
Cir. 1998) (finding a constitutional violation where a jury could find
that “the defendants systematically concealed from the prosecutors,
and misrepresented to them, facts highly material to—that is,
facts likely to influence—the decision whether to prosecute [the
plaintiff] and whether (that decision having been made) to continue
prosecuting him”).

43. That makes this case different from Jones, where a forensic
examiner’s omission of relevant evidence was clearly designed
to mislead prosecutors. In Jones, a police laboratory technician
discovered physical evidence that would have exonerated the
defendant, but omitted this information from her lab report. Jones,
856 F.2d at 991. On these facts, “[t]he jury was entitled to conclude
that [the technician] ... had for whatever reason decided to help
the officers ... who were determined to put away [the defendant]
regardless of the evidence.” Id. at 993. In contrast, Graf and Kim’s
actions are not so inexplicable that a jury could reasonably conclude
that they were trying to obfuscate the truth and further a false
prosecution.

84a
Appendix B
the interrogation could be viewed in full on videotape. R.
308-46, Exh. 153, Graf Post-Interrogation Police Report.
At the very least, qualified immunity would protect Graf
and Kim on this facts.
Mr. Koh’s next argument is that Graf fabricated a
statement from Paul Koh’s youth pastor, Joon Hwang. See
Pls.’ Resp. Br. at 51-52. Hwang was interviewed by two
non-defendant police officers on the morning of April 16,
2009. Exh. 47, Garner Aff. ¶ 5. According to the officers’
report of the interview, Hwang stated that Mrs. Koh told
him that “maybe Paul was afraid that his father would not
respect his privacy, or perhaps feared his father.” Exh. 47,
NORTAF Interview Report at 2 (emphasis added). Graf
then told ASA Albanese, who was conducting the felony
review of the case, that Hwang said that Paul Koh feared
his father.44 PSOF ¶ 67; see also Exh. 157, Felony Review
Folder (reporting that Paul “made an outcry to a youth
minister [ ] that he was scared of his father”). Hwang now
denies that he ever told police that Paul was afraid of Mr.
Koh, see Exh. 48, Hwang Dep. Tr. 173:5-74:23 (sealed). But
even assuming (as the Court must) that Hwang is telling
the truth, Mr. Koh’s claim fails. The two officers who
interviewed Hwang are not defendants in this case, and
there is no evidence at all that Graf or any other defendant
knew that the interviewing officers’ account of Hwang’s
interview was false. So none of the Defendants is on the
hook for the alleged falsehoods about Hwang’s testimony.
44. The Northbrook defendants dispute this, see Northbrook
Defs.’ Resp. PSOF ¶ 67, but the dispute does not matter. The Kohs’
argument fails even if the Court accepts their version of events.

85a
Appendix B
Mr. Koh’s last theory is that Graf fabricated testimony
by encouraging Paul Koh’s friend Neil Schnitzler to make
false statements that incriminated Mr. Koh. See Pls.’
Resp. Br. at 52-53. In the course of the investigation into
Paul’s death, Schnitzler gave three different statements
to the police, each with slightly different details.45 See
PSOF ¶¶ 68-69. Most importantly, in Schnitzler’s third
statement, Schnitzler told Graf that he had accidentally
called the Kohs’ home on the night of Paul’s death
(intending to call Paul’s cell), and told whoever picked up
the phone “I got the stuff, meet back at my house.” R. 28717, Exh. 75, Schnitzler Dep. Tr. 219:13-20. This testimony
was important because it supported the police officers’
theory that Paul had been out doing drugs on the night
of his death, and that Mr. Koh knew about it and became
angry at Paul. See PSOF ¶ 70.
Unfortunately for the Kohs, there is no evidence at
all that Graf or any other officer falsified Schnitzler’s
testimony. Schnitzler affirms that he made this statement,
and his story is backed up by the Kohs’ home phone
records, which showed a call from Schnitzler’s number
on the night in question. See Exh. 75, Schnitzler Dep.
Tr. 219:13; 218:8-9; see also PSOF ¶ 69. The Kohs assert
that Graf got Schnitzler to lie in exchange for lenience
in Schnitzler’s criminal drug case. See PSOF ¶¶ 69-70;
45. Schnitzler’s first statement to the police was late morning
on the day of Paul’s death, April 16, 2009. See NDSOF Exh. 75,
Schnitzler Dep. Tr. 186:6-187:5. Schnitzler’s next statement was given
on May 2, 2009, after he was arrested for possession of marijuana.
See id. at 199:20-200:3. Schnitzler’s last statement was made during
a phone call with Detective Graf on May 27, 2009. See id. at 216:10-20.

86a
Appendix B
Pls.’ Resp. Br. at 52-53. But there is no actual evidence
to back up this assertion, only unsupported innuendo. See
Delapaz v. Richardson, 634 F.3d 895, 901 (7th Cir. 2011)
(“conjecture alone cannot defeat a summary judgment
motion”) (citation omitted). None of Mr. Koh’s theories
of evidence fabrication hold up, so summary judgment is
granted on the evidence fabrication claim.
E. Malicious Prosecution and Pretrial Detention
The Kohs believe that the Defendants maliciously
prosecuted Mr. Koh, and that Mr. Koh was detained
without probable cause in the time leading up to his
criminal trial in violation of the Fourth Amendment.
The Fourth Amendment claim stems from the Supreme
Court’s recent decision in Manuel v. City of Joliet, which
held that the Fourth Amendment prohibits detention
without probable cause even after a defendant has received
legal process.46 See 137 S. Ct. 911, 918-19, 197 L. Ed. 2d
312 (2017). The malicious prosecution claim is based on
Illinois tort law. To prevail on a malicious prosecution
claim under Illinois law, a plaintiff must establish: “(1)
the commencement or continuation of an original criminal
or civil judicial proceeding by the defendant; (2) the
termination of the proceeding in favor of the plaintiff;
(3) the absence of probable cause of such proceeding; (4)
46. Defendants argue that the Kohs did not properly plead
or pursue a Fourth Amendment claim stemming from Mr. Koh’s
extended pretrial detention; the Kohs disagree. See R. 362, Defs’
Joint Mot. Summ. J at 4-5; R. 363, Pl. Resp. Defs.’ Joint Mot. Summ.
J. at 1. The Court need not resolve this dispute because the claim
fails on the merits.

87a
Appendix B
malice; and (5) damages.” Sang Ken Kim v. City of Chi.,
368 Ill. App. 3d 648, 858 N.E.2d 569, 574, 306 Ill. Dec. 772
(Ill. App. Ct. 2006); accord Cairel v. Alderden, 821 F.3d
823, 834 (7th Cir. 2016) (applying Illinois law).
Both the malicious prosecution claim and the extended
Fourth Amendment claim are stymied by the existence of
probable cause. As discussed above, a reasonable factfinder
would have to find that there was probable cause to detain
Mr. Koh before the start of his second police interview. See
Section III.B.2.a, above. No information later emerged to
destroy probable cause. Indeed, some later-revealed facts
actually reinforced the theory that Mr. Koh killed Paul.
Interviews with Paul’s friends, for example, confirmed
that Paul and Mr. Koh fought frequently, and that Paul
seemed to be afraid of Mr. Koh. See R. 308-13, Exh. 120.
Mazurkiewicz Dep. Tr. 37:15-18; 65:22-66:1; R. 308-15, Exh.
122, Petersen Dep. Tr. 67:16-23; Exh. 75, Schnitzler Dep.
Tr. 195:10-18, 213:18-23. Emerging physical evidence also
suggested that Mr. Koh might be guilty. The Cook County
Medical Examiner who performed Paul’s autopsy concluded
that Paul’s death was a homicide, and found injuries that
could be defensive wounds on Paul’s hands. NDSOF ¶ 106;
Pls.’ Resp. NDSOF ¶ 106; R. 286-7, Exh. 52D, Helma Aff.
Exh. D. Blood spatters were also found on Mr. Koh’s boxer
shorts. R. 308-5, Exh. 112, Trial Tr. 334:5-9.
It is true that some evidence also emerged to support
the competing version that Paul (who by all accounts was
suffering from serious mental health issues) committed
suicide. The same friends who told police about Paul’s
conflict with his father also noted that Paul seemed sad,

88a
Appendix B
depressed, and anxious. Exh. 120, Mazurkiewicz Dep. Tr.
35:17-36:14, 64:13-14. Interviews with the Kohs’ family
members confirmed that Paul was depressed and revealed
that Paul had made comments suggesting that he was
suicidal. R. 308-35, Exh. 142, NORTAF Report of Steven
Cho Interview; Exh. 47, NORTAF Report of Joon Hwang
Interview (reporting that Paul told Hwang, “I don’t want to
live sometimes.”); Exh. 83, May 11, 2010 Pretrial Hr’g Tr.
152:8-10, 152:24-153:2.47 The Kohs’ experts also argue that
the physical evidence was more consistent with suicide than
with murder. See R. 291-3, Exh. 98, Dec. 11, 2012 Trial Tr.
of Dr. Laposata Testimony 69:6-72:11; R. 308-31, Exh. 138,
Moses Dep. Tr. 99:19-25. But it is worth reiterating that
probable cause is a low bar. The inference of the suspect’s
guilt does not need to be more probable than competing
alternatives; a fair probability of guilt is enough. Kaley,
134 S. Ct. 1103. On the undisputed facts, a reasonable jury
would have to find that probable cause existed to believe
that Mr. Koh killed Paul from the time of Mr. Koh’s second
interview all the way through his acquittal. Summary
judgment is therefore granted to all the Defendants on
Mr. Koh’s state-law malicious prosecution and Fourth
Amendment pretrial detention claims.
F. Municipal Liability
In addition to their claims against the individual
defendants, the Kohs seek to hold the Village of
47. Some of this information might have been available even
before Mr. Koh’s second interview, but it is not clear how long it
took for it to filter through to Graf, Wernick, and the other relevant
defendants.

89a
Appendix B
Northbrook liable for violating their constitutional rights.
Municipal liability is permitted under Section 1983 “if
the unconstitutional act complained of is caused by: (1)
an official policy adopted and promulgated by its officers;
(2) a governmental practice or custom that, although not
officially authorized, is widespread and well settled; or (3)
an official with final policy-making authority.” Thomas
v. Cook Cty. Sheriff’s Dep’t, 604 F.3d 293, 303 (7th Cir.
2009); Monell v. N.Y. City Dept. of Social Servs., 436 U.S.
658, 690, 98 S. Ct. 2018, 56 L. Ed. 2d 611 (1978). The Kohs
premise their Monell claims on the first and third grounds
for municipal liability—namely, that a Northbrook Police
Department General Order and Chief Wernick himself
were the moving forces behind their alleged constitutional
violations. See Pls.’ Resp. Br. at 53-59. The Court addresses
each basis for Monell liability in turn.
1. General Order 15.14
Section 15.14, Paragraph 4, of the NPD General
Orders outlines department protocols for managing and
communicating with witnesses at crime scenes:
Unusual Occurrences, Major Crimes Response
Protocol:
4. Witnesses
a. Always use tact when dealing with citizens/
witnesses at crime scenes

90a
Appendix B
i. Some may be potential witnesses
with valuable information
ii. Secure and Separate all witnesses
a) Get names, addresses and
telephone numbers
b) Arrange transportation to
the station
c) Do not release them until
they have been interviewed.
R. 292-3, Exh. 102, NPD General Order 15.14 ¶ 4
(emphasis added); see also NDSOF ¶ 124. According to
the Kohs, Northbrook officers acted pursuant to this
policy when they falsely arrested them the morning of
Paul’s death Pls.’ Resp. Br. at 54-55. The Northbrook
Defendants argue that no reasonable jury could find that
Section 15.14 precipitated the Kohs’ allegedly false arrest,
and that the Order is only a general “guideline[] and [is]
not to be interpreted in a manner inconsistent with the
law.” Northbrook Defs.’ Br. at 34-35.
The express policy theory of municipal liability, as
the name of the theory suggests, applies where a policy
explicitly “violates the constitution when enforced.” Hahn
v. Walsh, 762 F.3d 617, 636 (7th Cir. 2014). The plaintiff
must be able to point to “language in the ... policy that
is constitutionally suspect, [or] he must provide enough
evidence of custom and practice to permit an inference

91a
Appendix B
that the [municipality] has chosen an impermissible way
of operating.” Calhoun v. Ramsey, 408 F.3d 375, 381
(7th Cir. 2005). Liability may attach even where just
“one application of the policy result[s] in a constitutional
violation,” Calhoun, 408 F.3d at 379; see also City of
Oklahoma City v. Tuttle, 471 U.S. 808, 822, 105 S. Ct.
2427, 85 L. Ed. 2d 791 (1985); Hahn, 762 F.3d at 636-37.
There is ample evidence for a jury to reasonably
infer that the Northbrook Defendants acted pursuant
to an unconstitutional policy—Section 15.14—when they
falsely arrested the Kohs the morning of Paul’s death.
Just looking at the language of the Order is enough
to raise eyebrows. Section 15.14 orders officers to
“[s]ecure,” “[s]eparate,” “arrange [for] transport[],” and
hold all witnesses at the police station “until they have
been interviewed.” Exh. 102, NPD General Order 15.14.
Tellingly, there is no prefatory language in Section 15.14
that tempers its application. It would be one thing if
Section 15.14 contained a qualifier requiring officers to
obtain the witnesses’ consent, for example. But there is no
language to this effect. That Section 15.14 on its face gives
officers seemingly boundless authority to seize, transport,
and detain a witness without their consent—and without
stopping to consider the existence of reasonable suspicion
or probable cause—is evidence that the order explicitly
violates the Fourth Amendment.
And there is enough evidence that the officers acted
pursuant to Section 15.14 when they secured and separated
the Kohs at their house before driving them to the station
and holding them there for hours on end. Both Commander

92a
Appendix B
Eisen and Officer Johnson were aware of Section 15.14 in
April 2009;48 they have also admitted that they were aware
of and followed NPD policies when they interacted with the
Kohs the morning after Paul died. See R. 283-1, Exh. 13,
Eisen Aff. ¶ 9 (“As of April 16, 2009, I was aware of Section
15.14 ... .”); R. 292-5; Exh. 104, Johnson Aff. ¶ 9 (same);
R. 308-23, Exh. 130, Eisen and Johnson’s Resp. to Pls.’
March 6, 2015 Requests to Admit, Nos. 1-2 (“Subject to
and without waiving ... objections, [the Defendants] admit
[that they] acted pursuant to the policies of the Northbrook
Police Department during [their] interactions with [the
Kohs] on April 16, 2009.”); see also NDSOF ¶ 125; Pls.’
Resp. NDSOF ¶ 125. And even though the Northbrook
Defendants claim that the NPD’s General Orders were
mere “guidelines,” Northbrook Defs.’ Br. at 34-35, Chief
Wernick testified otherwise, see R. 284-1, Exh. 25, Wernick
Dep. Tr. 168:17-21 (“Q: What does a general order mean
in the Northbrook Police Department? / A: General order,
how we are supposed to operate.”). A reasonable jury could
infer based on this evidence that the Northbrook officers
who responded to Mr. Koh’s 911 call and oversaw the Kohs’
transport to, and detention at, the police station not only
arrested the Kohs, but did so pursuant to Section 15.14.
The problem, of course, is that doing so without probable
cause violated the Fourth Amendment.49 The Northbrook
48. Indeed, every officer is given a copy of the NPD’s General
Orders; supervisors review those orders with officers; and officers
must attest to the fact that they have read and understand those
orders. See R. 308-8, Exh. 115, Caruso Dep. Tr. 25:17-24; R. 284-1,
Exh. 25, Wernick Dep. Tr. 169:5-23.
49. Chief Wernick has even testified that it was perfectly lawful
to detain and investigate the Kohs just because they were the only
two people in the house when Paul died. See R. 284-1, Exh. 25,

93a
Appendix B
Defendants’ motion for summary judgment on this Monell
claim is denied.
2. Chief Wernick
The Kohs’ second theory of municipal liability
is that Chief Wernick—an official with final policymaking authority—directed officers to violate the Kohs’
constitutional rights, or at the very least, ratified their
misconduct. 50 Pls.’ Resp. Br. at 56-58. The Northbrook
Defendants move for summary judgment on this theory
of municipal liability as well, asserting that there is no
evidence from which a jury could infer that Chief Wernick
Wernick Dep. Tr. 23:11-24:19 (“Q: So, anybody who is present in the
home where a homicide takes place can be arrested for a felony; is
that correct? ... / A: If there are only two people in the house, well,
we’re going to bring them both in where a homicide occurred.”);
id. 24:24-28:11 (“Q: What did Mrs. Koh do that you believe was
enough to have her arrested for a felony / A: She was present when
a homicide occurred. ... Q: And based on your understanding of the
Illinois statutes, that was enough for an arrest; is that correct? ... /
A: We brought her in with her husband, and we had her in the station
until we could figure out what happened.”). This course of action is
precisely what Section 15.14 instructs Northbrook officers to do, but
it does not square with the Fourth Amendment in this case, absent
probable cause that the Kohs committed a crime.

50. The Second Amended Complaint states that in addition
to “ratif[ying] and authoriz[ing] the[ir] unlawful detentions ... as
well as the coercive interrogation of [Mr. Koh],” Chief Wernick also
“ratified and authorized ... strip searches of [the Kohs].” See Second
Am. Compl. ¶ 65. But the Kohs do not address the strip search issue
in their response brief, see Pls.’ Resp. Br., so the Court will treat
that portion of their Monell claim as withdrawn.

94a
Appendix B
directly caused any alleged constitutional violation.
Northbrook Defs.’ Br. at 35-36.
To proceed on a final policymaker theory of municipal
liability, the Kohs must establish, among other things,
that there is at least a genuine issue of fact as to whether
Chief Wernick caused any of their alleged constitutional
injuries. See King v. Kramer, 763 F.3d 635, 649 (7th Cir.
2014); Estate of Sims ex rel. Sims v. Cty. of Bureau, 506
F.3d 509, 515 (7th Cir. 2007). To be sure, Chief Wernick
“need not [have] participate[d] directly in the deprivation
[of civil rights],” in order for liability to attach. Backes v.
Vill. of Peoria Heights, Ill., 662 F.3d 866, 869-70 (7th Cir.
2011) (quotations and citations omitted). But there must be
enough evidence from which a jury could infer that Chief
Wernick “kn[e]w about the [mis]conduct and facilitate[d]
it, approve[d] it, condone[d] it, or turn[ed] a blind eye for
fear of what [he] might see.” Id. at 870 (quotations and
citations omitted).
Even assuming that Chief Wernick was Northbrook’s
final policymaker—an issue which the parties dispute,
see Pls.’ Resp. Br. at 56-57, Northbrook Defs.’ Reply Br.
at 35 n. 36—a reasonable jury could not find that Chief
Wernick caused the Kohs’ alleged constitutional violations.
The Kohs cannot point to any evidence that Chief Wernick
ordered their false arrest or that he directed Officers Graf,
Ustich, and Kim to coerce a confession out of Mr. Koh.
That Chief Wernick was one of the officers who responded
to Mr. Koh’s 911 call; investigated Paul’s death; attended
briefings on the investigation; viewed the videotape of
Mr. Koh’s interrogation; and oversaw the investigation as

95a
Appendix B
both the executive director of NORTAF and Northbrook’s
Chief of Police, see Pls.’ Resp. Br. at 57-58, is not enough.
See Jackson v. City of Chi., 645 F. Supp. 926, 928 (N.D.
Ill. 1986) (“[A] single incident of constitutional deprivation
resulting from a direct command by a municipal
policymaker will satisfy the Monell ‘policy’ requirement
if the enforcement of that command directly caused
the constitutional violation.” (emphasis added) (citing
Pembaur v. City of Cincinnati, 475 U.S. 469, 106 S. Ct.
1292, 89 L. Ed. 2d 452 (1986)). So, summary judgment on
this Monell claim is granted.
G. Loss of Consortium
Last up is Mrs. Koh’s state-law loss of consortium
claim, which is premised on her loss of her husband’s
companionship during his years-long pretrial detention.
Under Illinois law, when one spouse is tortiously injured,
the other spouse may recover from the tortfeasor for the
resulting loss of support, society, and companionship.
Pease v. Ace Hardware Home Ctr. of Round Lake No.
252c., 147 Ill. App. 3d 546, 498 N.E.2d 343, 349, 101 Ill.
Dec. 161 (Ill. App. 1986). At this point, Mr. Koh’s state-law
tort claim for malicious prosecution has been dismissed,
and all that remains are his constitutional claims.
Neither party has briefed whether a state-law loss
of consortium claim can arise out of a constitutional
claim. 51See Pls.’ Resp. Br. at 70 (arguing that the loss of
51. As opposed to the theory that a spouse has an independent
constitutional consortium claim arising out of violations of her
spouse’s rights. See Russ v. Watts, 414 F.3d 783, 790 (7th Cir. 2005);
Niehus v. Liberio, 973 F.2d 526, 534 (7th Cir. 1992).

96a
Appendix B
consortium claim should survive if the underlying claims
do, but not specifying the underlying claims). At least one
court of appeals has held (albeit in unpublished decisions)
that a state-law loss of consortium claim can arise from
violation of a spouse’s constitutional rights. Gross v. City of
Dearborn Heights, 625 Fed. Appx. 747, 754 (6th Cir. 2015)
(remanding husband’s loss-of-consortium claim because
wife’s § 1983 excessive force claim survived); Boyer v.
Lacy, 665 Fed. Appx. 476, 485 (6th Cir. 2016); see also
Kinzer v. Metropolitan Govt. of Nashville, 451 F. Supp.
2d 931, 934-947 (M.D. Tenn. 2006). The Seventh Circuit
implied in dicta that a state-law consortium claim can
be joined to a spouse’s constitutional claim. See Niehus
v. Liberio, 973 F.2d 526, 530, 534 (7th Cir. 1992) (“We
add that the authority newly conferred by Congress to
join a state-law claim for consortium with the spouse’s
constitutional claim, and thus bring both in federal court,
will enable persons similarly situated to the Niehuses to
obtain full compensation in a single proceeding.”). The
Court will not decide the issue without the benefit of
full briefing. The burden is on the Defendants to show
entitlement to judgment as a matter of law, and they have
not done so. The loss of consortium claim survives for now.
IV. Conclusion
For the reasons discussed, the following claims
survive and may go to trial:
• The Kohs’ Fourth Amendment false arrest claims
against the Northbrook Defendants (Count One),
although Mr. Koh’s claim ends when officers had
probable cause before his second interview.

97a
Appendix B
• Mr. Koh’s Fifth Amendment coerced confession
claim (Count Two).
• Conspiracy and Failure to Intervene (Counts Three
and Five), except as described in the Opinion, and
with the warning that, at trial, some Defendants
almost surely will not be subject to these claims.
• Municipal liability against Northbrook (Count Four)
for false arrest.
• Mrs. Koh’s loss of consortium claim (Count Eight).
• Respondeat superior and indemnification against
Northbrook and Wheeling (Counts Nine and Ten)
remain intact insofar as the underlying claims do.
Summary judgment is granted to Defendants on the
remaining claims:
• Mr. Koh’s state-law malicious prosecution claim
(Count Six).
• Mr. Koh’s substantive due process claim based on
his coerced confession (Count Two).
• Mr. Koh’s due process evidence fabrication claim
(Count Six).
• Mr. Koh’s Fourth Amendment claim based on his
pretrial detention.

98a
Appendix B
ENTERED:
/s/ Edmond E. Chang
Honorable Edmond E. Chang
United States District Judge
DATE: March 30, 2018

